APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, Supreme Court of Texas,
Episcopal Diocese of Fort Worth v.
Episcopal Church, No. 18-0438 (May 22,
2020)............................................................. App-1
Appendix B
Opinion, Court of Appeals for the Second
District of Texas, Episcopal Church v.
Salazar, No. 02-15-00220-CV (Apr. 5,
2018)........................................................... App-37
Appendix C
Final Judgment, Texas District Court,
Tarrant County, 141st Judicial District,
Episcopal Church v. Salazar, No. 141252083-11 (July 24, 2015) ....................... App-228
Appendix D
Opinion, Supreme Court of Texas,
Episcopal Diocese of Fort Worth v.
Episcopal Church, No. 11-0265 (Aug. 30,
2013)......................................................... App-232
Appendix E
Amended Order on Summary Judgment,
Texas District Court, Tarrant County,
141st Judicial District, Episcopal Church
v. Salazar, No. 141-237105-09 (Feb. 8,
2011)......................................................... App-264

App-1
Appendix A
SUPREME COURT OF TEXAS
________________
No. 18-0438
________________
THE EPISCOPAL DIOCESE OF FORT WORTH, et al.,
v.

Petitioners,

THE EPISCOPAL CHURCH, et al.,
Respondents.
________________
Argued: Dec. 5, 2019
Decided: May 22, 2020
________________
Before: Chief Justice Nathan L. Hecht, Justices Paul
W. Green, Eva M. Guzman, Debra H. Lehrmann,
Jeffrey S. Boyd, John P. Devine, James D. Blacklock,
and J. Brett Busby
________________
OPINION
________________
JUSTICE GUZMAN delivered the opinion of the
Court.
JUSTICE BLAND did not participate in the
decision.
Following a disagreement over religious doctrine,
the Episcopal Diocese of Fort Worth and a majority of
its congregations withdrew from The Episcopal
Church. The church replaced the diocese’s leaders

App-2
with church loyalists, and both the disaffiliating and
replacement factions claimed ownership of property
held in trust for the diocese and local congregations.
As all parties agree, a corporate entity holds legal title
to the disputed property for the benefit of the
Episcopal Diocese of Fort Worth and congregations in
union with that diocese’s convention. 1 The central
issue on appeal is narrow: which faction of the
splintered Episcopal diocese is the “Episcopal Diocese
of Fort Worth”? The withdrawing faction contends
that under the diocese’s organizational documents,
the
unincorporated
association’s
identity
is
determined by the majority. The church and the
loyalists contend the entity’s identity is an
ecclesiastical determination the First Amendment
requires courts to accept and, under secular law, a
subordinate entity in a tiered association cannot
unilaterally withdraw from the association even under
organizational documents providing for majority rule.
When this property dispute first came to the
Court on direct appeal seven years ago, we held that
what happens to property following a religious entity’s
disassociation from a hierarchical church is a
nonecclesiastical issue to be determined based on the
same neutral principles of law applicable to other
entities unless the entity’s affairs “have been ordered
so that ecclesiastical decisions effectively determine

1 Most of the disputed property is held in trust for a particular
congregation, but some property, including administrative and
recreational buildings, is held in trust for the diocese.

App-3
the property issue.” 2 Applying neutral principles to
the undisputed facts, we hold that (1) resolution of this
property dispute does not require consideration of an
ecclesiastical question, 3 (2) under the governing
documents, the withdrawing faction is the Episcopal
Diocese of Fort Worth, and (3) the trial court properly
granted summary judgment in the withdrawing
faction’s favor. We therefore reverse the court of
appeals’ contrary judgment.
I.

Background

The Episcopal Church (TEC) in the United States
is a three-tiered religious organization founded in
1789. The first and highest tier of the organization is
the General Convention, which consists of
representatives from each regional diocese and most
TEC bishops. 4 The second tier is composed of
geographically defined regional dioceses, each of
which is governed by its own constitution and canons
but must also accede to the General Convention’s
constitutions and canons. 5 Each diocese elects a
2 Episcopal Diocese of Fort Worth v. Episcopal Church, 422
S.W.3d 646, 650 (Tex. 2013); Masterson v. Diocese of Nw. Tex., 422
S.W.3d 594, 607 (Tex. 2013).

See Jones v. Wolf, 443 U.S. 595, 604 (1979) (“[T]here may be
cases where the deed, the corporate charter, or the constitution
of the general church incorporates religious concepts in the
provisions relating to the ownership of property.”).
3

A “convention” is a legislative body of the church, and the
“General Convention” is the national legislative body of the
Episcopal Church. An Episcopal Dictionary of the Church,
https://episcopalchurch.org/library/glossary/general-convention.
4

5 “Canons are the written rules that provide a code of laws for
the governance of the church.” Id.

App-4
bishop (Diocesan Bishop) who is subject to TEC’s
ecclesiastical regulation, and each diocese is governed
by a legislative body called a convention (Diocesan
Convention). The Diocesan Bishop, clergy, and lay
representatives from each congregation in the diocese
comprise the convention. The third tier is composed of
local parishes, missions, and congregations, which in
turn adopt the constitution and canons of their
regional diocese and the General Convention.
In 1982, the Episcopal Diocese of Fort Worth (Fort
Worth Diocese) was formed as an unincorporated
association after the Episcopal Diocese of Dallas voted
to divide. Since its inception, the Fort Worth Diocese’s
constitution has provided that church property
“acquired for the use of a particular Parish or Mission”
shall be held by the Corporation of the Episcopal
Diocese of Fort Worth (the Diocesan Corporation) “in
trust for the use and benefit of such Parish or Mission”
that is in union with the diocese’s convention (the
Diocesan Trust). 6 The constitution further provides
Article 14 (formerly Article 13) of the Fort Worth Diocese’s
constitution states:
6

The title to all real estate acquired for the use of the
Church in this Diocese, including the real property of
all Parishes and Missions, as well as Diocesan
Institutions, shall be held subject to control of the
Church in The Episcopal Diocese of Fort Worth acting
by and through a corporation known as “Corporation
of the Episcopal Diocese of Fort Worth.” All such
property as well as all property hereafter acquired for
the use of the Church and the Diocese, including
Parishes and Missions, shall be vested in Corporation
of the Episcopal Diocese of Fort Worth.
Corporation for the Episcopal Diocese of Fort Worth
shall hold real property acquired for the use of a

App-5
that if a parish or mission dissolves, the property held
in trust by the Diocesan Corporation “shall revert to
said Corporation for the use and benefit of the Diocese,
as such.” Since its inception, amendments to the
diocese’s constitution and canons have been
authorized based on a majority vote of the Diocesan
Convention. 7 Under the governing documents,
election of the Diocesan Bishop and members of the
diocese’s standing committee require either a
concurrent majority vote of diocesan clergy and laity
attending the convention or a super-majority vote,
depending on the circumstances.
The Fort Worth Diocese’s canons require the
Diocesan Corporation’s affairs to be conducted and
administered by a Board of Trustees of five elected
members, all of whom must be either (1) lay persons
“in good standing of a parish or mission in the
Diocese,” or (2) “members of the Clergy canonically
resident in the Diocese.” The Diocesan Bishop serves
as Chairman of the Board unless the bishop
designates another officer of the corporation to serve
particular Parish or Mission in trust for the use and
benefit of such Parish or Mission. . . . Such property
may not be conveyed, leased or encumbered by
Corporation of the Episcopal Diocese of Fort Worth
without the consent of the Rector, Wardens and Vestry
of such Parish or Mission. Upon dissolution of such
Parish or Mission, property held in trust for it shall
revert to said Corporation for the use and benefit of the
Diocese, as such.
All other property belonging to the Diocese, as such,
shall be held in the name of the Corporation . . . .
7 Article 2 of the Diocesan Constitution defines “convention” as
the diocese’s legislative body.

App-6
as such. The canons empower the Board of Trustees to
conduct the corporation’s affairs “in accordance with
its charter and by-laws and in accordance with the
Constitution and Canons of the Diocese from time-totime adopted.”
In 1982, after the Fort Worth Diocese adopted its
constitution and canons (Diocesan Constitution and
Canons), it was admitted into union with TEC. At that
time, the new diocese and every congregation in its
jurisdiction “fully subscribe[d] to and accede[d] to the
Constitution and Canons of The Episcopal Church.”
The “Dennis Canon,” which purports to impose a trust
on all church property for TEC’s benefit, has been
among TEC’s governing principles since 1979. In
contrast to the Diocesan Trust, it provides:
All real and personal property held by or for
the benefit of any Parish, Mission or
Congregation is held in trust for this Church
and the Diocese thereof in which such Parish,
Mission or Congregation is located. The
existence of this trust, however, shall in no
way limit the power and authority of the
Parish, Mission or Congregation otherwise
existing over such property so long as the
particular Parish, Mission or Congregation
remains a part of, and subject to, this Church
and its Constitution and Canons.
In 1983, the Fort Worth Diocese filed articles
incorporating the Diocesan Corporation as a Texas
nonprofit of perpetual duration. Consistent with the
Diocesan Constitution and Canons, the articles of
incorporation required the corporation to administer
trust property “in accordance with the Constitution

App-7
and Canons of the Episcopal Diocese of Fort Worth as
they now exist or as they may hereafter be amended.”
At that time, the corporate bylaws also provided that
“the affairs of this nonprofit corporation shall be
conducted in conformity with the Constitution and
Canons of the Episcopal Church in the United States
of America and the Constitution and Canons of the
Episcopal Diocese of Fort Worth, as they may be
amended or supplemented from time to time.” Bylaws
consistent with the Diocesan Constitution and Canons
established the number of trustees, the terms of office,
and the procedure for electing trustees and filling
vacancies. 8 Amendments to the bylaws were
authorized on a majority vote of trustees attending
any regular or special board meeting. The year after
incorporation, friendly litigation between the Fort
Worth and Dallas dioceses resulted in a judgment
vesting legal title of certain real and personal property
in the Diocesan Corporation.
Five years later, in 1989, the Fort Worth Diocese
repudiated any trust imposed by the Dennis Canon by
amending its canons to expressly disclaim the
existence of a trust for TEC’s benefit:
Property held by the Corporation for the use
of a Parish, Mission or Diocesan School
belongs beneficially to such Parish, Mission
or Diocesan School only. No adverse claim to
such beneficial interest by the Corporation,
by the Diocese, or by The Episcopal Church of
the
United
States
of
America
is
acknowledged, but rather is expressly denied.
8

See Tex. Bus. Orgs. Code § 22.207.

App-8
Nearly two decades later, unresolved doctrinal
differences culminated in a schism that precipitated
this dispute. In 2006, the Diocesan Corporation
unanimously amended its articles and bylaws to
remove all references to TEC. The amendments also
gave the trustees authority to determine the Diocesan
Bishop’s identity for purposes of the governing
documents, if identity is disputed; allowed a majority
of trustees to select the Chairman of the Board when
the diocese is without a bishop; and authorized
removal of a trustee by a majority of the board rather
than by the bishop. The amendments did not alter the
terms of office or change the process for electing
trustees or filling vacancies, but as of 2006, the bylaws
required the corporation’s trustees to be “lay persons
in good standing of a parish or mission in the body now
known as the Episcopal Diocese of Fort Worth, or
members of the clergy canonically resident within the
geographical region of the body now known as the
Episcopal Diocese of Fort Worth.”
Believing TEC had embraced doctrine reflecting
“a substantial departure from the biblical and historic
faith,” the 2007 and 2008 conventions of the Fort
Worth Diocese also voted overwhelmingly to withdraw
from union with TEC. To that end, the conventions
amended the Diocesan Constitution and Canons to
remove references to TEC and to reflect membership
with the Anglican Province of the Southern Cone. 9
9 For example, prior to 2008, the preamble to the Diocesan
Constitution and Canons referred to the Fort Worth Diocese as
“the Clergy and Laity of the Episcopal Church resident in that
portion of the State of Texas constituting what is known as The
Episcopal Diocese of Fort Worth,” but on a majority vote, the

App-9
Under the continued leadership of Bishop Jack Iker,
and operating as the “Episcopal Diocese of Fort
Worth,” the withdrawing faction which constituted the
vast majority of the diocese retained control of
property acquired for the use and benefit of the diocese
and its congregations. 10
Ecclesiastical and legal ramifications ensued from
these actions. In December 2008, TEC accepted
Bishop Iker’s renunciation and removed him from all
positions of authority within the church. TEC and
clergy for the remaining congregants (collectively
TEC) took the position that (1) the majority had no
power to unilaterally withdraw a diocese from the
hierarchical church, (2) those voting to do so
contemporaneously vacated their official positions and
immediately lost their status as communicants in good
standing, and (3) any changes to the diocese’s and
corporation’s organizational documents were void ab
initio. In light of these determinations, TEC convened
a special convention of the loyal faction to fill the
offices “vacated” by those who had voted to disaffiliate
from the national church. The special convention
voted to reverse the constitutional amendments
adopted at the 2007 and 2008 Diocesan Conventions;
declared all offices of the diocese and the corporation’s
Board of Trustees vacant; and elected new “qualified”
leaders for both the diocese and the corporation.
Replacement of diocesan and corporate leaders
admittedly did not comport with the requirements of
preamble was amended to describe the diocese as “the Clergy and
Laity of the Episcopal Diocese of Fort Worth.”
10 Three congregations loyal to TEC left the Fort Worth
Diocese, taking their property with them.

App-10
the organizational documents, but TEC viewed the
circumstances
as
an
unforeseen
emergency
necessitated by improper actions of the former
leadership. After recognizing the remaining Episcopal
congregations and new leadership as the continuing
“Episcopal Diocese of Fort Worth,” TEC sued the
opposing diocese and its leaders, the opposing
corporate leaders, and departing congregations
(collectively the Majority Diocese) to recover church
property and endowment funds both factions claimed
to control under the Diocesan Trust. TEC also laid
claim to the property under the Dennis Canon. The
heart of the dispute is the identity of the Fort Worth
Diocese.
On cross-motions for summary judgment, a
central issue was whether the property dispute should
be resolved using the “deference” methodology or
“neutral principles of law.” “A court applying the
deference approach defers to and enforces the decision
of the highest authority of the ecclesiastical body to
which the matter has been carried.” 11 “Under the
neutral principles methodology, ownership of disputed
property is determined by applying generally
applicable law and legal principles [and] will usually
include considering evidence such as deeds to the
properties, terms of the local church charter (including
articles of incorporation and [bylaws], if any), and
relevant provisions of governing documents of the
general
church.” 12
Applying
the
deference
Masterson v. Diocese of Nw. Tex., 422 S.W.3d 594, 602 (Tex.
2013).
11

12

Id. at 603.

App-11
methodology, the trial court granted summary
judgment in TEC’s favor.
On direct appeal, we reversed, holding Texas
courts must use neutral principles of law to determine
“which faction is entitled to a religious organization’s
property following a split or schism[.]” 13 Though both
the deference and neutral principles methodologies
are constitutionally permissible, we adhere to the
latter as the exclusive methodology “because it better
conforms to Texas courts’ constitutional duty to decide
disputes within their jurisdiction while still respecting
limitations the First Amendment places on that
jurisdiction.” 14 In a companion case issued the same
day, we explained that “courts are to apply neutral
principles of law to issues such as land titles, trusts,
and corporate formation, governance, and dissolution,
even when religious entities are involved.” 15 We
remanded the case to the trial court to allow the
parties to develop a record under the appropriate
methodology. 16
To provide guidance on remand, we also
addressed certain arguments the parties had made
regarding application of the neutral-principles
methodology. Among other things, we held that “who
is or can be a member in good standing of TEC or a
diocese is an ecclesiastical decision,” but the
determinations TEC, the replacement bishops, and
13 Episcopal Diocese of Fort Worth v. Episcopal Church, 422
S.W.3d 646, 647 (Tex. 2013).
14

Masterson, 422 S.W.3d at 596.

15

Id. at 606.

16

Episcopal Diocese, 422 S.W.3d at 651-52.

App-12
the 2009 special convention made as to those matters
“[did] not necessarily determine whether the earlier
actions of the corporate trustees were invalid under
Texas law.” 17 Rather, Texas corporations law “dictates
how the corporation can be operated, including
determining the terms of office of corporate directors,
the circumstances under which articles and bylaws
can be amended, and the effect of the amendments,”
and the summary judgment record did not
conclusively establish that “the trustees had been
disqualified from serving as corporate trustees at the
relevant times.” 18 Regarding the existence of a
canonical trust, we held that “even assuming a trust
was created as to parish property by the Dennis
Canon,” trusts are revocable under Texas law unless
they are expressly made irrevocable and “the Dennis
Canon ‘simply does not contain language making the
trust expressly irrevocable[.]’” 19 Finally, we rejected
TEC’s retroactive application complaint because the
neutral principles methodology was substantively
applied more than a century ago in Brown v. Clark. 20
On remand, the parties once again filed crossmotions for summary judgment with the opposite
result ensuing from the application of neutral
principles. The trial court (1) granted final judgment
in the Majority Diocese’s favor as to the disputed real
property and endowment funds; (2) declared that since
17

Id. at 652 (emphasis added).

18

Id. (citing Tex. Bus. Orgs. Code §§ 22.001-.409).

19 Id. at 653 (quoting Masterson, 422 S.W.3d at 613, and citing
Tex. Prop. Code §§ 112.004, .051).
20

Id. (citing Brown v. Clark, 116 S.W. 360 (Tex. 1909)).

App-13
2005, the trustees of the Diocesan Corporation were
the duly elected representatives from the Majority
Diocese, including Bishop Iker as Chairman of the
Board; and (3) permanently enjoined TEC’s clergy and
leaders from acting as “The Episcopal Diocese of Fort
Worth.”
The court of appeals reversed and rendered in
part, reversed and remanded in part, and affirmed in
part without a majority opinion. 21 A lone opinion,
joined only by its author, provides an exhaustive
account of the record and a dissertation on the neutral
principles methodology. For convenience, we refer to
that opinion as the court of appeals’ opinion.
The court held that (1) the Diocesan Trust is
invalid, so real property ownership must be
determined based on property-deed language; (2) the
Dennis Canon trust is not enforceable under Texas
law because “a proposed beneficiary [like TEC] cannot
unilaterally name itself as the beneficiary of a trust
involving another entity’s property”; (3) the First
Amendment requires deference to TEC’s identification
of the diocese affiliated with TEC because the
organizational result of a schism is an ecclesiastical
matter; (4) TEC lacks standing to claim control of the
Diocesan Corporation; (5) the corporation’s governing
documents were amenable to amendment but the
language used in the 2006 bylaws “the body now
known as” the Fort Worth Diocese refers to the diocese
affiliated with TEC because in 2006, the Fort Worth
diocese was affiliated with TEC; (6) after 2008, the
21 547 S.W.3d 353 (Tex. App.—Fort Worth 2018). One panel
member retired while the case was pending and the other
concurred in the judgment without issuing an opinion.

App-14
TEC-affiliated faction is the only one entitled to
appoint the corporation’s board; and (7) a constructive
trust and other equitable relief is not available
because “[whether] Bishop Iker and the rest are the
perfidious oath-breakers characterized by the TEC
parties is . . . inextricably intertwined with First
Amendment implications.” The court rendered
judgment for TEC in part using 2 of 121 deeds as
exemplars and remanded to the trial court to resolve
the property dispute as to the remaining properties
and disputed endowment funds.
We granted the Majority Diocese’s petition for
review and TEC’s conditional cross petition.
II. Discussion
Congregants, local churches, and leaders of
religious entities are free to disassociate from a
hierarchical church at any time. The critical question
is who keeps the property. With ten years of litigation
behind them, all parties to this dispute now agree
that:
•
•
•
•
•

the Diocesan Trust is valid and enforceable
according to its terms;
the Diocesan Corporation holds legal title to the
disputed property;
equitable title is settled by the Diocesan Trust’s
terms;
the trust beneficiaries are the local parishes
and missions in union with the Convention of
the Fort Worth Diocese;
which parishes and missions are in union with
each faction and which congregants are in good
standing with each faction are ecclesiastical
issues, but neither party challenges the good-

App-15
standing of opposing members in the opposing
parishes or the union of opposing congregations
with the opposing diocese; and
• the only issue with regard to the Diocesan Trust
is which faction constitutes the continuation of
the Fort Worth Diocese.
In resolving this dispute, both sides acknowledge that
Episcopal Diocese of Fort Worth v. Episcopal Church 22
and Masterson v. Diocese of Northwest Texas 23 require
application of neutral principles of law, but they
disagree about how those principles apply to this case.
The Majority Diocese asserts that the Diocesan
Constitution and Canons affirm its identity as the
Fort Worth Diocese because all actions taken to
disassociate conformed with its provisions and were
not in conflict with the terms of the General
Covention’s constitution and canons. TEC takes the
position that, even under neutral principles, Texas
courts must defer to a hierarchical church’s superior
authority to determine which faction constitutes the
true diocese. In TEC’s view, the identity of the Fort
Worth Diocese is a church membership issue, not a
property issue, because the church does not recognize
the power of a subordinate unit to secede. Accordingly,
TEC contends the property dispute is settled in its
favor as an “incidental effect” of the hierarchical
church’s ecclesiastical determinations regarding the
Fort Worth Diocese’s qualified representatives. TEC
further contends that under Texas unincorporated
associations law, a subordinate entity of a tiered
22

422 S.W.3d at 646-47.

23

422 S.W.3d at 596.

App-16
organization cannot be unilaterally withdrawn even
on the vote of a majority.
In addition, and in the alternative, TEC claims
beneficial title under the terms of the Dennis Canon,
which it maintains is a valid trust that either could
not be revoked by the 1989 amendment to the
Diocesan Constitution and Canons or is irrevocable as
a contractual trust. And if TEC does not prevail under
either of the express trusts, it seeks control of the
disputed church property under constructive-trust
and quasi-estoppel theories. Finally, TEC challenges
the ruling of the lower courts that it lacks standing to
pursue its claims as to the Diocesan Corporation.
A. Neutral Principles of Law
Church property disputes predate our nation’s
founding, but the passage of time has not made
resolving such matters any less complicated. States
have “an obvious and legitimate interest in the
peaceful resolution of property disputes, and in
providing a civil forum where the ownership of church
property can be determined conclusively.” 24 Even so,
the First Amendment of the United States
Constitution “severely circumscribes the role that civil
courts may play in resolving church property
disputes.” 25 “Most importantly, the First Amendment
prohibits civil courts from resolving church property
disputes on the basis of religious doctrine and

24

Jones v. Wolf, 443 U.S. 595, 602 & n.1 (1979).

25 Id. (quoting Presbyterian Church v. Mary Elizabeth Blue
Hull Mem’l Presbyterian Church, 393 U.S. 440, 449 (1969)).

App-17
practice.” 26 But the “conflicting pressures” 27 exerted
by the First Amendment’s free exercise and
establishment clauses require courts to walk a fine,
and often indistinct, line in adjudicating ownership of
church
property
when
hierarchical
entities
28
disassociate.
Church property disputes involving hierarchical
church organizations, like TEC, are challenging
because their organizational structure requires
subordinate units to accede to ecclesiastical control by
higher authorities. Historically, three different
approaches have been employed to resolve those
disputes: the departure-from-doctrine principle, which
requires courts to award property to whichever faction
of the church adheres to “the true standard of faith”; 29
the deference approach, which requires courts to defer
to and enforce the decision of the highest authority of
the ecclesiastical body to which the matter has been
carried; 30 and the neutral principles of law method,
26

Id.

27

Cutter v. Wilkinson, 544 U.S. 709, 719 (2005).

See Masterson, 422 S.W.3d at 606; see also Serbian E.
Orthodox Diocese v. Milivojevich, 426 U.S. 696, 734 (1976)
(Rehnquist, J., dissenting) (cautioning that blind deference to
church determinations may avoid a free exercise problem but
create “far more serious” Establishment Clause problems).
29 Watson v. Jones, 80 U.S. 679, 727-29 (1871); see Jones, 443
U.S. at 599 & n.1.
28

30 Jones, 443 U.S. at 603-05; see Watson, 80 U.S. at 727-29
(“[W]henever the question of discipline, or of faith, or
ecclesiastical rule, custom, or law have been decided by the
highest of church judicatories to which the matter has been
carried, the legal tribunals must accept such decisions as final,
and as binding on them.”).

App-18
which allows courts to settle church property disputes
by examining in a purely secular manner the language
of deeds, local church charters, state statutes, and
provisions of a general church’s constitution. 31 The
United States Supreme Court has rejected the
departure-from-doctrine method (also known as the
“English approach”) as contrary to the First
Amendment. 32 But both the deference and neutral
principles
methodologies
are
constitutionally
33
permissible. “Indeed, ‘a State may adopt any one of
various approaches for settling church property
disputes so long as it involves no consideration of
doctrinal matters . . . or the tenets of faith.’” 34 A
majority of states, including Texas, apply the neutral
principles approach. 35
The United States Supreme Court’s leading
neutral principles case is Jones v. Wolf, which involved
Jones, 443 U.S. at 602-03; see Watson, 80 U.S. at 727-29
(“Religious organizations come before us in the same attitude as
other voluntary associations . . . and their rights are equally
under the protection of the law . . . [according to decisive
principles] applicable alike to all of its class[.]”).
31

Jones, 443 U.S. at 599 & n.1 (1979); Presbyterian Church v.
Mary Elizabeth Blue Hull Mem’l Presbyterian Church, 393 U.S.
440, 443 & n.2, 449-50 (1969); Watson, 80 U.S. at 727-29; see U.S.
Const., amend. I (“Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof[.]”).
32

33

Jones, 443 U.S. at 602-04; Watson, 80 U.S. at 727-29.

Jones, 443 U.S. at 602 (quoting Md. & Va. Churches v.
Sharpsburg Church, 396 U.S. 368, 500 (1970) (Brennan, J.,
concurring) (emphasis in original)).
34

35 Masterson v. Diocese of Nw. Tex., 422 S.W.3d 594, 606-07 &
n.6 (Tex. 2013).

App-19
a property dispute after a local church split from a
hierarchal church organization. 36 There, like here, the
local church’s actions were subject to ecclesiastical
review and regulation by the higher church. 37 But the
Supreme Court approved the state court’s use of the
neutral principles methodology to determine
ownership of the property. 38 Jones identifies several
advantages of the neutral principles approach,
including that it (1) “promises to free civil courts
completely from entanglement in questions of
religious doctrine, polity, and practice”; (2) is “flexible
enough to accommodate all forms of religious
organization and polity”; and (3) encourages churches
to avail themselves of “appropriate reversionary
clauses and trust provisions” to control what happens
to church property if a dispute arises, such as by
identifying “what religious body will determine
ownership in the event of a schism or doctrinal
controversy.” 39 The Court explained that neutral
principles of law rely exclusively on objective, wellestablished concepts of trust and property law that are
familiar to judges and lawyers and produce outcomes
reflecting the parties’ intentions before the dispute
erupted. 40
But the neutral principles approach is not without
limitations. When ecclesiastical questions are at issue,
“deference is compulsory because courts lack
36

443 U.S. at 597.

37

Id. at 598.

38

Id. at 603.

39

Id.

40

Id. at 603, 606.

App-20
jurisdiction to decide ecclesiastical questions.” 41 So
while neutral principles of law are applied to issues
“such as land titles, trusts, and corporate formation,
governance, and dissolution, even when religious
entities are involved,” 42 if an instrument “incorporates
religious concepts” so that “interpretation of the
instruments of ownership would require the civil court
to resolve a religious controversy,” the court must
defer to the authoritative ecclesiastical body’s
resolution of that issue. 43 And in some instances,
“deferring to decisions of ecclesiastical bodies in
matters reserved to them by the First Amendment
may . . . effectively determine the property rights in
question.” 44
Such was the case in Serbian Eastern Orthodox
Diocese v. Milivojevich in which a defrocked bishop
asked the civil court to declare him the “true Diocesan
Bishop” of an undivided diocese. 45 When the Mother
Church in Russia removed Bishop Milivojevich from
his post as head of the diocese and reorganized the
diocese by dividing it into three parts, Milivojevich
sued in Illinois state court to reverse the church’s
disciplinary and organizational determinations on the
basis that the church’s tribunal exceeded the scope of
41

Materson, 422 S.W.3d at 602.

42

Id. at 606.

43 Jones, 443 U.S. at 604; see Serbian E. Orthodox Diocese v.
Milivojevich, 426 U.S. 696, 709 (1976) (the dispute “essentially
involve[d] not a church property dispute, but a religious dispute
the resolution of which . . . is for ecclesiastical and not civil
tribunals”).
44

See Milivojevich, 426 U.S. at 709.

45

Id. at 707.

App-21
its authority under church law and therefore acted
arbitrarily. 46 The state court ruled in Milivojevich’s
favor, holding the Mother Church violated its own
procedures and internal regulations and lacked
authority to divide the diocese.
On appeal, the Supreme Court reversed,
observing the state court’s judgment “rest[ed] upon an
impermissible rejection of the decisions of the highest
ecclesiastical
tribunals”
and
impermissibly
substituted its own inquiry into church polity. The
Court explained:
For civil courts to analyze whether the
ecclesiastical actions of a church judicatory
are in that sense “arbitrary” must inherently
entail inquiry into the procedures that canon
or ecclesiastical law supposedly requires the
church judicatory to follow, or else into the
substantive criteria by which they are
supposedly to decide the ecclesiastical
question. But this is exactly the inquiry that
the First Amendment prohibits; recognition
of such an exception would undermine the
general rule that religious controversies are
not the proper subject of civil court inquiry,
and that a civil court must accept the
ecclesiastical decisions of church tribunals as
it finds them. 47
The “basic dispute” in Milivojevich was control of
the Eastern Orthodox Diocese for the United States of

46

Id.

47

Id. at 713.

App-22
America and Canada, its property, and assets. 48 But
control of church property was merely an “incidental
effect” of deciding who ran the church itself because
church charters vested control in the denominational
leader, which only the Mother Church had authority
to select. 49 As the Court explained, “this case
essentially involves not a church property dispute, but
a religious dispute the resolution of which under our
cases is for ecclesiastical and not civil tribunals.” 50
Consistent with Milivojevich, we have observed
that “[c]ourts applying the neutral principles
methodology defer to religious entities’ decisions on
ecclesiastical and church polity issues such as who
may be members of the entities and whether to remove
a bishop or pastor.” 51 That is, what happens to the
relationship between a hierarchical religious
organization and a subordinate unit after a vote to
disassociate “is an ecclesiastical matter over which
civil courts generally do not have jurisdiction.” 52 “But
what happens to the property is not, unless the [local
entity’s] affairs have been ordered so that ecclesiastical
decisions effectively determine the property issue.” 53
The Majority Diocese acknowledges TEC’s
ecclesiastical authority but contends property
48

Id. at 698.

49

Id. at 699, 701, 709-10.

50

Id. at 709.

51 Episcopal Diocese of Fort Worth v. Episcopal Church, 422
S.W.3d 646, 650 (Tex. 2013).
52 Masterson v. Diocese of Nw. Tex., 422 S.W.3d 594, 607 (Tex.
2013).
53

Id. (emphases added).

App-23
ownership is a temporal matter determined by what
the diocese’s charters, state statutes, and TEC’s
constitution and canons actually say about the Fort
Worth
Diocese’s
governance.
TEC
contends
ecclesiastical matters determine what happens to the
property at issue here because (1) the dispute is
essentially a question of church leadership, which is
indisputably an ecclesiastical question, and (2) the
parties ordered the Fort Worth Diocese’s affairs so
that ecclesiastical decisions effectively determine the
property issue. At bottom, the disagreement centers
on what effect the majority’s disassociation vote had
on the Fort Worth Diocese’s identity specifically,
whether the majority faction constitutes the
continuation of that entity or whether the majority left
as individuals and became something else.
B. Diocesan Identity for Purposes of the
Diocesan Trust
The Fort Worth Diocese is an unincorporated
association formed and operating in Texas.
Accordingly, issues concerning its officers and control
are governed by the Texas Uniform Unincorporated
Nonprofit Association Act. 54 Under Texas Associations

See Tex. Bus. Orgs. Code § 1.103 (for entities formed in Texas
without filing instruments with the state, “the law governing the
entity’s formation and internal affairs is the law of the entity’s
jurisdiction of formation”); see also Tex. Rev. Civ. Stat. art. 139670.01 (expired January 1, 2010); Tex. Bus. Orgs. Code § 402.006
(“[P]rior law governs the acts, contracts, or transactions of the
entity or its managerial officials, owners, or members that occur
before the mandatory application date” of January 1, 2010); Dist.
Grand Lodge No. 25 v. Jones, 160 S.W.2d 915, 922 (Tex. 1942)
(“It is generally held that the constitution and by-laws of a
54

App-24
law, control and governance are determined by the
terms of the Fort Worth Diocese’s charters. 55
TEC argues, however, that we cannot rely on
these documents to determine who controls the Fort
Worth Diocese and whether the actions taken at the
2007 and 2008 conventions were valid. Rather, TEC
argues that, like Milivojevich, the property dispute in
this case is incidentally settled by deference to TEC’s
determination as to who its denominational
representatives are. No one disputes that TEC’s
voluntary association, whether incorporated
controlling as to its internal management.”).

or

not,

are

See Tex. Bus. Orgs. Code §§ 1.002(35)(A) (“‘Governing
authority’ means a person or group of persons who are entitled to
manage and direct the affairs of an entity under this code and the
governing documents of the entity . . . .”), .002(36)(A)(ii)
(“‘Governing documents’ means . . . the other documents or
agreements adopted by the entity under this code to govern the
formation or the internal affairs of the entity.”), .002(53)(D)
(defining a “member” of a nonprofit association as “a person who
has membership rights in the nonprofit association under its
governing documents”),.002(63) (an “officer” is “an individual
elected, appointed, or designated as an officer of an entity by the
entity’s governing authority or under the entity’s governing
documents”); 3.002 (“The requirements for the formation of and
the determination of the existence of a nonfiling entity are
governed by the title of this code that applies to that entity.”),
.101 (“Subject to the title of this code that governs the domestic
entity and the governing documents of the domestic entity, the
governing authority of a domestic entity manages and directs the
business and affairs of the domestic entity.”); 252.106 (“This
chapter replaces existing law with respect to matters covered by
this chapter but does not affect other law covering
unincorporated nonprofit associations.”); see id. § 252.002
(“Principles of law and equity supplement this chapter unless
displaced by a particular provision of this chapter.”).
55

App-25
determinations as to its denominational leaders and
“good standing” with the church are ecclesiastical
questions. But unlike Milivojevich, the Fort Worth
Diocese’s affairs were not arranged so that
ecclesiastical decisions “effectively determine the
property issue.” 56 Milivojevich is distinguishable from
this case because there, unlike here, control of church
property was placed in the hands of a denominational
leader.
Here, the parties arranged the diocese’s affairs so
that a majority of the diocese and its convention
control the unincorporated association. The Fort
Worth Diocese’s charters provide that (1) a majority
vote of its convention can amend the Diocesan
Constitution and Canons and convention rules; (2) a
majority vote of the convention elects the Diocesan
Bishop, officers of the diocese’s standing committee,
and trustees of the Diocesan Corporation; and (3) a
majority vote of the convention can admit, suspend, or
restore a parish or mission to union with the
Convention. Notably, in Jones v. Wolf, the Supreme
Court held that the First Amendment does not
preclude a state from adopting a presumptive rule of
majority rule. 57 This is so because “the majority
faction generally can be identified without resolving
any question of religious doctrine or polity.” 58
Moreover, “any rule of majority representation can
always be overcome, under the neutral-principles
approach, either by providing in the corporate charter
56

Masterson, 422 S.W.3d at 606-07.

57

Jones v. Wolf, 443 U.S. 595, 607 (1979).

58

Id.

App-26
or the constitution of the general church, that the
identity of the local church is to be established in some
other way . . . [such as] by providing that the church
property is held in trust for the general church and
those who remain loyal to it.” 59
Rather than advocating for a presumption of
majority rule to determine that it remains the Fort
Worth Diocese, the majority faction simply asks the
court to enforce the majority-rule provisions in the
organizational documents. 60 If courts can presume
majority rule without encroaching on constitutionally
protected terrain, courts can certainly apply that rule
when the parties have so provided. Accordingly,
having complied with the diocese’s charters, the
majority, not the minority, constitutes the
continuation of the Fort Worth Diocese under the
terms of its charter.
TEC’s contrary argument that deference is
required, rather than majority rule, is virtually
indistinguishable from the approach the dissent in
Masterson advocated. 61 As in Masterson, TEC
59

Id. at 607-08.

See Masterson, 422 S.W.3d at 613 (holding that amendments
to a corporation’s organizational documents were valid absent
“any provision in the corporate documents” permitting TEC to
invalidate those amendments or any “Texas law precluding the
corporation from amending its articles and bylaws to exclude
references” to TEC).
60

61 See id. at 618 (Lehrmann, J., dissenting) (“It follows that
Bishop Ohl’s determination regarding the parish’s authority (or,
more accurately, lack of authority) to withdraw from TEC is a
binding ecclesiastical decision, irrespective of the corporate form
taken by the parish. In turn, since Good Shepherd did not validly
withdraw from TEC, Good Shepherd remained a constituent

App-27
contends the First Amendment mandates deference
because, as a matter of church law, subordinate units
have no authority to disassociate. Accordingly, in
TEC’s view, the actions of the 2007 and 2008 Diocesan
Conventions were instantaneously null and void; those
voting to disassociate immediately vacated their
offices and lost standing in canonical bodies; and these
are binding ecclesiastical decisions regardless of what
the Fort Worth Diocese’s governing documents say.
Consequently, TEC takes the position that, even if the
majority voted to secede, they did so as individuals
and not as an intact entity constituting the Fort Worth
Diocese.
TEC points out that when the Fort Worth Diocese
joined the hierarchical church organization it acceded
to the General Convention’s constitution and canons.
But in 2007 and 2008, a majority of the Diocesan
Convention voted to amend its governing documents
to change all provisions referring to TEC and
requiring compliance with its canons and constitution.
No provision in any of the organizational documents,
including those of the national church, precluded them
from doing so. TEC’s charters are silent about
withdrawal of a diocese. Moreover, whether a diocese
can secede from TEC does not affect the parties’
property rights, because the Diocesan Trust has never
required affiliation with TEC. Nor do the
organizational documents restrict the diocese’s
authority to amend the Diocesan Constitution and

thereof and consequently remained subject to TEC’s and the
Diocese’s Constitutions and Canons.”).

App-28
Canons, such as by requiring the national church’s
approval or permission to make an amendment. 62
As we stated in Masterson, “[a]bsent specific,
lawful provisions in a corporation’s articles of
incorporation or bylaws otherwise, whether and how a
corporation’s directors or those entitled to control its
affairs can change its articles of incorporation are
secular, not ecclesiastical, matters.” 63 Rejecting the
very same argument TEC advances here, we
explained:
Bishop Ohl [the Diocesan Bishop] could, as an
ecclesiastical matter, determine which
faction of believers was recognized by and
was the ‘true’ church loyal to the Diocese and
TEC. Courts must defer to such ecclesiastical
decisions. But under neutral principles, any
decisions he made about the secular legal
questions of whether the vote by the parish
members to amend the bylaws and articles of
incorporation was valid under Texas law and
whether the bylaws and articles of
incorporation were validly amended, are not
entitled to deference. Nor does his decision
identifying the loyal faction as the continuing
Episcopal Parish operating Good Shepherd
church determine property ownership under

See Serbian E. Orthodox Diocese v. Milivojevich, 426 U.S.
696, 700-01 (1976) (the diocesan constitution expressly required
the Mother Church’s approval for amendments to the
constitution).
62

63

See Masterson, 422 S.W.3d at 609.

App-29
this record, as it might under the deference or
identity methodology. 64
And more pointedly, we said the dissent’s argument
that the “corporation could not amend its articles of
incorporation and bylaws to omit references to TEC
and the Diocese because doing so would circumvent
‘an ecclesiastical decision made by a higher authority
within a hierarchical church structure,’ is in substance
application of the deference methodology.” 65
The issue here is essentially the same as it was in
Masterson was the majority vote to amend the
governing documents effective? And the same answer
obtains: any decisions TEC made about the secular
legal questions of whether the vote by the 2007 and
2008 Diocesan Conventions to amend the Diocesan
Constitutions and Canons was valid under Texas law
and whether they were validly amended are not
entitled to deference. 66

64

Id. at 610 (emphasis added).

65

Id. at 612-13 (emphasis added).

In arguing that a subordinate unit of a hierarchical
organization cannot be governed by majority rule under Texas
law, TEC relies on cases involving lodges and masons, which hold
special status under the law. See Tex. Bus. Orgs. Code
§§ 23.104(c) (“A subordinate body is subject to the jurisdiction
and control of its respective grand body, and the warrant or
charter of the subordinate body may be revoked by the grand
body.”), .110 (“On the winding up and termination of a
subordinate body attached to a grand body, all property and
rights existing in the subordinate body pass to and vest in the
grand body to which it was attached, subject to the payment of
any debt owed by the subordinate body.”). While there is
authority that such entities cannot disaffiliate even under
66

App-30
In sum, TEC’s determinations as to which faction
is the true diocese loyal to the church and which
congregants are in good standing are ecclesiastical
determinations to which the courts must defer. But
applying neutral principles to the organizational
documents, the question of property ownership is not
entwined with or settled by those determinations. The
Fort Worth Diocese’s identity depends on what its
documents say. To that end, the Diocesan Constitution
and Canons provided who could make amendments
and under what circumstances; none of those
circumstances incorporate or rely on an ecclesiastical
determination by the national church; and nothing in
the diocese’s or national church’s documents
precluded amendments rescinding an accession to or
affiliation with TEC. Applying neutral principles of
law, we hold that the majority faction is the Fort
Worth Diocese and parishes and missions in union
with that faction hold equitable title to the disputed
property under the Diocesan Trust. We must therefore
consider TEC’s argument that the Dennis Canon
creates a trust in its favor.
C. Dennis Canon Trust
The Dennis Canon provides, in relevant part, that
“all real and personal property held by or for the
benefit of any Parish, Mission or Congregation is held
in trust for [TEC][.]” The parties dispute the trust’s
validity under Texas law and its revocability.
Under Texas trust law, a trust may be created
by any of the following methods:
majority rule, no similar provision governs unincorporated
associations generally.

App-31
(1) a property owner’s declaration that the
owner holds the property as trustee for
another person;
(2) a property owner’s inter vivos transfer of
the property to another person as trustee for
the transferor or a third person;
(3) a property owner’s testamentary transfer
to another person as trustee for a third
person;
(4) an appointment under a power of
appointment to another person as trustee for
the donee of the power or for a third person;
or
(5) a promise to another person whose rights
under the promise are to be held in trust for
a third person. 67
A trust is created only if the settlor manifests, in
writing, an intention to create a trust, 68 and a settlor
may revoke a trust “unless it is irrevocable by the
express terms of the instrument creating it or of an
instrument modifying it.” 69
The court of appeals held that the Dennis Canon
is not a valid trust under Texas law because “an entity
that does not own the property to be held in trust
cannot establish a trust for itself simply by decreeing
that it is the beneficiary of a trust.” 70 As to
revocability, we held in Masterson and Episcopal
67

Tex. Prop. Code § 112.001.

68

Id. §§ 112.002-.004.

69

Id. § 112.051.

70

547 S.W.3d 353, 424 (Tex. App.—Ft. Worth 2018).

App-32
Diocese that even assuming the Dennis Canon is a
valid trust, it is revocable under Texas law because it
was not made expressly irrevocable. 71 Moreover,
“[e]ven if the Canon could be read to imply the trust
was irrevocable, that is not good enough under Texas
law. The Texas statute requires express terms making
[the trust] irrevocable.” 72
For the reasons stated by the court of appeals
(among others), the Majority Diocese asserts the
Dennis Canon is not a valid trust, but even if it were
valid, it was revocable and revoked by the 1989
amendment to the Diocesan Constitution and Canons,
nearly two decades before this dispute arose.
TEC contends the Dennis Canon creates a valid
trust and argues it is entitled to possession of the
disputed property under that trust for two
independent reasons: (1) the 1989 amendment was
ineffective to revoke the Dennis Canon trust because,
at that time, the Diocesan Constitution and Canons
only authorized amendments to the diocese’s canons
that were “not inconsistent” with the national church’s
constitution and canons and (2) the trust is irrevocable
because it is a contractual trust supported by valuable
consideration. Neither argument is persuasive.
While it is true, as TEC says, that the diocese’s
organizational documents prohibited the adoption of
canons inconsistent with the national church’s
constitution and canons, revocation is not inconsistent
Episcopal Diocese of Fort Worth v. Episcopal Church, 422
S.W.3d 646, 653 (Tex. 2013); Masterson v. Diocese of Nw. Tex.,
422 S.W.3d 594, 613 (Tex. 2013).
71

72

Masterson, 422 S.W.3d at 613 (emphases in original).

App-33
with a revocable trust. Moreover, in the twenty years
between revocation and eruption of a dispute over the
property, 73 TEC lodged no objection to the amended
canon and does not now contend the 1989 amendment
is invalid for any other reason than purported
“inconsistency.”
In the alternative, and contrary to our holdings in
Masterson and Episcopal Diocese, TEC insists that the
Dennis Canon is irrevocable notwithstanding the
absence of express language of irrevocability, as
required by Texas Property Code section 112.051. TEC
cites Shellberg v. Shellberg for the proposition that a
contractual trust supported by valuable consideration
is irrevocable even when silent about the matter. 74
TEC contends that membership in the national church
is “valuable consideration” and that courts are
precluded from considering whether the benefits of
membership (including $63,000 in grants, low-interest
loans, and participation in the Church Pension Fund)
constitute a fair trade for $100 million worth of real
estate for which TEC paid nothing.
Shellberg, however, is patently distinguishable.
In Shellberg, five settlors signed a trust agreement
stating the trust could be revoked by three or more of
them. 75 Although each settlor provided valuable
See Jones v. Wolf, 443 U.S. 595, 606 (1979) (the objective
under neutral principles is to determine “the intentions of the
parties” at the local and national level regarding beneficial
ownership of the property “before the dispute erupts” and as
reflected in a “legally cognizable form”).
73

74 459 S.W.2d 465, 470 (Tex. App.—Fort Worth 1970, writ ref’d
n.r.e.).
75

Id. at 467.

App-34
consideration for the trust, one of the settlors
attempted to revoke the trust, noting the absence of
express language of irrevocability as required by
statute. 76 The attempted revocation did not comply
with the trust’s express and bargained-for terms and
was therefore ineffective: “A proper construction of the
trust instruments involved in this case is that by their
terms such trust can only be terminated short of the
trust term by the agreement or consent of a majority
of the beneficiaries.” 77 Shellberg is consistent with the
statutory rule that the terms of a trust generally
prevail over conflicting statutory provisions. 78 TEC
has not identified any provision constraining
revocation of the Dennis Canon, so the statutory
requirement of express language retains its legal
force.
D. TEC’s Remaining Claims
By cross-petition, TEC seeks control of the
disputed property via constructive-trust, quasi
estoppel, and trespass-to-try-title theories and
contends the lower courts improperly concluded it
lacks standing to press its claims as to the Diocesan
Corporation.
The court of appeals declined TEC’s constructivetrust claim because such relief would require the court
“to delve into the mysteries of faith,” impermissibly
entangling the court in a dispute over religious
76

Id. at 469-70.

77

Id. at 470 (emphasis added).

78 See Tex. Prop. Code § 111.0035(b) (subject to exceptions not
applicable here, “[t]he terms of a trust prevail over any
provision of this subtitle”).

App-35
doctrine. 79 We agree with the court’s analysis. The
First Amendment prohibits civil courts from inquiring
into matters concerning “‘theological controversy,
church discipline, ecclesiastical government, or the
conformity of the members of a church to the standard
of morals required of them.’” 80
The doctrinal controversy precipitating the
schism involved a dispute over adherence to the true
standard of faith. Reminiscent of the discredited
departure-from-doctrine
principle,
TEC’s
constructive-trust argument is premised on
allegations that the withdrawing faction “‘broke a
century’s worth of oaths and commitments’ when they
left and took the TEC-affiliated property, resources,
and name.” 81 In the withdrawing faction’s view, it was
TEC who engaged in heretical actions constituting a
“substantial departure from the biblical and historic
faith.” Determining whether the leaders of the
withdrawing faction are “the perfidious oath-breakers
characterized by the TEC parties” 82 rather than the
true adherents to the historic Episcopalian faith
requires the type of inquiry that runs afoul of the First
Amendment’s
constraints.
Civil
courts
lack
jurisdiction to resolve disputes turning on tenets of
faith.
TEC’s quasi estoppel and trespass-to-try title
arguments fare no better. Both theories are rooted in
79

547 S.W.3d 353, 443-44 (Tex. App.—Fort Worth 2018).

80 Serbian E. Orthodox Diocese v. Milivojevich, 426 U.S. 696,
714 (1976) (quoting Watson v. Jones, 80 U.S. 679, 733 (1872)).
81

547 S.W.3d at 443.

82

Id. at 444.

App-36
TEC’s claim that the loyal congregants comprise the
continuing entities, and the quasi estoppel argument,
like TEC’s constructive-trust claim, asserts the
withdrawing faction broke promises and oaths to use
the property for Episcopalian purposes.
Finally, both the trial court and the court of
appeals held TEC has no standing to pursue claims
against the Diocesan Corporation’s individual trustees
for breach of duties to TEC. Citing Masterson, the
court of appeals explained that the Corporation’s
documents do not require TEC’s approval for
amendments and Texas law does not preclude the
trustees from making amendments to exclude
references to TEC; accordingly, TEC cannot pursue
claims that the Corporation’s trustees breached
fiduciary duties to TEC in doing so. 83 Because we
agree the record does not support the existence of
duties owed by the trustees to TEC, we affirm that
portion of the court’s judgment.
III. Conclusion
For the reasons stated, we affirm the court of
appeals’ judgment in part, reverse the judgment in
part, and render judgment reinstating the trial court’s
judgment.
_________________________
Eva M. Guzman
Justice
OPINION DELIVERED: May 22, 2020

83

Id. at 442 (citing Masterson, 422 S.W.3d at 613).

App-37
Appendix B
COURT OF APPEALS FOR THE
SECOND DISTRICT OF TEXAS
________________
No. 02-15-00220-CV
________________
THE EPISCOPAL CHURCH, THE LOCAL EPISCOPAL
PARTIES, THE LOCAL EPISCOPAL CONGREGATIONS, AND
THE MOST REV. KATHARINE JEFFERTS SCHORI,
v.

Appellants,

FRANKLIN SALAZAR and INTERVENING
CONGREGATIONS,
Appellees.
________________
Decided: Apr. 05, 2018
________________
Before: Sudderth, C.J.; Gabriel, J.
________________
OPINION
________________
I.

Introduction

The parties’ long-running dispute involves,
among other things, title to and possession of church

App-38
property. 1 In 2014, on a direct appeal, 2 the Supreme
Court of Texas identified the appropriate methodology
to determine the property ownership issue—neutral
principles of law—and remanded this case to the trial
court. See Episcopal Diocese of Fort Worth v. Episcopal
Church, 422 S.W.3d 646, 647 (Tex. 2013), cert. denied,
135 S. Ct. 435 (2014); see also Masterson v. Diocese of
Nw. Tex., 422 S.W.3d 594, 596, 608 (Tex. 2013), cert.
denied, 135 S. Ct. 435 (2014). No one disputes that the
Corporation of the Episcopal Diocese of Fort Worth
(the Corporation) holds legal title to the property or
that the Corporation holds the property in trust for the
Episcopal Diocese of Fort Worth (EDFW). Rather, at
its heart, the parties’ dispute is over who has the right
to control the Corporation and EDFW as legal entities.
In a single issue containing multiple sub-issues,
Appellants The Episcopal Church (TEC), the Most
Reverend Katharine Jefferts Schori, The Local
Episcopal Parties, and The Local Episcopal
Congregations (collectively, the TEC parties) appeal
the trial court’s summary judgment for Appellees
Franklin Salazar and the Intervening Congregations
(collectively, Appellees). 3
For a review of how such disputes have affected jurisprudence
and religious groups over the past decade, see Michael W.
McConnell & Luke W. Goodrich, On Resolving Church Property
Disputes, 58 Ariz. L. Rev. 307, 308-10 (2016) (“Hundreds of local
congregations have voted to withdraw from these national
denominations, raising the question: Who owns the church
property?” (footnote omitted)).
1

2

See Tex. Gov’t Code Ann. § 22.001(c) (West Supp. 2017).

3 The Appellees include Bishop Jack Leo Iker, Jo Ann Patton,
Walter Virden III, Rod Barber, and Chad Bates.

App-39
For ease in navigating this highly complex case,
we set forth the following roadmap: Part II of this
opinion contains EDFW’s history and the procedural
background of this case as pertinent to its disposition.
Part III sets out the standard of review and the case’s
legal framework, starting with the binding precedent
of the United States Supreme Court and the Supreme
Court of Texas and followed by persuasive authorities
that inform our judgment before addressing the
applicable state substantive law on associations,
corporations, and trusts and then applying these
authorities to the case’s dispositive issues in parts
III.B.2-B.4. Part IV sets out in full our conclusion,
which is that we affirm the trial court’s judgment in
part and reverse it in part and remand the case to the
trial court for further proceedings.
II. Background
Religious schisms that give rise to property
disputes are not unprecedented. 4 TEC, for example,
was founded in 1789 after its revolutionary
constituents broke away from the Church of England.
See Episcopal Diocese, 422 S.W.3d at 647; Bennison v.
Sharp, 329 N.W.2d 466, 468 (Mich. Ct. App. 1982);
Hon. John E. Fennelly, Property Disputes and
Religious Schisms: Who is the Church?, 9 St. Thomas
L. Rev. 319, 347 n.251 (1997). The Church of England,
in turn, began with Henry VIII’s break with the
Roman Catholic Church in 1534. Fennelly, 9 St.
4 See McConnell & Goodrich, 58 Ariz. L. Rev. at 311 & n.11
(stating that church property disputes are as old as any church
and referring to an excommunicated bishop’s refusal in 269 A.D.
to relinquish control of a church building and the early church’s
subsequent appeal to the Roman emperor for assistance).

App-40
Thomas L. Rev. at 347 & n.251 (referencing Protestant
Episcopal Church v. Barker, 171 Cal. Rptr. 541, 544
(Cal. Dist. Ct. App.), cert. denied, 454 U.S. 864 (1981)).
And, as observed by the United States Supreme Court,
“14 autocephalous hierarchical churches . . . came into
existence following the schism of the universal
Christian church in 1054.” Serbian E. Orthodox
Diocese for U.S. of Am. & Canada v. Milivojevich, 426
U.S. 696, 699, 96 S. Ct. 2372, 2376 (1976); see also
Kedroff v. St. Nicholas Cathedral of Russian Orthodox
Church, 344 U.S. 94, 100, 73 S. Ct. 143, 146 (1952)
(“The schism of 1054 A.D. split the Universal Church
into those of the East and the West.”).
A. The Hierarchical Church
TEC has been identified by our supreme court as
a “hierarchical” type of religious organization,
composed of tiers, 5
Factors Texas courts have used to characterize a church as
hierarchical include (1) the local church’s affiliation with a parent
church; (2) an ascending order of ecclesiastical judicatories in
which the local church’s government is subject to review and
control by higher authorities; (3) subjugation of the local church
to the jurisdiction of a parent church or to a constitution
promulgated by the parent church; (4) a charter from the parent
church governing the affairs of the local church and specifying
ownership of local church property; (5) the repository of legal
title; and (6) the licensing or ordination of local ministers by the
parent church. Green v. Westgate Apostolic Church, 808 S.W.2d
547, 550-51 (Tex. App.—Austin 1991, writ denied) (citing Templo
Ebenezer, Inc. v. Evangelical Assemblies, Inc., 752 S.W.2d 197,
198-99 (Tex. App.—Amarillo 1988, no writ)).
5

“The terms hierarchical and congregational are poles on a
continuum along which church organizations fall.” Id. at 551. A
congregational church is governed primarily by the will of the
local assembly, while a hierarchical church submits certain

App-41
[t]he first and highest [of which] is the
General
Convention.
The
General
Convention consists of representatives from
each diocese and most of TEC’s bishops. It
adopts and amends TEC’s constitution and
canons. The second tier is comprised of
regional, geographically defined dioceses.[6]
Dioceses are governed by their own
conventions. Each diocese’s convention
adopts and amends its own constitution and
canons[] but must accede to TEC’s
constitution and canons. The third tier is
comprised of local congregations. Local
congregations are classified as parishes,
missions, or congregations.[7]

issues to the rules and control of a larger religious organization.
Id. A congregational church is independent of any other
ecclesiastical association, owes no obligation to any higher
authority, and “totally controls its own destiny.” Templo
Ebenezer, Inc., 752 S.W.2d at 198. Because a congregational form
of church government vests the ultimate decision-making
authority in its members, if the controversy cannot be decided by
the application of neutral principles, then the court defers to the
majority vote of the congregation. Libhart v. Copeland, 949
S.W.2d 783, 793 (Tex. App.—Waco 1997, no writ) (explaining
ecclesiastical deference in congregational church context).
The record reflects that TEC also groups its dioceses into
provinces, each of which contains a synod consisting of a house of
bishops and a house of deputies. While many of the provinces are
geographically determined, some of TEC’s provinces consist of
TEC dioceses outside of the United States.
6

7 This framework ignores TEC’s self-identification as a
constituent member of an even larger community, which TEC
acknowledges in the preamble to its constitution, stating,

App-42
Episcopal Diocese, 422 S.W.3d at 647-48; Masterson,
422 S.W.3d at 608 (“We agree with the court of appeals
that the record conclusively shows TEC is a
hierarchical organization.”).
TEC’s constitution and canons “establish the
structure of the denomination and rules for how it
operates.” Masterson, 422 S.W.3d at 600. As set out in
its constitution and canons, TEC’s Presiding Bishop is
its “chief pastor,” elected by the General Convention—
consisting of the House of Bishops and the House of
Deputies—to a multi-year term of office and “charged
with responsibility for leadership in” initiating,
developing, and implementing TEC’s policy and
strategy. In addition to the Presiding Bishop’s policy
and leadership tasks, he or she also presides over
meetings of TEC’s House of Bishops and performs
The Protestant Episcopal Church in the United States
of America, otherwise known as The Episcopal Church
(which name is hereby recognized as also designating
the Church), is a constituent member of the Anglican
Com The Protestant Episcopal Church in the United
States of America, otherwise known as The Episcopal
Church (which name is hereby recognized as also
designating the Church), is a constituent member of the
Anglican Communion, a Fellowship with the One,
Holy, Catholic, and Apostolic Church, of those duly
constituted Dioceses, Provinces, and regional
Churches in communion with the See of Canterbury,
upholding and propagating the historic Faith and
Order as set forth in the Book of Common Prayer.
[Emphasis added.]
While occasional references are made to the Anglican
Communion throughout the record of this case, no one has
explained what form of organization is involved in its
membership, and no property interests are asserted on its behalf.

App-43
ecclesiastical tasks, including, “[i]n the event of an
Episcopal vacancy” in a diocese, consulting with that
diocese’s “Ecclesiastical Authority to ensure that
adequate interim Episcopal Services are provided.”
The Presiding Bishop “shall perform such other
functions as shall be prescribed in” TEC’s canons and
may delegate some duties and responsibilities to
officers in the General Convention’s Executive
Council, which is responsible for carrying out the
General Convention’s programs and policies and
exercises “powers conferred upon it by Canon, and
such further powers as may be designated by the
General Convention.” The Presiding Bishop is the
chair and president of the Executive Council.
The bishop in each diocese is chosen by the rules
prescribed by the convention of that diocese but cannot
be ordained and consecrated without the consent of a
majority of the standing committees of all of the
dioceses and without the consent of a majority of
TEC’s bishops. 8 If one of TEC’s bishops abandons
communion with TEC by open renunciation, formal
admission into any religious body not in communion
with TEC, or other activities, subject to the procedures
set out in TEC’s canons and the consent of the
majority of TEC’s bishops, the Presiding Bishop may
depose that bishop. 9
If a majority of the diocesan standing committees or a
majority of TEC’s bishops do not consent to the bishop’s election
within 120 days from the date of notification of the election, the
Presiding Bishop “shall declare the election null and void,” and
the diocesan convention can then proceed to a new election.
8

9 TEC’s governing documents define “Deposition” as “a
Sentence by which a Member of the Clergy is deprived of the right

App-44
The convention of each diocese must appoint a
standing committee, which acts as the council of
advice for the diocese’s bishop or substitutes as the
diocese’s ecclesiastical authority if there is no bishop
canonically authorized to act. Under TEC’s canons, a
diocese without a bishop may, by an act of its
convention and in consultation with the Presiding
Bishop, “be placed under the provisional charge and
authority of a bishop of another diocese or of a
resigned bishop, who shall by that act be authorized to
exercise all the duties and offices of the Bishop of the
Diocese until a Bishop is elected and ordained” for that
diocese or until the act of the diocese’s convention is
revoked.
Each diocese’s secretary of convention has the
responsibility to forward to the secretary of TEC’s
House of Deputies a copy of the latest journal of the
diocesan convention. Each diocese’s bishop has the
duty to forward to TEC’s Recorder an annual report
certifying information such as the names of clergy
canonically resident in the diocese and their status,
including suspension, removal, deposition, or
restoration.
TEC’s Executive Council sets a budget that, once
approved by TEC’s General Convention, is sent to each
diocese, setting out each diocese’s proportionate part
of estimated expenditures. Each diocese then notifies
each parish and mission therein of its individual
“apportionment” to be raised, “which shall include
both its share of the proposed Diocesan Budget and its
to exercise the gifts and spiritual authority of God’s word and
sacraments conferred at ordination.”

App-45
share of the objective apportioned to the Diocese by the
Executive Council.” 10 Each diocese accounts annually
to the Executive Council for its receipts and
distributions, 11 and each diocese submits an annual
report that contains statistical information concerning
the diocese’s parishes and missions and other
“relevant information.” TEC established and
administers a pension fund for TEC’s clergy supported
by the royalties from publications authorized by the
General Convention and by collections levied upon “all
Parishes,
Missions,
and other ecclesiastical
organizations or bodies subject to the authority of this
Church.”
A parish, part of the third tier identified by the
supreme court, is governed by a rector or priest-incharge and a vestry comprised of lay persons elected
by parish members. Masterson, 422 S.W.3d at 600.
Members of the vestry must meet certain
qualifications, including committing to “conform to the
doctrine, discipline and worship of The Episcopal
Church.” Id. To be accepted into union with TEC, a
local congregation must accede to and agree to be
subject to the constitutions and canons of both TEC

The amount of “apportionment” suggested by the Executive
Council is based on the income of the parishes in the dioceses,
and TEC uses these funds for administration and to carry out the
Church’s programs nationally.
10

11 TEC makes loans to facilitate the acquisition of real property
and construction of church buildings through various programs
and entities.

App-46
and the diocese in which the congregation is located. 12
Id.
Every parish and other congregation prepares an
annual report to the bishop of its diocese, who then
sends a copy to TEC’s Executive Council. The annual
report covers not only the number of baptisms,
confirmations, marriages, and burials during the year
and the total number of baptized persons and
communicants in good standing but also a summary of
receipts and expenditures and “such other relevant
information as is needed to secure an adequate view
of the state of this Church, as required by the
approved form.” At the time that EDFW joined TEC,
By way of illustration, the record contains a copy of a March
15, 2002 letter from Bishop Iker to the rector, wardens, and
vestry of one of EDFW’s churches, informing them that “[n]either
the Episcopal Church nor this Diocese are congregational in
nature” and that the vestry accordingly could not fire their
congregation’s rector. Rather, he advised that the vestry and
rector were to work with each other “until such time as the
relationship is broken by the death or resignation of the priest”
or is dissolved by the bishop “acting with the counsel of the
Diocesan Standing Committee.”
12

The record also contains the memoir of Rector Emeritus
William A. Komstedt, who observed that “in the Bible Belt, most
people have a congregational understanding of church
administration” and that he was frequently asked why the people
of the St. Francis Mission would pay for land and buildings that
EDFW would end up owning. He wrote that “[i]n time, most
warmed to the idea after they were taught that the diocese was
like a house and its missions and parishes were like rooms in it.”
He also described the efforts taken by the mission’s congregation
to pay off the $31,500 no-interest, five-year loan obtained from
one of TEC’s programs, wiping out $21,000 of the debt in one
night by holding a gala Barbeque, Country Dance, and Wild West
show.

App-47
“other relevant information” included a statement of
the real and personal property held by each parish
with an appraisal of its value, the parish’s
indebtedness for the property, and the amount of
insurance carried on the property.
B. The Episcopal Diocese of Fort Worth
(EDFW)
1.

Diocese’s Origins

In 1849, “[t]he Church in the State of Texas
accede[d] to the Constitution of the Protestant
Episcopal Church in the United States of America”
and “acknowledg[ed] its authority,” and in 1850, the
Diocese of Texas was admitted into union with TEC.
In 1874, a missionary bishop of Northern Texas was
elected and consecrated and the Diocese of Texas was
delimited to set apart the area to the north and west
as the Missionary District of Northern Texas. Four
years later, the 1878 Journal of the Fourth Annual
Convocation of the Protestant Episcopal Church in the
Missionary District of Northern Texas set out the form
for a constitution of a parish acceding to the TEC and
diocesan constitutions and canons:
This Parish, as a constituent part of the
Protestant Episcopal Church in the
Missionary District of Northern Texas,
expressly accedes to, recognizes and adopts
the
Constitution,
Canons,
Doctrines,
Discipline and Worship of the Protestant
Episcopal Church in the United States of
America, and the Constitution and Canons of
the Protestant Episcopal Church in this
jurisdiction,
and
acknowledges
their
authority accordingly.

App-48
In 1893, TEC’s constitution provided that no
churches or chapels would be consecrated until the
bishop sufficiently certified that the property was
“secured, by the terms of the devise, or deed, or
subscription by which they are given, from the danger
of alienation, either in whole or in part, from those
who profess and practise the doctrine, discipline, and
worship of the Protestant Episcopal Church in the
United States of America.”
Two years later, the Diocese of Dallas held its first
diocesan convention. The preamble to its originating
December 1895 constitution states,
We, the Clergy and Laity, of the Protestant
Episcopal Church, in the United States of
America, resident in that portion of the State
of Texas which, by the General Convention of
said Church, was in the year A.D. 1874 set off
as the Missionary District of Northern Texas,
having been convened by the Missionary
Bishop of Northern Texas, for the purpose of
organizing a Diocese whose territorial limits
shall be co-extensive with those of said
Missionary District, do now, by and with the
consent of said Bishop and in order to effect
the organization of said Diocese, ordain and
establish this Constitution.
Over half a century later, at its 53rd annual
convention held in 1948, the Diocese of Dallas
amended its constitution’s article 13, “On Title to
Church Property.” That article provided that title to
all real property acquired “for the use of the Church in
this Diocese,” including the real property of all

App-49
parishes and missions, “shall be vested in the Bishop
and his successors in office, in trust.” 13
More than three decades after that, in June 1982,
the Diocese of Dallas held a special convention to
consider a resolution to divide itself and, if approved,
to request that TEC’s General Convention ratify the
division. 14 The resolution passed.
TEC held its General Convention that same year,
from September 5 to 15, 1982. On the fourth day, the
motion to adopt Resolution B-18, providing for the
division of the Diocese of Dallas, carried in the House
of Bishops. On the seventh day, the House of Deputies
concurred, ratifying the division to create EDFW
(known at that time only as the “Western Diocese”)
based on, among other things, the certificate of the
Alexander C. Garrett, who had been the Missionary Bishop
of Northern Texas, served as the Bishop of Dallas from 1874 to
1924 and was succeeded in that office by Harry T. Moore (who
served from 1924 to 1946), Charles Avery Mason, (who served
from 1946 to 1970), and A. Donald Davies (who served from 1970
until 1982, when Bishop Davies opted to become the bishop of the
newly formed EDFW). Clarence C. Pope served in the office of
EDFW’s bishop from 1986 until 1994, when he retired to become
a Roman Catholic. Bishop Iker was elected by EDFW’s
convention as bishop coadjutor in 1992 but was not consecrated
until 1993, when he received consent from TEC’s other dioceses.
13

Under Article V of TEC’s constitution, one of the three ways
that a new diocese may be formed is through the division of an
existing diocese with the consent of the General Convention “and
under such conditions as the General Convention shall prescribe
by General Canon or Canons.” Under TEC’s constitution, a new
diocese may also be formed through the joining of two or more
dioceses or parts thereof or from mission territory, which is “an
unorganized area evangelized” by TEC but not yet included in
any of TEC’s dioceses.
14

App-50
Diocese of Dallas’s Chancellor that all of the requisite
documents had been executed and “that all of the
appropriate and pertinent provisions of the
Constitution and Canons of the General Convention of
the Episcopal Church in the USA and the Constitution
and Canons of the Diocese of Dallas have been fully
complied with in respect of this submission.”
The October 1982 Annual Meeting Journal of the
Diocese of Dallas reflected that seventy-two years
after the division issue was first raised in 1910, the
Diocese of Dallas was finally sharing “in the trauma
and excitement of such a division,” resulting, at least
in part, from the area’s significant population growth
over time and the size of the diocese (larger than 43
other dioceses, including some dioceses that covered
entire states). 15 Bishop Davies observed that the
General Convention had ratified the action of the
diocesan convention when it voted to divide the
Diocese of Dallas, that the new diocese planned to
come into existence as of January 1, 1983, with the
filing of its documents with the Secretary of TEC’s
General Convention, and that the new diocese would
hold its primary convention on November 13, 1982, to
name itself, organize committees and officers, accede
to the national constitution and charters, adopt its
own constitution and charters, and implement a
budget.

15 In his address to the diocesan convention, Bishop Davies
noted that the “twin cities of Dallas and Fort Worth are growing
like young giants” and that “[t]he little towns in between are
stretching out their steel fingers with emerald rings strung all
along to bind each other together in bonds of common life.”

App-51
One of the resolutions promulgated at the Diocese
of Dallas’s October 1982 Annual Meeting declared
that “[t]itle to all real property . . . located within the
territorial boundaries of the western diocese shall be
transferred to the western diocese.” 16 During the
meeting, the Diocese of Dallas’s Chancellor was
granted permission to initiate and conduct for the
diocese “such action in the courts of the State of Texas
as may be necessary and prudent for the
accomplishment of the goals and purposes of the
foregoing resolution, including partition actions, cypres actions, and other actions under the laws of Texas
or the United States.” Additionally, the resolution
provided that the division of all corporations,
foundations, and funds “shall be made subject to the
terms, conditions[,] and purposes of the instruments
establishing them and any amendments thereto.”
EDFW adopted its constitution and canons on
November 13, 1982. It was admitted into union with
TEC on December 31, 1982.
2.

1983-1990

Article 13 of EDFW’s constitution provided that
“title to all real estate acquired for the use of the
Church in this Diocese . . . shall be held subject to
control of the Church in the Episcopal Diocese of Fort
Worth acting by and through a corporation” and that
“[a]ll such property as well as all property hereafter
acquired for the use of the Church and the Diocese,
16 The resolution provided that title to all such real property
would be transferred except for some small oil and gas interests
owned by Episcopal Funds, Inc., and the ad valorem tax liability
of Camp Crucis, which would be divided 65/35 between the two
dioceses.

App-52
including parishes and missions, shall be vested in
[the] Corporation of the Episcopal Diocese of Fort
Worth.” 17 EDFW’s canons established the parameters
for the Corporation’s management. See Episcopal
Diocese, 422 S.W.3d at 648. Specifically, canon 11,
“Corporation of the Episcopal Diocese of Fort Worth,”
set out,
Sec. 11.1 Corporation of the Episcopal
Diocese of Fort Worth is a non-profit
benevolent[18] and charitable organization
organized under Texas laws, also known as
the “Diocesan Corporation”. In addition to its
regular powers, it may receive, hold, manage
and administer funds and properties acquired
by gift or by will or otherwise for the use and
benefit of the Diocese and any Diocesan
Institutions.
Sec. 11.2 The management of its affairs shall
be conducted and administered by a Board of
Trustees of five (5) elected members, all of
whom are either Lay persons[19] in good
standing of a parish or mission in the Diocese,
or members of the Clergy canonically resident
in the Diocese, in addition to the Bishop of the
Diocese who shall serve as Chairman of the
Board or may designate the President or
other officer of the corporation to serve as
such. The Board of Trustees shall have the
17 The Diocese of Dallas adopted a similar provision in
December 1983.
18

“Benevolent” was removed from the canon in 1989.

19

“Persons” was changed to “communicants” in 1989.

App-53
power and authority to conduct the affairs of
said corporation in accordance with its
charter and by-laws and in accordance with
the Constitution and Canons of the Diocese
from time to time adopted.
Sec. 11.3 One member of the Board of
Trustees shall be elected at each Annual
Convention and each member shall serve a
term of five (5) years. The terms of members
shall be so arranged that the term of only one
(1) member shall expire annually. The Board
of Trustees shall fill any vacancy which
occurs on the Board until the annual election.
The Bishop shall nominate the members of
the Board of Trustees.
Sec. 11.4 The Board of Trustees shall adopt
its own by-laws and shall elect such officers
as its by-laws may require.
Sec. 11.5 The Board of Trustees shall submit
a report at each Annual Convention covering
its operations for the preceding fiscal year
and showing its financial condition. If and
when required by the Standing Committee of
the Diocese, the Board of Trustees shall make
such additional reports and furnish such
additional information as may [be][20]
requested. The books and records of the
Board of Trustees shall at all times be open
for inspection and examination by the

20 By 1989, this typographical error in the original 1982 canon
had been corrected.

App-54
Standing Committee of the Diocese or its
representatives.
EDFW filed articles of incorporation for the
Corporation on February 28, 1983. The 1983 articles
established that the Corporation was a nonprofit
corporation of perpetual duration with the following
purposes set out as follows, in pertinent part:
(1) To receive and maintain a fund or funds or
real or personal property, or both, from any
source including all real property acquired for
the use of the Episcopal Diocese of Fort Worth
as well as the real property of all parishes,
missions and diocesan institutions. Subject to
the limitations and restrictions hereinafter
set forth, to use and apply the whole or any
part of the income therefrom and the
principal thereof exclusively for charitable,
religious, scientific, literary, or educational
purposes either directly or by contributions to
organizations that qualify as exempt
organizations under Section 501(c)(3) of the
Internal Revenue Code and its Regulations as
they now exist or as they may hereafter be
amended.
(2) The property so held pursuant to (1) supra
shall be administered in accordance with the
Constitution and Canons of the Episcopal
Diocese of Fort Worth as they now exist or as
they may hereafter be amended.
The articles also set out that the election of the
Corporation’s board of directors (“Board of Trustees”)
and their terms of office “shall be fixed by the by-laws

App-55
of the corporation as the same may be adopted and
from time to time amended.”
The Corporation adopted its bylaws on May 17,
1983. Article I, “Authority,” states,
Section 1. General The affairs of this
nonprofit corporation shall be conducted in
conformity with the Constitution and Canons
of the Episcopal Church in the United States
of America and the Constitution and Canons
of the Episcopal Diocese of Fort Worth, as
they may be amended or supplemented from
time to time by the General Convention of the
Church or by the Convention of the Diocese.
In the event of any conflict between these
Bylaws and any part or all of said
Constitution or Canons, the latter shall
control.
The bylaws conferred general power to perform all
lawful acts and things “as are not by statute or by the
Articles of Incorporation or by these Bylaws
prohibited.” With regard to the number and election of
the board of directors and their terms of office, the
bylaws paralleled EDFW’s constitutional and
canonical provisions, stating,
The Bishop of the Diocese of Fort Worth shall
be the Chairman of the Board of Trustees of
the Diocesan Corporation. In addition to the
Bishop the number of elected Trustees which
shall constitute the Board shall be five. The
term of office for each elected Trustee shall be
for five years and each Trustee shall hold
office from the date of his election until his
successor shall have been duly elected and

App-56
qualified, or until his death, resignation,
disqualification or removal. There shall be
elected at each annual meeting one Trustee.
Trustees may be either lay persons in good
standing of a parish or mission in the Diocese
of Fort Worth, or members of the Clergy
canonically resident within the Diocese, in
addition to the Bishop.
See Tex. Bus. Orgs. Code Ann. § 22.207 (West 2012)
(“Election and Control by Certain Entities”). The
bylaws also provided for holding regular meetings and
special meetings whenever called by the President—
designated in the bylaws as the chairman of the
board—”or by any two Trustees.” They further
provided that the quorum necessary to transact
business would be not less than a majority of the total
number of trustees then acting and set forth the
procedures for resignation, board vacancies, and the
removal of trustees: “Any Trustee of the Diocesan
Corporation may be removed by the Bishop of the
Diocese of Fort Worth.” The bylaws also included a
provision for amendment, stating,
These Bylaws may be amended, altered,
changed, added to or repealed, in whole or in
part, by the affirmative vote of a majority of
the total number of Trustees at any regular
or special meeting of the Board, if notice of the
proposed change is included in the notice of
such meeting.
In 1984, a civil court judgment transferred part of
the Diocese of Dallas’s real and personal property to
EDFW and vested legal title of the property in the

App-57
Corporation, 21 except for certain assets for which the
Diocese of Dallas’s bishop and his successors had been
designated as trustee; those assets transferred to
EDFW’s bishop as trustee and to his successors in
office. 22 Episcopal Diocese, 422 S.W.3d at 648.
3.

1991-2005

Less than ten years after its admission into union
with TEC, conflicts based on differing theological
views began to arise between both TEC and EDFW
and EDFW and some of its congregations.
In 1991, the Episcopal Church of St. Mary the
Virgin withdrew from TEC and EDFW to join a Roman
Catholic Diocese. 23 And at a standing committee
meeting, after TEC assigned an apportionment of
The 1984 judgment likewise vested legal title of the property
remaining with the Diocese of Dallas in the Corporation of the
Episcopal Diocese of Dallas.
21

The Diocese of Dallas and its diocesan corporation, EDFW
and its diocesan corporation, and the Dioceses’ bishops as
trustees were parties to the 1984 judgment. In the 1984
judgment, the trial court stated, “Nothing in this judgment shall
be deemed to deal with, or otherwise affect, properties, real or
personal, disposed of under testamentary or inter vivos gift
executed or effective prior to December 31, 1982, which bequest
is to the Diocese of Dallas or the Bishop thereof,” but it also noted
that the two dioceses had resolved that their “various assets,
properties, investments, trusts and related matters” would be
divided in an equitable manner.
22

EDFW’s standing committee unanimously recommended
that the parish be allowed to withdraw upon receipt and review
of proper documentation, and in 1993, the standing committee
approved the Roman Catholic Diocese’s board of trustees’
resolution to pay off the loan on the former Episcopal parish’s
property and to transfer title to the property to the Roman
Catholic Diocese.
23

App-58
approximately $230,000 to EDFW, the committee
noted that “the withholding of apportionment is
regarded by some as sanctions against immorality.”
The committee agreed to allow the individual parishes
within EDFW to choose whether to fund TEC’s
Executive Council’s activities by apportionment
through vestry action indicating whether the
individual parish’s percentage of the diocesan
assessment would be forwarded to TEC’s Executive
Council or should remain under EDFW’s control.
During the 1990s, the standing committee
received a letter from another diocese that
“encouraged the Diocese of Fort Worth to remain in
the Episcopal Church” and other correspondence
“from those dioceses questioning the intentions of
[EDFW] of remaining in the Episcopal Church in the
United States of America and the reasons why
[EDFW] had reduced its apportionment to the
Executive Council’s program.”
In 1992, the rector and vestry of Holy Apostles
Episcopal Church, one of EDFW’s parishes,
announced the parish’s intent to seek membership in
the Antiochean Orthodox Church and to sever its
relationship with EDFW, TEC, and “the rest of the
Anglican Communion.” 24 Around then, EDFW’s
The standing committee agreed that the Holy Apostles rector
and vestry had left them “no choice but to pursue in the manner
required under the Canons of the Episcopal Church and the
Diocese of Fort Worth,” including obtaining a temporary
restraining order and notices to inhibit and to excommunicate.
Three years later, a negotiated settlement cut short litigation
between EDFW and the breakaway parish and returned full
possession of the property in question to EDFW.
24

App-59
standing committee discussed developing a “future
strategy regarding a parish that may try to leave and
take diocesan property with them,” and in early 1994,
the committee finalized the membership of a
“Protection of Diocesan Property Committee.” 25 The
president of the standing committee was named as the
property protection committee’s chairman. Also
during the same time period, the standing committee
questioned whether it had veto power over the
Corporation’s trustees. At their June 1993 meeting,
the standing committee received the answer to its
question—after a lengthy discussion between Canon
James DeWolfe, Bishop Iker, and the Corporation’s
trustees, it was determined that the Corporation’s
trustees “had final authority in matters concerning
Diocesan property.”
By 2000, TEC’s General Convention had formed a
task force to visit EDFW regarding the
implementation of some of TEC’s resolutions. In 2000
and 2001, the standing committee was faced with
ecclesiastical charges involving Samuel L. Edwards,
one of the priests then canonically resident in EDFW.
Edwards had moved from Texas to begin acting as the
rector of a parish in the Diocese of Washington despite
having not been licensed to do so by the bishop pro
tempore of the diocese in which that parish was
located. See Dixon v. Edwards, 290 F.3d 699, 703, 705,
Later in 1994, one of the standing committee’s members, the
Reverend Keith L. Ackerman, resigned to become the Bishop of
the Diocese of Quincy, which subsequently faced property issues
similar to the ones in the instant case. See Diocese of Quincy v.
Episcopal Church, 2014 IL App (4th) 130901, ¶¶ 1, 9, 14 N.E.3d
1245, 1249-50 (Ill. App. Ct. 2014), appeal denied, 21 N.E.3d 713
(Ill. 2014).
25

App-60
707 (4th Cir. 2002). 26 On December 17, 2001, the
standing committee issued a presentment against
Edwards on one of the three ecclesiastical charges, id.
at 707, and the following year the standing committee
consented to Edwards’s deposition.

A federal lawsuit filed not long after the ecclesiastical
charges against Edwards were transferred to EDFW sought a
declaration that Edwards was not the parish’s rector based on his
not being found “duly qualified” under a TEC canon, in part on
Edwards’s having advised the bishop pro tempore that “he would
not guarantee her that he would not attempt to lead Christ
Church out of [TEC] or attempt to take Church property as part
of that effort.” Dixon, 290 F.3d at 703, 705-08 & nn.5, 8. Along
with then-Bishop of the Diocese of Pittsburgh Robert William
Duncan Jr., Bishop Iker filed an amicus brief in the federal suit
in support of Edwards on January 8, 2002. In the brief, the two
bishops stated that an Episcopal bishop “is governed by the
constitution and canons of the Church” and that an Episcopal
bishop does not act “independently of the checks and balances of
the legal system of which they are a part. A bishop must adhere
to the constitution and canons of the Church or be subject to
discipline.” They also stated that “[t]he dioceses have canons that
cannot be inconsistent with national canons.” The district court
awarded summary judgment to Washington’s bishop pro
tempore, and the Fourth Circuit affirmed the district court’s
judgment in May 2002. Id. at 703.
26

Presiding Bishop Schori deposed Duncan on September 19,
2008, and on October 4, 2008, the majority of the Pittsburgh
Diocese voted to secede from TEC and align with the Anglican
Province of the Southern Cone. Calvary Episcopal Church,
Pittsburgh v. Duncan, No. 293 C.D. 2010, 2011 WL 10841592, at
*2, *5 (Pa. Commw. Ct. Feb. 2, 2011) (construing “the Episcopal
Diocese of Pittsburgh of the Episcopal Church of the United
States of America” as used in stipulation to mean the loyalist
faction that remained with TEC), appeal denied, 30 A.3d 1193
(Pa. 2011).

App-61
In 2003, EDFW continued to object to actions by
TEC and other dioceses with which it disagreed, and
the standing committee unanimously agreed “to work
together in initiating a gathering . . . in [EDFW] of the
Network of Confessing Dioceses in order to work on
the realignment of the Anglican Communion.” The
standing committee met with a bishop of the Reformed
Episcopal Church (REC) in May 2003, and decided to
meet with REC in the future to further discuss their
relationship. 27
EDFW was not the only diocese experiencing
strife in its relationship with TEC during this time. In
addition to the Diocese of Quincy 28 and the Diocese of
Pittsburgh, 29 which were experiencing their own
differences with TEC, in 2004, the Diocese of San
Joaquin began the process of amending its governing
documents, including the articles of incorporation for
“the corporation sole,” which held title to the diocese’s
trust funds and real property, redefining how the
vacancy of a bishop was to be filled, and omitting the
REC was organized in 1873 after a schism with TEC. See The
Reformed Episcopal Church, An Overview of the REC,
http://www.recus.org/about.html (last visited Mar. 28, 2018).
REC’s vision, as set out in a paper by its bishop that was
distributed at a 2003 standing committee meeting, was the
formation of an Anglican Province of America outside of TEC.
27

See Diocese of Quincy, 2014 IL App (4th) 130901, ¶ 9, 14
N.E.3d at 1250 (“Over the years a doctrinal controversy
developed . . . .”).
28

29 See Calvary, 2011 WL 10841592, at *1 (noting that in 2003,
Calvary Episcopal Church filed a complaint against Duncan and
members of the Diocese of Pittsburgh’s standing committee,
alleging that they “intended to extinguish the property rights and
interests of” TEC).

App-62
requirements that the local choice of bishop be
approved by the national church as provided in TEC’s
constitution and canons. See Diocese of San Joaquin v.
Gunner, 202 Cal. Rptr. 3d 51, 56-57 (Cal. Ct. App.
2016, pet. denied) (op. on reh’g). Nevertheless, even as
St. Michael’s Episcopal Church in Fort Worth
considered holding a parish vote to leave TEC and
affiliate with the Anglican Church in America, in
2005, Bishop Iker and the standing committee still
expressed hope that “all of us will stand together
during this time of difficulty in the Episcopal Church.”
4.

2006-2008

In June 2006, immediately after Presiding Bishop
Schori’s election, Bishop Iker and the standing
committee approved the following statement,
The Bishop and the Standing Committee of
the Episcopal Diocese of Fort Worth appeal in
good faith to the Archbishop of Canterbury,
the Primates of the Anglican Communion,
and the Panel of Reference for immediate
alternative Primatial Oversight and Pastoral
Care following the election of Katharine
Jefferts Schori as Presiding Bishop of the
Episcopal Church.
This action is taken as a cooperative member
of the Anglican Communion Network in light
of
the
Windsor
Report
and
its
recommendations.
A month later, Bishop Iker discussed with the
standing committee a recent meeting of EDFW’s
Constitution and Canons Committee and its proposed
resolutions, additions, and changes to EDFW’s
constitution and canons “in light of recent

App-63
developments in our Church,” which would be
submitted to the diocesan convention in November
2006. 30
On August 15, 2006, the Corporation amended its
bylaws to remove all references to TEC. Episcopal
Diocese, 422 S.W.3d at 648. Article I, “Authority,” was
amended to provide that the Corporation’s affairs
shall be conducted in conformity with the
body now known as the Episcopal Diocese of
Fort Worth’s acknowledgment of and
allegiance to the One, Holy, Catholic and
Apostolic Church of Christ; recognizing the
body known as the Anglican Communion to
be a true branch of said Church; with all
rights and authority to govern the business
and affairs of the Corporation being solely in
the board of trustees (as hereinafter defined,
the “Board”) of the Corporation.
This amendment also deleted the reference to “the
Constitution and Canons of the Episcopal Church in
the United States of America and the Constitution and
Canons of the Episcopal Diocese of Fort Worth.” A new
section was added to Article II, “Directors,” which
stated,
Section 2. The Bishop. The bishop recognized
by the body now known as the Episcopal
In July 2006, Bishop Iker, along with the bishops of Dallas,
Pittsburgh, San Joaquin, South Carolina, Springfield, and
Central Florida, appealed to the Archbishop of Canterbury,
asserting, “Seven dioceses are seeking to reshape their life
together as dioceses . . . under the oversight of a Canterbury
appointed Commissary, temporarily exercising some of the
responsibilities normally assigned to the American primate.”
30

App-64
Diocese of Fort Worth (the “Bishop”) shall be
a trustee and a member of the Board. The
Bishop shall be the Chairman of the Board of
the Corporation.
In the event of a dispute or challenge
regarding the identity of the Bishop of the
body now known as the Episcopal Diocese of
Fort Worth, the Elected Trustees (as
hereinafter defined in Article II, Section 3)
shall have the sole authority to determine the
identity of the Bishop for purposes of the
Corporation’s Articles of Incorporation, as
amended from time to time, and these
Bylaws.
In the event the body now known as the
Episcopal Diocese of Fort Worth is without a
Bishop, a majority of the Elected Trustees
shall have the sole authority to appoint a
Chairman of the Board who shall, for
purposes of the Corporation’s Articles of
Incorporation, as amended from time to time,
and these Bylaws, have all the rights and
privileges of the Bishop of the body now
known as the Episcopal Diocese of Fort
Worth.
If a determination pursuant to this Article II
becomes necessary in the discretion of any
member of the Board, the Board member may
call a special meeting of the Board, subject to
the notice provisions set forth in these
Bylaws, for the purpose of making the
determination. The vote of a majority of
members of the Board present at the special

App-65
meeting, wherein a quorum is present, shall
be decisive.
There was no change to the number, election, or
terms of office for trustees other than to clarify that
the trustees, who were elected at a rate of one per
annual meeting, could be either lay persons in good
standing of a parish or mission “in the body now
known as the Episcopal Diocese of Fort Worth” or
members of the clergy “canonically resident within the
geographical region of the body now known as the
Episcopal Diocese of Fort Worth.” The rest of the
sections remained substantively unchanged except for
the section pertaining to removal of trustees. While
the previous version of the section provided that any
trustee could be removed by the bishop, the amended
section stated that any elected trustee could be
removed by a majority of the remaining members of
the board. The amended bylaws also stated, “These
Bylaws were considered and unanimously approved at
the Board’s annual meeting August 15, 2006, at which
every Board member was present.”
On September 5, 2006, the Corporation’s board
likewise amended the Corporation’s articles of
incorporation. Id. The preamble recited that articles
IV, V, and VI had been revised and approved by a
unanimous vote by the board on August 15, 2006.
Section 1 of article IV was amended to state that
the Corporation was organized “[t]o receive and
maintain a fund or funds or real or personal property,
or both, from any source,” deleting the portion of the
earlier article that specified that “any source” included
“all real property acquired for the use of [EDFW] as

App-66
well as the real property of all parishes, missions and
diocesan institutions.”
Section 2 of article IV was amended to state that
the property held under section 1 “shall be
administered in accordance with the Bylaws of the
Corporation as they now exist or as they may hereafter
be amended,” deleting reference to EDFW’s
constitution and canons. Article VI incorporated a
provision to identify the Corporation’s chairman,
paralleling and referencing the amended bylaws.
Article VI also listed the names of the trustees serving
at that time: Salazar, Barber, Bates, Virden, Patton,
and Bishop Iker. According to Virden, the 2006
amendments to the Corporation’s bylaws “were not
adopted as part of any plan to withdraw from TEC, as
those discussions did not begin until the summer of
2007.”
On October 19, 2006, Presiding Bishop Schori
informed Bishop Iker that some of the provisions in
EDFW’s constitution and canons were contrary to
TEC’s constitution and canons and that those
provisions needed to be changed. Otherwise, Presiding
Bishop Schori said that she would have to consider
what sort of action to take to bring EDFW into
compliance. On November 15, 2006, TEC’s Executive
Council received a task force report identifying EDFW
as a “problem diocese” that needed to be monitored.
On June 14, 2007, TEC’s Executive Council
declared some of EDFW’s constitutional and canonical
amendments to be “null and void.” Four days later,
Bishop Iker and the standing committee released a
statement noting that an adversarial relationship had
developed between EDFW and TEC, asserting that

App-67
TEC’s Executive Council “ha[d] no legislative
authority, and its resolutions [were] not binding on
anyone,” and further positing that it was the
Executive Council’s resolution “in this matter that is
null and void, and it is of no force or effect in this
Diocese.”
On November 8, 2007, the week before EDFW’s
November 17, 2007 Annual Convention, Presiding
Bishop Schori published an open letter to Bishop Iker,
stating that several of the proposed changes to
EDFW’s constitution would violate the requirement in
TEC’s constitution for the diocese’s “unqualified
accession.” 31 In the letter, she warned Bishop Iker of
the potential canonical consequences and asked him
to lead EDFW “on a new course that recognizes the
interdependent and hierarchical relationship between
the national Church and its dioceses and parishes”
instead of in a direction “that would purportedly
permit [EDFW] to depart from [TEC].” The Episcopal
Church, Fort Worth bishop receives notice of possible
consequences if withdrawal effort continues (Nov. 8,
2007), at https://www.episcopalchurch.org/library/
article/fort-worth-bishop-receives-notice-possibleconsequences-if-withdrawal-effort.
On November 12, 2007, Bishop Iker responded by
publishing his own open letter, in which he stated,
In the interest of time, instead of requesting that the already
voluminous record be supplemented, we have opted to take
judicial notice sua sponte of Presiding Bishop Schori’s letter and
Bishop Iker’s response—both of which were published on the
internet and referenced, but not included, in the record—for the
sole purpose of providing context for the parties’ dispute. See Tex.
R. Evid. 201.
31

App-68
While I do not wish to meet antagonism with
antagonism, I must remind you that 25 years
ago this month, the newly formed Diocese of
Fort Worth voluntarily voted to enter into
union with the General Convention of the
Episcopal Church. If circumstances warrant
it, we can likewise, by voluntary vote,
terminate that relationship. Your aggressive,
dictatorial posturing has no place in that
decision. Sadly, however, your missive will
now be one of the factors that our Convention
will consider as we determine the future
course of this diocese for the next 25 years
and beyond, under God’s grace and guidance.
The Episcopal Diocese of Fort Worth, A letter from
Bishop Iker to the Presiding Bishop (Nov. 12, 2007), at
http://www.fwepiscopal.org/bishop/bishoppbreply.html.
In his November 17, 2007 address at the Annual
Convention, Bishop Iker recounted the Executive
Council’s resolution and stated “that such declarations
exceeded the authority of the Executive Council,
which is responsible for the program and budget of the
General Convention, and that they had no legislative
or judicial authority to make such a pronouncement.”
Bishop Iker stated, “The Council’s declaration about
the legitimate legislative process in this Diocese is, in
fact, null and void.” Bishop Iker also voiced his
objection “to the claim that the Presiding Bishop has
any canonical authority in this Diocese or any
legitimate power over the leadership of this Diocese”
and stated that “[t]here is no such thing as ‘the
national Church,’” but rather a confederation of
dioceses.

App-69
At the standing committee’s follow-up meeting on
November 19, 2007, Bishop Iker expressed his desire
that his convention address be shown in all of EDFW’s
parishes and missions prior to each congregation’s
annual parish meeting. The standing committee
discussed with Bishop Iker “the need to begin
immediate study of the Constitution and Canons of
the Province of the Southern Cone.”
In January 2008, Bishop Iker sent a directive to
appoint clerical members of the standing committee
plus four rectors “who have said they want to remain
in TEC and four who believe it is time to separate,”
asking for their assistance in addressing conflicts in
EDFW “concerning the plan to separate from The
General Convention of The Episcopal Church.” Three
months later, at the March 2008 meeting, the
standing committee also discussed, among other
things, “the current situation in the Diocese of San
Joaquin.” 32

A month after EDFW’s November 2007 convention, the
annual convention of the Diocese of San Joaquin voted to leave
TEC and to affiliate with the Anglican Province of the Southern
Cone. Diocese of San Joaquin, 202 Cal. Rptr. 3d at 57. The bishop
of that diocese then filed with the California Secretary of State
an amendment to the articles of incorporation of the corporate
sole to change its name from “The Protestant Episcopal Bishop of
San Joaquin” to “The Anglican Bishop of the Diocese of San
Joaquin.” Id. In March 2008, the San Joaquin bishop was deposed
by TEC. Id. at 57-58. The Right Reverend John Clark Buchanan,
a member of TEC’s House of Bishops, averred that since 2006,
the leaders of five of TEC’s 109 dioceses—including EDFW, the
Diocese of Pittsburgh, and the Diocese of San Joaquin—had
purported to remove their dioceses from TEC over internal
disputes.
32

App-70
A month later, the committee’s notes reflect that
Bishop Iker was “trying to work out a pastoral plan
and provision” for the parishes “who may wish to
remain in TEC following [the] November Diocesan
Convention,” with the assistance of Dallas’s bishop
and standing committee. Bishop Iker and the standing
committee sent a letter to the Internal Revenue
Service to inform the IRS that EDFW “no longer
desires to be included under the group ruling of the
Protestant Episcopal Church of the United States of
America.” In May 2008, the standing committee
approved a new civil employment contract with
Bishop Iker and ended the former employment
agreement.
Reverend Buchanan declared in his affidavit that
in 2008, prior to EDFW’s purported disaffiliation,
TEC’s House of Bishops had “affirmed that diocesan
leaders have no authority to remove their dioceses
from The Episcopal Church.” But by September 2008,
the standing committee was poised to recommend that
EDFW “affiliate with the Anglican Province of the
Southern Cone as a member diocese, on a temporary,
pastoral basis, until such time as an orthodox Province
of the Anglican Communion can be established in
North America.” The standing committee’s members
unanimously approved and endorsed the following
resolution from EDFW’s Convention Resolutions
Committee:
BE IT RESOLVED, that the Episcopal
Diocese of Fort Worth, meeting in its 26th
Annual Convention, does hereby accept the
provision made by the Anglican Province of
the Southern Cone, and the Episcopal Diocese

App-71
of Fort Worth does hereby immediately enter
into membership with the Anglican Province
of the Southern Cone as a full and equal
constituent member of such Province, and the
Episcopal Diocese of Fort Worth does hereby
accede to the authority of the Constitution
and Canons of the Anglican Province of the
Southern Cone to the extent such
Constitution and Canons are not contrary to
Holy Scripture and the Apostolic teaching of
the one holy, catholic and apostolic Church.
In September 2008, Bishop Iker sent a letter to
the rector of All Saints Episcopal Church, Christopher
Jambor, stating that properties located at 4936, 4939,
5001, and 5005 Dexter Avenue, Fort Worth, were not
“picked up” by the 1984 declaratory judgment nor held
by the Corporation but rather were held in the name
of All Saints Episcopal Church. In the letter, Bishop
Iker asked that a deed be executed to transfer the
parcels to the Corporation.
On November 15, 2008, in his address at the 26th
Annual Convention, Bishop Iker observed that EDFW
had come “to this historic moment of decision making”
during which EDFW would “vote to rescind” its
accession to TEC’s constitution and canons and to
align itself “instead with an orthodox Province of the
Anglican Communion, the Province of the Southern
Cone.” Bishop Iker stated,
Some have asked, “Will we still be
Episcopalians after our realignment vote is
taken?” And the answer is, “Well, yes and
no—that all depends!” After all, no one can
“un-Episcopalian-ize you, and no one is being

App-72
kicked out of the family. We will still be The
Episcopal Diocese of Fort Worth. We are not
changing our name, because we are not
changing our identity. We will still have an
Episcopal form of polity, which means being
in a church that is under a Bishop. We will
continue to stand for what our forebears
meant when they called themselves
Episcopalians. But we will no longer be a part
of the ecclesiastical structure sometimes
known as the Protestant Episcopal Church in
the United States of America, which is
governed by the General Convention. TEC is
not the only Episcopal Church in the Anglican
Communion, and it does not own the name
“Episcopalian.”
....
. . . [T]he proposals before this Convention
have one clear message: We here in the
Episcopal Diocese of Fort Worth intend to be
who we have always been, to believe what we
have always believed, and to do what we have
always done. We are not going away, nor are
we abandoning anything. We are not leaving
the Church—we are the Church. We will
remain an orthodox diocese of catholic
Christians, full members of the worldwide
Anglican Communion.

App-73
The majority of EDFW’s Annual Convention voted to
leave TEC and to affiliate with the Anglican Province
of the Southern Cone. 33
Following the 26th Annual Convention in
November, EDFW published a statement on its
website, declaring,
We remain a member diocese of the Anglican
Communion.
We remain the Episcopal Diocese of Fort
Worth. The word “episcopal” identifies us as
part of the apostolic succession, with a bishop
as our elected chief pastor.
We remain in communion with other
Episcopalians. We share fellowship with all
those in any Province who recognize the
authority of Scripture and the faith and order
of historic Anglicanism.
Shortly thereafter, TEC issued a letter of
inhibition, to which Bishop Iker replied three days
later, stating that “the inhibition is of no force or
effect, since the Bishop and Diocese, meeting in
annual convention, constitutionally realigned with
another province of the Anglican Communion on
Saturday, Nov. 15, and are now constituent members
of the Anglican Province of the Southern Cone.”
Bishop Iker further clarified his position, stating,
Katharine Jefferts Schori has no authority
over me or my ministry as a Bishop in the
33
The proposed constitutional amendments under
consideration at the Annual Convention were the same ones
presented the previous year that required a second reading.

App-74
Church of God. She never has, and she never
will.
Since November 15, 2008, both the Episcopal
Diocese of Fort Worth and I as the Diocesan
Bishop have been members of the Anglican
Province of the Southern Cone. As a result,
canonical declarations of the Presiding
Bishop of The Episcopal Church pertaining to
us are irrelevant and of no consequence.
On December 5, 2008, TEC accepted Bishop Iker’s
November 24, 2008 renunciation and removed and
released him from the obligations of all ministerial
offices of TEC. On December 16, 2008, at a special
meeting of the standing committee, the Corporation’s
board, and the chairman of the constitution and
canons committee, the first item of discussion
addressed parishes and individuals who wanted to
stay with TEC. Of particular concern was the
perception that the “Steering Committee of North
Texas Episcopalians” and the “‘Remain Episcopal’
folks” were using the official Diocesan shield “in lots of
their publicity—in newspaper ads and on the web,
etc.—identifying themselves boldly as ‘the Episcopal
Diocese of Fort Worth in the Episcopal Church
U.S.A,’” which the meeting’s attendees said was
confusing
and
misleading.
Those
attending
unanimously agreed to send a “cease and desist” letter
regarding use of EDFW’s official seal and shield in
publicity. They then discussed the “very conflicted
situation which now exists at All Saints’ Church, Fort
Worth.”

App-75
5.

2009

Presiding Bishop Schori issued a “Notice of
Special Meeting of the Convention of the Episcopal
Diocese of Fort Worth, Saturday, February 7, 2009.”
In that notice, she stated that as there was no bishop
nor any qualified members of the standing committee
in the diocese, she had called the meeting “in
consultation with the Steering Committee of faithful
Episcopalians of that Diocese,” to elect a provisional
bishop and to elect or appoint members of the standing
committee, executive council, and other officers, to
adopt a budget, and to consider resolutions relating to
“recent purported amendments to the Constitution
and canons of the Diocese,” as well as other resolutions
relating to the TEC-affiliated diocese’s organization
and governance.
The emergency convention convened at Trinity
Episcopal Church under Presiding Bishop Schori.
After quorums were verified and the “parliamentary
necessities were accomplished,” the first order of
business was to elect a provisional bishop. Edwin F.
Gulick Jr., who was elected to the post, thereafter
made appointments to various commissions and
committees for the vacancies resulting from the
schism. Bishop Gulick also appointed trustees for the
Corporation, on the basis that the previous trustees’
effective resignation occurred when they left TEC by
the “irregular, illegal action of the convention in
2008.” 34
34 Additionally, Bishop Gulick testified in his deposition that
“sufficient persons” were elected in offices “necessary to conduct
the business of the Diocese.”

App-76
In his deposition, Bishop Gulick acknowledged
that the Corporation’s board members were supposed
to be elected one per year and, between sessions,
replacements would be voted on by the board. And
despite his inability to point to specific language
authorizing EDFW to remove all of the trustees, he
nevertheless explained that “in the unforeseen,
unanticipated emergency moment,” everything
possible had been done to comply with EDFW’s and
TEC’s constitutions and canons.
On April 14, 2009, the TEC parties adopted
amended and restated articles of incorporation for the
Corporation and filed them with the Texas Secretary
of State. These amended and restated articles
purported to return to the Corporation’s original
articles of incorporation (i.e., administration in
accordance “with the Constitution and Canons of the
Episcopal Diocese of Fort Worth and the Episcopal
Church of the United States”), and listed Bishop
Gulick, James Hazel, John Stanley, Robert Bass,
Cherie Shipp, and Trace Worrell as the current
members of the board of trustees. 35
At the 27th Annual Meeting of the Diocesan
Convention on November 14, 2009, the TEC-affiliated
EDFW ratified the actions of the February 7, 2009
special meeting, and after Bishop Gulick’s resignation,
C. Wallis Ohl was elected and installed as the TECaffiliated EDFW’s bishop. The same individuals who
were put into place at the February 7, 2009 special
meeting were elected to the TEC-affiliated diocese’s
35 A week later, Bishop Iker sent a certificate of correction to
the secretary of state regarding the Corporation’s articles.

App-77
standing committee and the Corporation’s board of
trustees. The convention also ratified the resolutions
made and actions taken at the February 7, 2009
special meeting and brought EDFW’s constitution and
canons back into compliance with TEC’s constitution
and canons. Bishop Ohl testified that the faction
headed by Bishop Iker was not the “Episcopal Diocese
of Fort Worth,” that he—not Bishop Iker—was the
legitimate and properly elected EDFW Bishop, and
that he, Hazel, Shipp, Worrell, Bass, and Stanley—
and not Bishop Iker, Salazar, Patton, Virden, Barber,
and Bates—were the Corporation’s legitimate and
properly elected trustees. See Episcopal Diocese, 422
S.W.3d at 647-49.
C. The Lawsuit
On the same day that the TEC parties’ amended
and restated Articles of Incorporation were filed—
April 14, 2009—the TEC parties filed suit for
conversion and violations of business and commerce
code section 16.29. 36 Additionally, the TEC parties
sought declaratory and injunctive relief regarding who
could act as EDFW’s representatives and who had use
and control of EDFW’s real and personal property. 37
Business and commerce code section 16.29 is now section
16.103, “Injury to Business Reputation; Dilution.” See Tex. Bus.
& Com. Code Ann. § 16.103 (West Supp. 2017).
36

37 In 2009, the Corporation transferred titles to Trinity
Episcopal Church (Fort Worth) and St. Martin-in-the-Fields
Episcopal Church (Southlake) to the rector, wardens, and vestry
of these parishes that stayed with TEC. It also transferred title
to St. Luke’s Episcopal Church (Stephenville) to the rector,
wardens, and vestry of that parish after evidence of satisfactory
removal of the Corporation’s name from any encumbrances on

App-78
See In re Salazar, 315 S.W.3d 279, 282 (Tex. App.—
Fort Worth 2010, orig. proceeding).
1.

Summary Judgment—First Round

The parties filed competing motions for summary
judgment. As explained by the supreme court,
In its motion for summary judgment TEC
argued, in part, that the actions of the Board
of Trustees in amending the Fort Worth
Corporation’s articles of incorporation were
void because the actions went beyond the
authority of the corporation, which was
created and existed as an entity subordinate
to a Diocese of TEC. TEC argued that “[t]he
secular act of incorporation does not alter the
relationship between a hierarchical church
and one of its subordinate units” and that
finding otherwise “would risk First
Amendment implications.” The Diocese, on
the other hand, argued that the case was
governed
by
the
Texas
Non-Profit
Corporation Act and the Texas Uniform
Unincorporated Nonprofit Association Act;
under those statutes a corporation may
amend its articles of incorporation and
bylaws; and TEC had no power to limit or
disregard amendments to the Corporation’s
articles and bylaws.
Episcopal Diocese, 422 S.W.3d at 650 (footnotes
omitted).

the property. Bishop Iker thereafter issued orders dissolving the
relationship between the diocese and these churches.

App-79
After the trial court granted summary judgment
and issued a declaratory judgment for the TEC parties
in 2011, stating that the changes made by Appellees
to the Corporation’s articles and bylaws were ultra
vires and void, 38 Appellees appealed directly to the
supreme court. The heart of the dispute, as identified
by the supreme court, was “whether the ‘deference’
(also sometimes referred to as the ‘identity’) or ‘neutral
principles of law’ methodology should be applied to
resolve the property issue.” Id. at 649.
The court’s opinion in the direct appeal issued in
2013. In it, the court reversed the trial court’s
judgment and remanded the case to the trial court to
be considered under the neutral principles
methodology. Id. at 647. In its opinion, the court stated
that under this methodology, ownership of disputed
property is to be determined by considering evidence
such as the deeds to the properties, the terms of the
local church charter (including articles of
incorporation and bylaws, if any), the relevant
provisions of governing documents of the general
church and local church entities, the governing state
statutes, and other items as applicable. Id. at 651-52
(“[O]n remand the trial court is not limited to
considering only the four factors listed in Jones [v.
Wolf, 443 U.S. 595, 99 S. Ct. 3020 (1979)]. . . . [t]he
The original cause number in the trial court was 141-23710509. The trial court granted Appellees’ motion to sever to make the
trial court’s interlocutory judgment for the TEC parties final and
appealable. The trial court severed the claims subject to the
summary judgment into cause number 141-252083-11 and stayed
the remainder of the unfinished action. Among others, the
petitioners in the direct appeal included Bishop Iker, Salazar,
Patton, Virden, Barber, Bates, several clergy, and 47 churches.
38

App-80
elements listed in Jones are illustrative.”). It also
referenced Masterson, which issued on the same day,
as applicable to this case regarding church canons and
Texas law. Id. at 653.
In Episcopal Diocese as well as in Masterson, the
court established guidance for the case on remand. In
Episcopal Diocese, the court observed, “[A]bsent
agreement or conclusive proof of title to the individual
properties and the capacities in which titles were
taken, fact questions exist under neutral principles of
law, at a minimum, about who holds title to each
property and in what capacity.” Id. at 652. The court
also instructed,
While we agree that determination of who is
or can be a member in good standing of TEC
or a diocese is an ecclesiastical decision, the
decisions by Bishops Gulick and Ohl and the
2009 convention do not necessarily determine
whether the earlier actions of the corporate
trustees were invalid under Texas law. The
corporation was incorporated pursuant to
Texas corporation law and that law dictates
how the corporation can be operated,
including determining the terms of office of
corporate directors, the circumstances under
which articles and bylaws can be amended,
and the effect of the amendments.
Id. The court concluded that the record failed to
conclusively show as a matter of law that the
Corporation’s trustees had been disqualified from
serving as such at the relevant times, whether the
2009 appointments to the Corporation’s board by
Bishop Ohl were valid or invalid under Texas law, or

App-81
whether, under Texas law, the actions taken by the
trustees appointed by Bishop Ohl in 2009 were valid
or invalid. Id. at 652-53.
2.

Summary Judgment—Second Round

Upon remand to the trial court, the TEC parties
filed an amended petition in which they renewed their
severed claims. 39 By this time the severed claims
included not only conversion and business and
commerce code section 16.29 violations but also breach
of fiduciary duty, breach of trust, trespass to try title,
and an action to quiet title. Additionally, the TEC
parties had pleaded for the imposition of a
constructive trust under a number of theories,
including estoppel. They also continued to seek
declaratory and injunctive relief and an accounting. 40
The parties once more filed competing motions for
partial summary judgment. 41
Prior to the TEC parties’ filing the amended petition, the trial
court had denied their motion to consolidate their previously
severed claims.
39

Appellees moved to strike the renewed claims, but the trial
court denied the motion.
40

We note here that in considering the competing summary
judgment motions, the trial court was faced with the same
herculean task that has been presented to us on appeal. First, it
was required to read a record totaling over 10,000 pages on
remand, a task that would take an above-average reader, such as
a trial judge, an estimated 200 hours, or between five and six
weeks, assuming he or she devoted 40 hours per week solely to
the endeavor. (Including the portions of the record developed
prior to the direct appeal, the record currently totals over 14,000
pages.) Then the trial court was presented with the daunting task
of conducting the research and analysis necessary to apply to that
voluminous record such exceedingly complex legal issues as state
41

App-82
a.

Appellees’ Motion and the TEC
Parties’ Response

In their motion, Appellees argued:
•

•

•
•

that the deeds, the 1984 judgment, the Diocese’s
charters, and adverse possession vested the
Corporation with title and control, that TEC’s
charters made no claim to title and only asserted
an invalid trust, and that the TEC parties’
pleadings conceded that title was in the
Corporation;
that state corporations and associations law
requires adherence to the Corporation’s and
Association’s by laws, making Appellees the
Corporation’s elected trustees and Bishop Iker the
chairman of the Corporation’s board and depriving
the TEC parties of standing when TEC’s own
charters prevented the TEC parties from
convening the special convention upon which their
claims were based;
that state law prohibits an express, implied, or
constructive trust interest for the TEC parties;
that the same rules that allocated control to
Appellees of the real property also applied to the

corporations, associations, and trust law, heavily overlaid by the
U.S. Supreme Court’s First Amendment jurisprudence, an
endeavor that could easily have taken as much time—if not a
good deal more—than the reading of the record. All the while, the
trial court was expected to carry out its other obligations of
attending to the hundreds of cases pending on its docket that
were, likewise, deserving of the trial court’s attention. On appeal,
as acknowledged by Appellees in their February 12, 2018
“Supplemental Response to Latest Letter Brief,” we have
received an additional “346 pages of briefing from the parties in
this appeal” to consider and address.

App-83
funds, trusts, and endowments that the TEC
parties sought; and
• that estoppel and quasi-estoppel did not apply
because Appellees only wanted a declaration to be
left alone.
The TEC parties responded that Appellees had
judicially admitted that the Corporation held all
property in trust for EDFW and its congregations, and
since those entities were subordinate affiliates of the
hierarchical church, the Corporation therefore held
the property in trust for the TEC parties because they
were the only parties recognized by TEC as those
entities. They also argued, as they do on appeal, that
the Dennis Canon, in addition to Appellees’ words and
actions prior to the schism, imposed a trust—express,
contractual, or constructive—in their favor. And they
argued that Appellees’ adverse possession claim failed
because there was no “adverse” interest until the 2008
schism.
b.

The TEC Parties’ Motion and
Appellees’ Response

In their summary judgment motion, the TEC
parties contended:
•

•

that because TEC had determined that Appellees
did not represent EDFW and its congregations and
that the TEC parties did represent them, the
property held in trust by the Corporation was held
in trust for the TEC parties;
that Appellees had no right to control the
Corporation because, in addition to the plain terms
of the Corporation’s bylaws, it was a subordinate
entity of EDFW that only the TEC parties could
control;

App-84
that state associations law favored the TEC parties
because local chapters are treated as constituents
of larger organizations;
• that an express trust was created when EDFW
agreed to TEC’s rules in exchange for formation,
membership, and property, including the Dennis
Canon, but that even without an express trust, the
TEC parties were entitled to a constructive trust;
• that Appellees’ adverse possession claim failed
because they did not meet all of the necessary
elements to establish that claim;
• that Appellees were estopped from raising claims
and defenses that contradicted their commitments,
conduct, and prior statements to courts and other
federal and state authorities;
• that, contrary to Appellees’ assertion, the TEC
parties did have standing; and
• that based on all of the above, the trial court should
grant summary judgment on the TEC parties’
trespass-to-try-title claim and their request for
attorney’s fees and for declaratory judgment. 42
Appellees responded that the supreme court had
rejected the TEC parties’ deference theory in favor of
neutral principles, that there was no express or
irrevocable trust in TEC’s favor nor a contractual or
constructive trust, that there was no breach of
fiduciary duty, and that the TEC parties’ remaining
grounds were baseless.
•

42 The TEC parties also raised retroactivity and deference, reurging their original, pre-Episcopal Diocese and Masterson
arguments.

App-85
c.

Supplemental Motions

On March 2, 2015, the trial court, except as to
claims involving All Saints Episcopal Church, granted
Appellees’ motion and denied the TEC parties’ motion.
The parties filed supplemental summary judgment
motions to address the All Saints issues 43 and agreed
that the remaining claims in cause number 141252083-11—the claims for attorney’s fees, conversion,
violations of business and commerce code section
16.29, damages for breach of fiduciary duty (as
opposed to the predicate for a constructive trust), the
action to quiet title, and for an accounting—should be
severed and stayed.
In their summary judgment motion relating to All
Saints Episcopal Church, 44 Appellees argued that the
The record reflects that All Saints had a troubled history
with EDFW’s leadership. Four years after the 1986 agreement
between All Saints and EDFW to designate All Saints as EDFW’s
Cathedral Church, in October 1990, a dispute arose between
then-Bishop Pope and All Saints with regard to cathedral status
and how the property was held—the bishop wanted title to the
property to be held in conformity with EDFW’s constitution and
canons, while All Saints’s vestry wanted to hold it in trust for
TEC in conformity with TEC’s constitution and canons.
43

The articles of incorporation for All Saints Episcopal Church
are contained in the record and indicate that it was incorporated
for a fifty-year term in 1953. No one has indicated whether any
efforts were taken to maintain its incorporated status after 2003
or what effect the lack of status might have, but in their reply to
the TEC parties’ All Saints motion for summary judgment,
Appellees asserted that All Saints’s incorporation “in the 1950s
has no bearing on this dispute” and that all parties agreed that
under EDFW’s canons, the All Saints Corporation is merely an
“adjunct or instrumentality” of the parish that cannot hold real
property.
44

App-86
Corporation held legal title to two of the All Saints
properties—the sanctuary and parish hall on 5001
Crestline and the rectory on 5003 Dexter—by virtue of
the 1984 judgment’s property transfer and that
beneficial title was held by the group affiliated with
them. Ergo, applying the same reasoning as the trial
court’s previous summary judgment, Appellees were
entitled to summary judgment as to those two
properties. Appellees waived their claims to the
remaining four All Saints properties “so as to resolve
this case without a trial.” 45
The TEC parties, in their All Saints summary
judgment motion, asked the trial court to construe the
deeds, to declare the TEC parties the properties’
equitable owners, and to remove Appellees as the
trustees or owners of legal title. 46 The trial court
disposed of the All Saints summary judgment motions
in its final summary judgment.
3.

Trial Court’s Judgment

On July 24, 2015, the trial court signed a final
judgment in this case, consolidating its prior orders.

5001 Crestline and 5003 Dexter are adjacent to the
properties referenced by Bishop Iker in his September 2008 letter
to the All Saints rector.
45

The TEC parties also revisited all of their prior arguments in
the case, prompting Appellees to remark in their summary
judgment response that “the Court should reject these 95 pages
that summarize what the Court rejected when it was 153 pages”
and that “[t]he last 95 pages of the 111 pages of Plaintiffs’ motion
can be ignored because Plaintiffs admit their ‘global arguments’
merely re-assert the same grounds this Court rejected in its
Partial Summary Judgment of March 2, 2015.”
46

App-87
In the judgment, the trial court granted Appellees’
motion as to All Saints on the two pieces of property
under dispute and denied the TEC parties’ opposing
motion. The trial court recited in its judgment that the
claims for attorney’s fees in both the original and
severed action, the claims in the severed action for
conversion, damages for breach of fiduciary duty, to
quiet title and for an accounting, and the claims under
business and commerce code section 16.29 remained
pending in the original action, cause number 141237105-09, and ordered that those remaining claims,
“to the extent they are also pending in this cause,”
were dismissed without prejudice and preserved for
litigation in cause number 141-237105-09.
The trial court made the following declarations in
its judgment:
1. Neutral principles of Texas law govern
this case, and applying such law is not
unconstitutionally retroactive.[47]
In this, the trial court was merely obeying the law of the case:
the supreme court stated in Episcopal Diocese that it had
“concluded in Masterson that the neutral principles methodology
was the substantive basis [for the supreme court’s] decision in
Brown v. Clark, 102 Tex. 323, 116 S.W. 360 (1909),” and that “as
to the argument that application of neutral principles may pose
constitutional questions if they are retroactively applied, we note
that over a century ago in Brown . . . our analysis and holding
substantively reflected the neutral principles methodology.” 422
S.W.3d at 650-51, 653. Based on the supreme court’s
determination that the neutral principles methodology had
substantively applied to this type of case since 1909, the trial
court did not err by determining that its application here would
not be retroactive. See Farmers Grp. Ins., Inc. v. Poteet, 434
S.W.3d 316, 329 (Tex. App.—Fort Worth 2014, pet. denied)
(explaining that the law of the case doctrine is the principle under
47

App-88
2. The Corporation of the Episcopal Diocese
of Fort Worth and Defendant Congregations
hold legal title to all the properties listed on
Exhibit 1 attached to this Order, subject to
control by the Corporation pursuant to the
Diocese’s charters.[ 48]

3. The Episcopal Diocese of Fort Worth and
the Defendant Congregations in union with
that Diocese hold beneficial title to all the
which questions of law decided on appeal to a court of last resort
will govern the case throughout its subsequent stages).
Therefore, to the extent that the TEC parties have raised
subissues in footnote 5 of their appellants’ brief with regard to
their issues 1(a) and 1(b), in which they re-urge their preEpiscopal Diocese and Masterson retroactivity and deference
methodology arguments, we overrule these subissues without
further discussion. But see Eric G. Osborne & Michael D. Bush,
Rethinking Deference: How the History of Church Property
Disputes Calls into Question Long-Standing First Amendment
Doctrine, 69 SMU L. Rev. 811, 813 (2016) (suggesting that the
deference model itself is fundamentally flawed and that its result
“has been to empower denominational hierarchies, thus making
divisions and intra-church fights for control especially bitter”).
The supreme court acknowledged in Episcopal Diocese that
“[t]he 1984 judgment [transferring real and personal property
from the Diocese of Dallas] vested legal title of the transferred
property in the Fort Worth Corporation, except for certain assets
for which the presiding Bishop of the Dallas Diocese and his
successors in office had been designated as trustee.” 422 S.W.3d
at 648. Those other assets were transferred by the 1984 judgment
to the Bishop of the Fort Worth Diocese and his successors in
office as trustee. Id.; see Farmers Grp., 434 S.W.3d at 329 (law of
the case doctrine).Ultimately, legal title to that property was also
placed under the Corporation’s control. See Tex. Bus. Orgs. Code
Ann. § 252.015(West 2012). No one disputes that the Corporation
holds legal title.
48

App-89
properties listed on Exhibit 1 attached to this
Order.
4. Defendants Dr. Franklin Salazar, Jo Ann
Patton, Walter Virden, III, Rod Barber, and
Chad Bates are, and have been since 2005,
the properly elected Trustees of the
Corporation for the Episcopal Diocese of Fort
Worth.
5. Defendant Jack Iker is, and has been
since 2005, the proper Chairman of the board
and one of the Trustees of the Corporation for
the Episcopal Diocese of Fort Worth.
6. Defendants
are
the
proper
representatives of the Episcopal Diocese of
Fort Worth, the Texas unincorporated
association formed in 1982.
7. The Defendants hold legal title and
control of the funds and endowments listed on
Exhibit 2 attached to this Order, subject to
the terms of each.
8. Plaintiffs have no express, implied, or
constructive trust in the properties or funds
listed in the Exhibits attached to this Order.
9. Defendants have not breached any
fiduciary duty to or special relationship with
any Plaintiffs.
Exhibit 1 attached to the order listed 121 properties.
Exhibit 2 listed four funds for which the Corporation
is listed as trustee, six funds for which Bishop Iker is
listed as trustee, and one fund for which the EDFW
Treasurer, the EDFW Chancellor, and Bishop Iker are
listed as trustees.

App-90
The TEC parties filed a joint notice of appeal.
III. Discussion
TEC argues that the trial court erred as a matter
of law in its application of the “neutral principles”
approach by failing to defer to and apply TEC’s
ecclesiastical determination of which entity
constitutes EDFW. The TEC parties argue that the
trial court erred by denying their motion for summary
judgment and granting summary judgment for
Appellees by:
a. Violating Masterson, Episcopal Diocese,
and the First Amendment by overriding the
Episcopal Church on who may control an
Episcopal
Diocese
and
Episcopal
Congregations;
b. Violating Masterson, Episcopal Diocese,
and the First Amendment’s limits on neutral
principles by refusing to “accept as binding”
the Church’s determination of ecclesiastical
issues within this property case;
c. Failing to apply neutral principles of
Texas Associations law, including an
association’s right to interpret and enforce its
own rules;
d. Failing to apply this Court’s holding in
Shellberg v. Shellberg, 459 S.W.2d 465, 470
(Tex. Civ. App.—Fort Worth 1970, writ ref’d
n.r.e.), the law in effect when the Diocese
made its contract;
e. Violating Texas trust law by refusing to
enforce the express, unrevoked trusts in favor

App-91
of the Church in fifty-five individual recorded
deeds;
f. Failing to find breach of fiduciary duty
and to impose a constructive trust where
Appellees broke a century’s worth of oaths
and commitments;
g. Failing to estop Appellees from
contradicting their own statements to other
courts and parties;
h. Failing to apply Texas Corporations law
to the undisputed facts, including a plain
application of the Corporation’s bylaws;
i. Failing to reject Appellees’ claim to title
by adverse possession;
j. Holding, if it did, that Appellants did not
have standing; and
k. Denying Appellants’ trespass-to-try-title
claim.
Because TEC also adopted and incorporated by
reference all of the TEC parties’ issues and
arguments, we will address their dispositive issues
together.
A. Standard of Review
In a summary judgment case, the issue on appeal
is whether the movant met the summary judgment
burden by establishing that no genuine issue of
material fact exists and that the movant is entitled to
judgment as a matter of law. Tex. R. Civ. P. 166a(c);
Mann Frankfort Stein & Lipp Advisors, Inc. v.
Fielding, 289 S.W.3d 844, 848 (Tex. 2009). We review
a summary judgment de novo. Travelers Ins. Co. v.

App-92
Joachim, 315 S.W.3d 860, 862 (Tex. 2010). When both
parties move for summary judgment and the trial
court grants one motion and denies the other, the
reviewing court should review both parties’ summary
judgment evidence and determine all questions
presented. Mann Frankfort, 289 S.W.3d at 848. The
reviewing court should render the judgment that the
trial court should have rendered. See Myrad Props.,
Inc. v. LaSalle Bank Nat’l Ass’n, 300 S.W.3d 746, 753
(Tex. 2009); Mann Frankfort, 289 S.W.3d at 848.
B. Jurisdiction
Standing is a threshold issue that implicates
subject matter jurisdiction, focuses on the question of
who may bring an action, and presents the issue of
whether a court may consider a dispute’s merits. See
In re J.W.L., 291 S.W.3d 79, 85 (Tex. App.—Fort
Worth 2009, orig. proceeding [mand. denied]). “To
have standing, a plaintiff must be personally
aggrieved, and his alleged injury must be concrete and
particularized, actual or imminent, and not
hypothetical.” Heat Shrink Innovations, LLC v. Med.
Extrusion Techs.-Tex., Inc., No. 02-12-00512-CV, 2014
WL 5307191, at *7 (Tex. App.—Fort Worth Oct. 16,
2014, pet. denied) (mem. op.) (citing DaimlerChrysler
Corp. v. Inman, 252 S.W.3d 299, 304-05 (Tex. 2008)).
“A party may be personally aggrieved if it has a legal
or equitable interest in the controversy.” Id. (citing
Goswami v. Metro. Sav. & Loan Ass’n, 751 S.W.2d 487,
489 (Tex. 1988) (holding that plaintiff had standing to
contest sale of property in which he had an equitable
interest), $574.37 U.S. Coin & Currency v. State,
No. 02-06-00434-CV, 2008 WL 623793, at *6 (Tex.
App.—Fort Worth Mar. 6, 2008, no pet.) (mem. op.)

App-93
(holding that although vehicle was owned by another
person, plaintiff had equitable interest in truck to
confer standing to contest forfeiture), and First Nat’l
Bank of El Campo, TX v. Buss, 143 S.W.3d 915, 922
(Tex. App.—Corpus Christi 2004, pet. denied) (noting
that a person in possession of a vehicle who is the
intended owner of the vehicle has an equitable
possessory right in the vehicle even if that person is
not named on the vehicle’s title)). Without a breach of
a legal right belonging to a specific party, that party
has no standing to litigate. Cadle Co. v. Lobingier, 50
S.W.3d 662, 669-70 (Tex. App.—Fort Worth 2001,
pets. denied) (en banc op. on reh’g). We review
standing de novo and may review the entire record to
determine whether any evidence supports it. Senger
Creek Dev., LLC v. Fuqua, No. 01-15-01098-CV, 2017
WL 2376529, at *13 (Tex. App.—Houston [1st Dist.]
June 1, 2017, no pet.) (mem. op.) (citing Mayhew v.
Town of Sunnyvale, 964 S.W.2d 922, 928 (Tex. 1998);
Tex. Ass’n of Bus. v. Tex. Air Control Bd., 852 S.W.2d
440, 444-45 (Tex. 1993)).
The TEC parties argue that a party has standing
as long as he or she alleges a pecuniary interest. They
contend that they have done so as “(1) the displaced
minority that formerly enjoyed use of the property and
as the only parties authorized by the Church to lead
the Diocese; and (2) the Church that formed the
Diocese and received a trust interest in the property,”
citing Getty Oil Company v. Insurance Company of
North America, 845 S.W.2d 794, 798-99 (Tex. 1992), 49
49 In Getty, a chemical buyer sued the seller and the seller’s
insurers after the chemicals exploded and killed someone and a
wrongful death judgment was obtained against it; the buyer

App-94
cert. denied, 510 U.S. 820 (1993),and Hunt v. Bass, 664
S.W.2d 323, 324 (Tex. 1984). 50
According to Appellees, in contrast,
No matter how [the TEC parties] claim to
have suffered injury, a state statute says they
have no standing to sue the Corporation or its
Trustees for violating fiduciary duties or
corporate charters. Any claim for breach of
fiduciary duty owed to the Diocese or the
Corporation must be brought by those
entities. Since [the TEC parties’] counsel

claimed in its subsequent suit that the seller and the seller’s
insurers were contractually obligated to provide insurance to
cover the judgment against it. 845 S.W.2d at 796-98. The court
held that res judicata barred the claims against the seller
because the buyer could have asserted those claims in the earlier
suit despite their contingency. Id. at 799. From this, Appellants
draw their argument that once their identity has been
established, their claims will no longer be contingent.
In Hunt, several plaintiffs filed a petition for writ of
mandamus after their separate lawsuits were delayed because
the commissioners’ court and commissioners failed to provide
adequate courtroom space and personnel. 664 S.W.2d at 324. The
trial court determined that the plaintiffs had no standing to sue
for mandamus relief and dismissed their petition. Id. The
supreme court held that because each plaintiff was a party to a
lawsuit pending in the district court (as distinguished from the
general public, which did not have lawsuits pending), and
because they had each alleged a failure of the court system to
provide trials in those lawsuits in a reasonable time, which
potentially deprived each plaintiff of a valuable property right,
the plaintiffs had made sufficient allegations concerning the
infringement of their private rights to present justiciable
interests, providing them with standing for the mandamus
action. Id.
50

App-95
represent neither, they have no authority to
bring such claims for them.
Additionally, lawsuits claiming that the acts
or property transfers of a Texas nonprofit
corporation violate its corporate purposes can
be brought only by a member or the Attorney
General. [The TEC parties] are neither; the
Corporation has no “members,” and the
Attorney General is not a party.
Since [the TEC parties] severed all
connection with the Diocese and the
Corporation and have no right to represent
either, they have no standing to complain
about how either is governed.
[Footnotes omitted.] Appellees refer us to articles
1396-2.03(B) 51 and 1396-2.08(A) 52 of the revised civil
statutes 53 and Cotten v. Weatherford Bancshares, Inc.,
Act of Apr. 23, 1959, 56th Leg., R.S., ch. 162, art. 2.03(B),
1959 Tex. Gen. Laws 286, 290 (listing who may bring a
proceeding against the corporation with regard to an ultra vires
act—a member, the corporation itself through a receiver, trustee,
or other legal representative, or the Attorney General) (current
version at Tex. Bus. Orgs. Code Ann. § 20.002(c)(1)-(3) (West
2012)).
51

Act of Apr. 23, 1959, 56th Leg., R.S., ch. 162, art. 2.08(A),
1959 Tex. Gen. Laws 286, 292 (“A corporation may have one or
more classes of members or may have no members.”) (current
version at Tex. Bus. Orgs. Code Ann. § 22.151(a) (West 2012)).
52

53 In their pleadings in the trial court, the parties appear to
have at least implicitly agreed that the applicable provisions of
the former statutes and current statutes in the business
organizations code are largely the same, and neither party has
indicated to us that there are any substantive differences
between the Corporation’s law of formation and the current law.

App-96
187 S.W.3d 687, 698 (Tex. App.—Fort Worth 2006,
pet. denied), 54 disapproved of on other grounds by
Ritchie v. Rupe, 443 S.W.3d 856, 865 n.9, 871 n.17, 877
(Tex. 2014), in support of their argument.
With regard to this particular case, standing
turns at least in part on the neutral principles
analysis with which we have been tasked by the
supreme court. 55 From the application of these neutral
principles, we will determine whether the TEC parties
have an interest in the property or entities that would

Accordingly, in the interest of judicial economy, we will cite to the
current sections of the business organizations code.
54

We stated in Cotten,
While corporate officers owe fiduciary duties to the
corporation they serve, they do not generally owe
fiduciary duties to individual shareholders unless a
contract or confidential relationship exists between
them in addition to the corporate relationship. Due to
its extraordinary nature, the law does not recognize a
fiduciary relationship lightly. Therefore, whether such
a duty exists depends on the circumstances.

187 S.W.3d at 698 (citations omitted).
The standing debate arose several times during the course of
the proceedings, summed up by Appellees at one hearing as,
55

The only argument that they [the TEC parties] have
the right to argue is whether they’re—the individuals
are duly elected . . . . Because it’s the nature of the
claims that the individuals are bringing that only the
diocese and the diocesan corporation could bring. An
individual who sues in a representative capacity is
suing on behalf of the individual entity that the person
represents.

App-97
give them standing for the claims that were resolved
by the trial court’s final judgment. 56
Additionally, we note that the ecclesiastical
abstention doctrine, which arises from the Free
Exercise Clause of the First Amendment to the United
States Constitution, may also affect our jurisdiction to
consider some of the claims. See U.S. Const. amend. I
(“Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof.”); Masterson, 422 S.W.3d at 601
(observing that the Free Exercise clause severely
circumscribes the role that civil courts may play in
We touched on this issue in In re Salazar, when Appellees
filed a petition for writ of mandamus after the trial court denied
part of their motion to show authority under rule of civil
procedure 12 as to attorneys hired by the TEC parties to
represent the Corporation and EDFW in the property dispute.
315 S.W.3d at 281. The essence of that original proceeding was
one of identity. See id. at 282, 284 (observing that both plaintiffs
and defendants purported to represent EDFW and the
Corporation and that plaintiffs argued that the issue of the
identity of the true bishop and trustees was at the heart of the
suit). We did not reach the question of the “true identity” of the
bishop and trustees because we agreed with the trial court that a
rule 12 motion was not the appropriate vehicle to reach the
merits of an intra-church dispute. Id. at 285.
56

Instead, because neither side challenged the trial court’s
finding that the two attorneys did not discharge their burden of
proof, we concluded that the trial court abused its discretion by
not striking the pleadings filed by those attorneys on behalf of
the Corporation and EDFW. Id. at 286. We granted mandamus
relief because a corporation cannot sue itself, and we reasoned
that presentations from two opposing factions each claiming to
be the Corporation and EDFW could unnecessarily confuse a trier
of fact. Id. at 287.

App-98
resolving church property disputes by prohibiting civil
courts from inquiring into matters concerning
theological
controversy,
church
discipline,
ecclesiastical government, or conformity of church
members to the church’s moral standards).
1.

Neutral Principles Framework

The structural underpinning of our review of the
trial court’s judgment begins with a review of cases
from the U.S. Supreme Court on the evolution of the
applicable law, followed by a closer look at Masterson
and other cases to which the parties have referred us.
a.

Precedent
Authority

and

Persuasive

(1) United States Supreme Court
Cases
(a) Watson v. Jones, 80 U.S.
(13 Wall.) 679 (1871).
Watson, which set out the original “deference”
methodology applicable to hierarchical churches,
arose from a schism that presented the question “as to
which of two bodies shall be recognized as the Third or
Walnut Street Presbyterian Church,” as well as who
had the authority to lead it and to possess the church’s
property. 80 U.S. at 717-18. The local church’s
trustees had incorporated to hold title to the property
in trust “for the use of the persons who by the
constitution, usages, and laws of the Presbyterian
body, are entitled to that use,” and were elected by the
local church’s congregation for two-year terms. Id. at
720.
The Court noted that for congregational—that is,
independent, stand-alone—churches undergoing a

App-99
schism into “distinct and conflicting bodies, the rights
of such bodies to the use of the property must be
determined by the ordinary principles which govern
voluntary associations.” Id. at 724-25. In such
circumstances, if no trust was previously imposed
upon the property when purchased or given, the court
would not imply one, the majority would keep the
property, and “[t]he minority in choosing to separate
themselves into a distinct body, and refusing to
recognize the authority of the governing body, can
claim no rights in the property from the fact that they
had once been members of the church or
congregation.” Id. at 725.
But the Court treated a local church’s
membership in a hierarchical church—part of a large
and general organization of some religious
denomination that is “more or less intimately
connected by religious views and ecclesiastical
government”—differently. Id. at 726. The Court
acknowledged that the property’s legal documents did
not indicate its disposition. 57 Id. Rather, the property
was purchased for the use of a religious congregation,
“and so long as any existing religious congregation can
be ascertained to be that congregation, or its regular
and legitimate successor, it is entitled to the use of the
property.” Id. (emphasis added). Instead of looking to
the rules that govern voluntary associations to
determine identity or succession, the Court stated that
57 The Court stated, “Here is no case of property devoted forever
by the instrument which conveyed it, or by any specific
declaration of its owner, to the support of any special religious
dogmas, or any peculiar form of worship. . . .”Watson, 80 U.S. at
726.

App-100
in cases involving a hierarchical church, 58 “we are
bound to look at the fact that the local congregation is
itself but a member of a much larger and more
important religious organization, and is under its
government and control, and is bound by its orders
and judgments” with regard to “questions of discipline,
or of faith, or ecclesiastical rule, custom, or law” that
have been decided by the highest of the hierarchical
church’s judicatories, and to accept those decisions as
final and binding “in all cases of ecclesiastical
cognizance.” Id. at 726-27, 729.
In resolving the matter in favor of the local faction
that had remained with the national, hierarchical
church, the Court stated,
Whatever may have been the case before the
Kentucky court, the appellants in the case
presented to us have separated themselves
wholly from the church organization to which
they belonged when this controversy
commenced. They now deny its authority,
denounce its action, and refuse to abide by its
judgments. They have first erected
themselves into a new organization, and have
since joined themselves to another totally

The Court specifically identified the “Protestant Episcopal”
church as one of the “large and influential bodies [with] . . . a
body of constitutional and ecclesiastical law of its own, to be
found in [its] written organic laws, [its] books of discipline, in [its]
collections of precedents, in [its] usage and customs, which as to
each constitute a system of ecclesiastical law and religious faith
that tasks the ablest minds to become familiar with.” Watson, 80
U.S. at 729.
58

App-101
different, if not hostile, to the one to which
they belonged when the difficulty first began.
Id. at 734. Accordingly, the Court concluded, “the
appellants, in their present position, have no right to
the property, or to the use of it, which is the subject of
this suit.” Id.
Watson governed church property disputes until
neutral principles made an appearance, see Windwood
Presbyterian Church, Inc. v. Presbyterian Church
(U.S.A.), 438 S.W.3d 567, 602 (Tex. App.—Houston
[1st Dist.] 2014, no pet.) (op. on reh’g) (referencing
Justice Brennan’s concurring opinion in Maryland &
Va. Eldership of Churches of God v. Church of God at
Sharpsburg, Inc., 396 U.S. 367, 370, 90 S. Ct. 499, 501
(1970) (Brennan, J., concurring)), 59 and elements of it
remain in play. See Masterson, 422 S.W.3d at 602
(stating that deference is not optional when
ecclesiastical questions are at issue).

Maryland ended in dismissal from the U.S. Supreme Court
because the state court’s resolution of the church property
dispute involved no inquiry into religious doctrine. 396 U.S. at
367-68, 90 S. Ct. at 499-500. In his concurring opinion, Justice
Brennan recited that under Watson, a majority of a
congregational church or the highest authority of a hierarchical
church could make the property decision “unless ‘express terms’
in the ‘instrument by which the property is held’ condition the
property’s use or control in a specified manner” as long as those
express conditions may be effected without consideration of
doctrine and as long as the appropriate church governing body
can be determined without the resolution of doctrinal questions
and without extensive inquiry into religious policy. 396 U.S. at
368-70 & n.2, 90 S. Ct. at 500-01 & n.2 (Brennan, J., concurring).
59

App-102
(b) Kedroff v. St. Nicholas
Cathedral of Russian
Orthodox
Church
in
North America, 344 U.S.
94, 73 S. Ct. 143 (1952).
Kedroff involved a dispute over the right to use
and occupy a church building. 344 U.S. at 95, 73 S. Ct.
at 144. The American branch of the Russian Orthodox
Church had created a corporation under New York
state law in 1925 to acquire a cathedral as “a central
place of worship and residence of the ruling
archbishop.” Id., 73 S. Ct. at 144. Title was in the
corporation’s name. Id. at 96 n.1, 73 S. Ct. at 144 n.1.
The only issue was who had the right to use the
cathedral—Archbishop Leonty, who was elected to his
ecclesiastical office by the American churches, or
Archbishop Benjamin, 60 who was appointed by the
Supreme Church Authority of the Russian Orthodox
Church in Moscow. Id. at 96 & n.1, 73 S. Ct. at 144 &
n.1. The Court observed that determination of the
right to use and occupy the cathedral depended “upon
whether the appointment of Benjamin by the
Patriarch or the election of the Archbishop for North
America by the convention of the American churches
validly selects the ruling hierarch for the American
churches.” Id. at 96-97, 73 S. Ct. at 144.
The lower state courts concluded that the
cathedral had to be occupied by an archbishop
60 Benjamin ordained Kedroff as a priest, and Kedroff then
“gave” the cathedral to Benjamin. See Saint Nicholas Cathedral
of Russian Orthodox Church in N. Am. v. Kedroff, 96 N.E.2d 56,
67 (1950), rev’d sub nom. Kedroff, 344 U.S. 94, 73 S. Ct. 143
(1952).

App-103
appointed by the central authorities in Moscow (i.e.,
Benjamin). Saint Nicholas, 96 N.E.2d at 67. The
highest state court disagreed, relying on a state
statute that “had a conclusive effect upon the issues
presented,” in addition to the fact that the lower courts
had not determined whether Benjamin et al. “could be
relied upon to carry out faithfully and effectively the
purposes of the religious trust,” and the fact that the
Moscow patriarchy functioned “as an arm of the
Russian Government to further its domestic and
foreign policy.” Id. at 67-68. The statute upon which
the state court relied purported to define the “Russian
Church in America,” and to define “Russian Orthodox
church” as a term of art “to denote the particular local
buildings or organizations of the Russian Orthodox
faith as distinguished from the spiritual church” and,
using that term of art, purported to identify who was
the church’s leader. Id. at 69-70 (quoting the statute,
which provided, in pertinent part, that “[e]very
Russian Orthodox church in this state . . . shall
recognize and be and remain subject to the jurisdiction
and authority of the . . . governing bodies and
authorities of the Russian Church in America,
pursuant to the statutes for the government thereof
adopted at a general convention . . . held in the city of
New York”). The state court relied on the legislative
determination that the “Russian Church of America”
was the trustee that could be relied upon “to carry out
more effectively and faithfully the purposes of th[e]
religious trust.” Id. at 72.
Predictably, the losing party in the state court
appealed to the Court, challenging the state statute as
invalid based on interference with the exercise of
religion. Kedroff, 344 U.S. at 100, 73 S. Ct. at 146. The

App-104
statute had come into being because of “differences
between the Mother Church and its American
offspring.” Id. at 105, 73 S. Ct. at 149. The Court
concluded that because the statute undertook by its
terms to transfer the control of the New York churches
of the Russian Orthodox religion from the central
governing hierarchy of the Russian Orthodox
Church—the Patriarch of Moscow and the Holy
Synod—to the governing authorities of the Russian
Church in America, it violated the Fourteenth
Amendment. Id. at 107-08, 73 S. Ct. at 150
(“Legislation that regulates church administration,
the operation of the churches, [and] the appointment
of clergy, by requiring conformity to church statutes”
adopted by the general convention of the Russian
Church in America held in New York City in 1937
“prohibits the free exercise of religion”). This was
impermissible, even though the legislature had sought
to protect “the American group from infiltration of [the
Russian Government’s] atheistic or subversive
influences” when the legislature gave the use of the
churches to the American group “on the theory that
this church would most faithfully carry out the
purposes of the religious trust.” Id. at 109-10, 73 S. Ct.
at 151.
The Court then proceeded to review its precedent
with regard to hierarchical churches, which it defined
as “those organized as a body with other churches
having similar faith and doctrine with a common
ruling convocation or ecclesiastical head.” Id. at 11014, 73 S. Ct. at 151-53 (referencing Watson, 80 U.S. at
727). The Court concluded that the controversy over
the right to use the cathedral was “strictly a matter of
ecclesiastical government, the power of the Supreme

App-105
Church Authority of the Russian Orthodox Church to
appoint the ruling hierarch of the archdiocese of North
America,” and that the statute, by fiat, displaced one
church administrator with another and passed the
control of strictly ecclesiastical matters from one
church authority to another in violation of the federal
constitution. Id. at 115-16, 119, 73 S. Ct. at 154-56
(“Freedom to select the clergy, where no improper
methods of choice are proven . . . must now be said to
have federal constitutional protection as a part of the
free exercise of religion against state interference.”).
In sum, then, the transfer by statute of control
over churches, including the determination thereby of
church leadership, violates the constitutional rule of
separation between church and state. Id. at 110, 73 S.
Ct. at 151; see also Kreshik v. Saint Nicholas
Cathedral, 363 U.S. 190, 191, 80 S. Ct. 1037, 1038
(1960) (applying the same rule to judicial
pronouncements). But at issue in the case before us is
not a statute that may or may not unconstitutionally
infringe upon the parties’ freedom of religion or the
identification of religious leadership. Rather, we are to
consider our business organizations, property, and
trust statutes within the confines of the nondoctrinal
portions of the parties’ governing documents to
determine whether the Corporation followed its
articles and bylaws and whether a trust or trusts were
created, and if so, for whom.

App-106
(c) Presbyterian Church v.
Mary Elizabeth Blue Hull
Memorial Presbyterian
Church, 393 U.S. 440, 89
S. Ct. 601 (1969).
Presbyterian Church, which involved a church
property dispute in which two local churches
withdrew from a hierarchical national church,
formalized the neutral principles framework as an
option for resolving such disputes. 393 U.S. at 441,
449, 89 S. Ct. at 602, 606. In 1966, the membership of
two local churches, under the leadership of their
ministers and most of their ruling elders, voted to
withdraw and reconstitute themselves as autonomous
organizations after they concluded that some of the
national church’s actions and pronouncements
violated the organization’s constitution and departed
from the doctrine and practice that were in force at the
time they affiliated. Id. at 442-43, 89 S. Ct. at 602-03.
The state courts considered the implied trust theory
and integrated a departure-from-doctrine element
that allowed a jury to conclude that the local churches
should retain their property. Id. at 443-44, 449-50, 89
S. Ct. at 603, 606.
The Court noted that while the First Amendment
severely circumscribes the role that civil courts may
play in resolving church property disputes, not all
such disputes are precluded from the civil courts’
consideration. Id. at 447, 449, 89 S. Ct. at 605-06
(observing that in Kedroff, the Court converted into a
constitutional rule Watson’s principle as to the binding
and conclusive nature of a hierarchical court’s
ecclesiastical decisions in the absence of fraud or

App-107
collusion, even when affecting civil rights).
Specifically, “there are neutral principles of law,
developed for use in all property disputes, which can
be applied without ‘establishing’ churches to which
property is awarded.” Id. at 449, 89 S. Ct. at 606. But
to do this, states, religious organizations, and
individuals must structure relationships involving
church property so as not to require the civil courts to
resolve ecclesiastical questions. Id., 89 S. Ct. at 606.
Accordingly, the Court reversed the decision of the
state court as violating the First Amendment because
the departure-from-doctrine element required the
state court to determine matters at the very core of a
religion—whether the general church’s challenged
actions departed substantially from prior doctrine
pursuant to the court’s interpretation of the doctrine’s
meaning and then, after assessing the relative
significance to the religion of the tenets from which
departure was found, whether the issue on which the
general church departed “holds a place of such
importance in the traditional theology as to require
that the trust be terminated.” Id. at 449-50, 89 S. Ct.
at 606-07. The Court remanded the case for further
proceedings. Id. at 452, 89 S. Ct. at 607 (stating that a
civil court may no more review a church decision
applying a state departure-from-doctrine standard
than it may apply that standard itself).
On remand, the state court held that, in light of
the Supreme Court’s pronouncement on the
departure-from-doctrine element, the implied-trust
theory itself was no longer valid. Presbyterian Church
in U.S. v. E. Heights Presbyterian Church, 167 S.E.2d
658, 659 (Ga. 1969), cert. denied, 396 U.S. 1041 (1970).

App-108
Accordingly, because no trust was created for the
general church in the property’s deed or required by
the general church’s constitution, and because the
general church had put no funds into the property,
legal title to the property remained with the local
churches. Id. at 659-60.
(d) Serbian Eastern Orthodox
Diocese for the United
States of America &
Canada v. Milivojevich,
426 U.S. 696, 96 S. Ct. 2372
(1976).
Milivojevich involved a challenge to the
suspension, removal, and defrocking of a bishop in—
and the reorganization of his diocese into three
dioceses by—the Serbian Orthodox Church. 426 U.S.
at 697-98, 96 S. Ct. at 2375. The basic dispute,
according to the Court, arose from a quarrel over
control of the Serbian Eastern Orthodox Diocese for
the United States of America and Canada, its
property, and its assets. Id. at 698, 96 S. Ct. at 2375.
Years before the dispute arose, the Serbian Eastern
Orthodox Diocese for the United States and Canada
and other nonprofit corporations were organized
under the state laws of Illinois, New York, California,
and Pennsylvania to hold title to property. Id. at 70102, 96 S. Ct. at 2377. In the years immediately before
the dispute, the bishop had been the subject of
numerous complaints challenging his fitness to serve
and his administration of the diocese. Id. at 702, 96 S.
Ct. at 2377. He subsequently refused to accept either
his suspension or the reorganization of his diocese on
the basis that they were not done in compliance with

App-109
the Mother Church’s constitution and laws and his
diocese’s constitution. Id. at 704, 96 S. Ct. at 2378.
This ultimately led to his defrocking and his diocese’s
declaration that it was autonomous. Id. at 705-06, 96
S. Ct. at 2379.
Prior to his defrocking, the bishop had sued to
enjoin the Mother Church from interfering with the
assets of the nonprofit corporations and to have
himself declared the true bishop. Id. at 706-07, 96 S.
Ct. at 2379. The Mother Church’s representatives
counterclaimed for a declaration that he had been
removed as bishop and that the diocese was properly
reorganized, and they sought control of the
reorganized dioceses and diocesan property. Id. at 707,
96 S. Ct. at 2379. The Illinois trial court granted
summary judgment for the ex-bishop and dismissed
the Mother Church’s countercomplaints. Id., 96 S. Ct.
at 2379. After the intermediate appellate court
reversed that judgment and remanded the case for a
trial on the merits, the trial court gave each side some
relief. Id. at 707-08, 96 S. Ct. at 2379-80.
In its judgment on remand, the trial court
concluded that no substantial evidence was produced
that fraud, collusion, or arbitrariness existed in any of
the actions or decisions before or during the final
proceedings of the defrocking decision; that the
property held by the corporations was held in trust for
all members of the American-Canadian Diocese; that
the Mother Church exceeded its authority by dividing
the diocese into three new dioceses; and that the new
bishop was validly appointed as temporary
administrator of the whole diocese in place of the
defrocked bishop. Id., 96 S. Ct. at 2379-80.

App-110
The Illinois Supreme Court reversed part of the
trial court’s judgment, holding that the ex-bishop’s
removal and defrocking had to be set aside because the
proceedings resulting in those actions “were
procedurally and substantively defective under the
internal regulations of the Mother Church and were
therefore arbitrary and invalid” when not conducted
according to the court’s interpretation of the Mother
Church’s constitution and penal code, and it purported
to reinstate him. Id. at 698, 708, 96 S. Ct. at 2375,
2380. But it affirmed part of the trial court’s judgment,
agreeing that the diocesan reorganization was invalid
as beyond the Mother Church’s scope of authority to
do so without diocesan approval. Id. at 708, 96 S. Ct.
at 2380.
Thirteen years after the litigation’s inception, the
U.S. Supreme Court reversed the Illinois Supreme
Court’s judgment, holding that the inquiries that the
Illinois court had made “into matters of ecclesiastical
cognizance and polity and [its] actions pursuant
thereto contravened the First and Fourteenth
Amendments.” Id. at 698, 706-07, 96 S. Ct. at 2375,
2379.
Specifically, the Court stated that the “fallacy
fatal to the judgment of the Illinois Supreme Court is
that it rests upon an impermissible rejection of the
decisions of the highest ecclesiastical tribunals of this
hierarchical church upon the issues in dispute” and
that the court had impermissibly substituted its own
inquiry into church polity and the resolutions based
thereon to those disputes. Id. at 708, 96 S. Ct. at 2380.
The state supreme court’s conclusion that the Mother
Church’s decisions were “arbitrary” was based on the

App-111
court’s conclusion that the Mother Church had not
followed its own laws and procedures in arriving at
those decisions. Id. at 712-13, 96 S. Ct. at 2382. But,
as the Court pointed out, there is no “arbitrariness”
exception to the First Amendment. Id. at 713, 96 S. Ct.
at 2382. “[R]ecognition of such an exception would
undermine the general rule that religious
controversies are not the proper subject of civil court
inquiry, and that a civil court must accept the
ecclesiastical decisions of church tribunals as it finds
them.” Id., 96 S. Ct. at 2382.
Because the case’s resolution “essentially
involve[d] not a church property dispute, but a
religious dispute the resolution of which . . . is for
ecclesiastical and not civil tribunals,” the state
supreme court had overstepped its authority. Id. at
709, 717, 721, 96 S. Ct. at 2380, 2384, 2386 (observing
that there was no dispute that questions of church
discipline and the composition of the church hierarchy
were at the core of ecclesiastical concern). The
hierarchical church’s religious bodies made the
decisions to suspend and defrock the bishop, and the
authority to make those decisions was vested solely in
them. Id. at 717-18, 96 S. Ct. at 2384. And as to the
diocesan reorganization, the court had impermissibly
substituted its own interpretations of the diocesan and
Mother Church’s constitutions for that of the highest
ecclesiastical tribunals in which church law vested
authority. Id. at 720-21, 96 S. Ct. at 2386 (noting that
reorganization of the diocese involved a matter of
internal church government, an issue at the core of
ecclesiastical affairs).

App-112
The Court noted in a footnote, “No claim is made
that the ‘formal title’ doctrine by which church
property disputes may be decided in civil courts is to
be applied in this case.” 61 Id. at 723 n.15, 96 S. Ct. at
2387 n.15. The Court observed, “Whether corporate
bylaws or other documents governing the individual
property-holding corporations may affect any desired
disposition of the Diocesan property is a question not
before us.” 62 Id. at 724, 96 S. Ct. at 2387. The Court
nonetheless noted that the Mother Church’s decisions
to defrock the bishop and to reorganize the diocese “in
no way change[d] formal title to all Diocesan property,
which continue[d] to be in the respondent propertyholding corporations in trust for all members of the
reorganized Dioceses; only the identity of the trustees
is altered by the Mother Church’s ecclesiastical
determinations.” See id. at 723 n.15, 96 S. Ct. at 2387
n.15.
Accordingly, Milivojevich instructs us to confine
our analysis to formal title, corporate bylaws, and
other documents prevalent in the management of nonreligious entities rather than to attempt to interpret
internal church government—the core of which
pertains not to business but rather to the mysteries of
The “formal title” doctrine became the neutral principles
approach. See Milivojevich, 426 U.S. at 723 n.15, 96 S. Ct. at 2387
n.15.
61

62 A dissenting justice would have held that the state court’s
jurisdiction had been invoked by both parties with regard to the
church property and claims to diocesan authority, thus entitling
the state court to ask “if the real Bishop of the AmericanCanadian Diocese would please stand up.” 426 U.S. at 725-26, 96
S. Ct. at 2388 (Rehnquist, J., dissenting).

App-113
faith—and to avoid ecclesiastical determinations like
any other proverbial plague.
(e) Jones v. Wolf, 443 U.S.
595, 99 S. Ct. 3020 (1979).
In Jones, the United States Supreme Court
addressed a dispute over the ownership of church
property following a schism in a local church affiliated
with a hierarchical church organization; in particular,
it considered the question of which faction of a
formerly united congregation was entitled to
possession and enjoyment of the disputed property.
443 U.S. at 597, 602, 99 S. Ct. at 3022, 3024. The Court
once more acknowledged that the First Amendment
“prohibits civil courts from resolving church property
disputes on the basis of religious doctrine and
practice.” Id. at 602, 99 S. Ct. at 3025 (citing
Milivojevich, 426 U.S. at 710, 96 S. Ct. at 2381;
Maryland, 396 U.S. at 368, 90 S. Ct. at 500 (Brennan,
J., concurring); Presbyterian Church, 393 U.S. at 449,
89 S. Ct. at 606). That is, a civil court can resolve a
church property dispute “‘so long as it involves no
consideration of doctrinal matters, whether the ritual
and liturgy of worship or the tenets of faith.’” Id., 99 S.
Ct. at 3025 (quoting Maryland, 396 U.S. at 368, 90 S.
Ct. at 500 (Brennan, J., concurring)). It held that the
neutral principles approach was consistent with the
federal constitution when merely looking to the
language of the deeds, the terms of the local church
charters, state statutes, and the provisions of the
constitution of the general church concerning the
ownership and control of church property. Id. at 60203, 99 S. Ct. at 3025.

App-114
The Court approved of this methodology because
before any dispute arises, a religious group could
determine its priorities as to the disposition of church
property and enshrine those priorities under the
applicable civil law, making it easy both on themselves
and the court system:
[t]hrough appropriate reversionary clauses
and trust provisions, religious societies can
specify what is to happen to church property
in the event of a particular contingency, or
what religious body will determine the
ownership in the event of a schism or
doctrinal controversy [and] . . . [i]n this
manner, a religious organization can ensure
that a dispute over the ownership of church
property will be resolved in accord with the
desires of the members.
....
. . . At any time before the dispute erupts, the
parties can ensure, if they so desire, that the
faction loyal to the hierarchical church will
retain the church property. They can modify
the deeds or the corporate charter to include
a right of reversion or trust in favor of the
general
church.
Alternatively,
the
constitution of the general church can be
made to recite an express trust in favor of the
denominational church. The burden involved
in taking such steps will be minimal. And the
civil courts will be bound to give effect to the
result indicated by the parties, provided it is
embodied in some legally cognizable form.
Id. at 603-04, 606, 99 S. Ct. at 3025-26, 3027.

App-115
The Court cautioned that in reviewing church
documents, if the interpretation of instruments of
ownership would require a civil court to resolve a
religious controversy, then the court would have to
defer to the resolution of the doctrinal issue by the
authoritative ecclesiastical body. Id. at 604, 99 S. Ct.
at 3026.
In addressing which faction was entitled to
control local church property, the Court identified as a
fact question for remand whether Georgia had
adopted a presumptive rule of majority representation
with regard to a voluntary religious association’s
being represented by the majority of its members or
whether the corporate charter or constitution of the
general church set out how the identity of the local
church was to be established if not by majority rule.
Id. at 607-08, 99 S. Ct. at 3027-28 (observing that
majority rule is generally employed in the governance
of religious societies and that a majority faction
generally can be identified without resolving any
question of religious doctrine or polity). The Court
observed that if state law provided for the identity of
the church to be determined according to the general
hierarchical church’s “laws and regulations,” then the
First Amendment would require the civil courts to give
deference to the church’s determination of the local
church’s identity. Id. at 609, 99 S. Ct. at 3028. The
implicit corollary of this statement would be that if
state law did not provide for the church’s identity to be
determined by the general hierarchical church’s laws

App-116
and regulations, then the court would need to examine
everything else to identify the property’s owners. 63
Accordingly, Jones instructs us that we must
perform a non-religious-doctrine-related review,
within the context of our state law, of the language of
the deeds and the provisions dealing with ownership
and control of property contained within the local and
general churches’ governing documents—i.e., the
plain language to ascertain the parties’ intent—but
that if we attempt to divine ownership from the
church’s ritual and liturgy of worship or the tenets of
its faith, or if interpreting the parties’ documents
would require us to resolve a faith-based controversy,
then we veer into constitutionally-prohibited territory.

The parties have brought no such state statute to our
attention—and we have found none—that would allow us to so
facilely dispose of this appeal. Cf. Calvin Massey, Church
Schisms, Church Property & Civil Authority, 84 St. John’s L. Rev.
23, 34 (2010) (“Virginia has adopted a statute directing courts
how to decide church property disputes when churches divide
into contending factions.” (citing Va. Code Ann. § 57-9)). On
remand from the U.S. Supreme Court, the state court in Jones
held that while the state’s rebuttable presumption of majority
rule could be overcome by reliance on neutral statutes, corporate
charters, relevant deeds, and the organizational constitutions of
the denomination, none of these sources in that case disclosed a
provision that would rebut the majority-rule presumption. Jones
v. Wolf, 260 S.E.2d 84, 84-85 (Ga. 1979), cert. denied, 444 U.S.
1080 (1980).
63

App-117
(f) Hosanna-Tabor
Evangelical
Lutheran
Church & School v.
E.E.O.C., 565 U.S. 171, 132
S. Ct. 694 (2012).
In Hosanna-Tabor, the Court recently addressed
a related ecclesiastical matter, reviewing whether the
Establishment and Free Exercise Clauses of the First
Amendment bar an employment discrimination
lawsuit when the employer is a religious group and the
employee is one of the group’s ministers. 565 U.S. at
176-77, 132 S. Ct. at 699. Cheryl Perich went from an
elementary school “lay” (also known as “contract”)
teacher to a “called” (also known as “Minister of
Religion, Commissioned”) teacher—both positions of
which generally performed the same duties—at a
religious school. Id. at 177-78, 132 S. Ct. at 699-700.
Following an employment dispute, Perich’s employer’s
congregation voted to rescind her “call,” and her
employment was terminated. Id. at 178-79, 132 S. Ct.
at 700. After reviewing Kedroff and Milivojevich,
among others, the Court reaffirmed that it is
impermissible for the government to contradict a
church’s determination of who can act as its ministers
and recognized the “ministerial exception” as to the
employment relationship between a religious
institution and its ministers. Id. at 185-88, 132 S. Ct.
at 704-06 (reasoning that to require a church to accept
or retain an unwanted minister, or to punish a church
for failing to do so, intrudes not upon a mere
employment decision but rather interferes with the
church’s internal governance and infringes upon the
religious group’s right to shape its own faith and

App-118
mission through its appointments). 64 But see
McConnell & Goodrich, 58 Ariz. L. Rev. at 336
(explaining that in contrast to the ministerial
exception set out in Hosanna-Tabor, church property
cases present a conflict between two church entities
through which state trust and property law is used to
discern the church’s original decision and to give legal
effect to that decision, not a conflict between civil law
and internal church rules).

In Hosanna-Tabor, the Court concluded that the ministerial
exception applied to Perich based on the circumstances of her
employment: her ministerial title in becoming a “called” teacher
reflected the six years of religious education that she had pursued
to obtain the designation; her election by the congregation,
“which recognized God’s call to her to teach”; Perich’s having
claimed a religious exemption’s housing allowance on her taxes;
and Perich’s having taught religion four days a week and led her
students in prayer three times a day, performing “an important
role in transmitting the Lutheran faith to the next generation.”
565 U.S. at 190-92, 132 S. Ct. at 707-08. Accordingly, the Court
held that because Perich was a minister under the exception, the
First Amendment required dismissal of her employment
discrimination suit against her religious employer. Id. at 194-95,
132 S. Ct. at 709 (observing that the exception ensures “that the
authority to select and control who will minister to the faithful—
a matter ‘strictly ecclesiastical’—is the church’s alone”).
64

App-119
(2) Supreme
Cases

Court

of

Texas

(a) Masterson v. Diocese of
Northwest Texas, 422
S.W.3d 594 (Tex. 2013),
cert. denied, 135 S. Ct. 435
(2014).
As instructed by our supreme court in Episcopal
Diocese, we also look to Masterson. See Episcopal
Diocese, 422 S.W.3d at 653. In Masterson, the court
addressed what happens to property when a majority
of the membership of a local church—rather than an
entire diocese—votes to withdraw from the larger
religious bodies of which it has previously been a
part—specifically, TEC and the Episcopal Diocese of
Northwest Texas. 422 S.W.3d at 596. As in the case
before us, legal title to the local church’s property was
held by a Texas nonprofit corporation. Id. A doctrinal
dispute with TEC led a majority of the local church’s
members to vote to amend the corporation’s articles of
incorporation and bylaws to revoke any trusts in favor
of TEC or the diocese that were on the property. Id. at
596, 598. Predictably, a lawsuit over the property’s
possession and use followed. Id.
The court traced the parties’ background, starting
in 1961 when individuals bought some of the land at
issue and donated it to the Northwest Texas Episcopal
Board of Trustees for establishment of a mission
church. Id. at 597. Four years later, a group of
worshippers filed an application with the diocese to
organize a mission, which the diocese approved. Id.
TEC made loans and grants to the church to assist its
growth. Id. More individuals bought more land and

App-120
donated it to the church’s board of trustees, and in
1974, the church applied for parish status with the
diocese and received it. Id. The diocesan canons
required that parishes be corporations, 65 so the church
incorporated under Texas law. Id. All of the property
was conveyed to the corporation; none of the deeds to
the corporation provided for or referenced a trust in
favor of TEC or the diocese. Id.
The corporation’s bylaws provided that it would
be managed by a vestry elected by members of the
parish and that those elected members “shall hold
office in accordance with the Church Canons.” Id. at
597 & n.1. The bylaws also described the qualifications
for voting at parish meetings—being a communicant
of the parish as shown on the parish register, at least
sixteen years old, baptized, and a regular contributor
according to the treasurer’s records—and specified
that amendments to the bylaws would be by majority
vote at an annual parish meeting or at a special
meeting called for that purpose by a majority vote of
the duly qualified voters of the parish. Id. at 597 &
nn.2-3.
Pursuant to the bylaws, the parish held a called
meeting in November 2006, seeking—among other
things—to amend the corporate bylaws to remove all
references to TEC and the diocese and to revoke any
trusts that may have been imposed on any of the
corporation’s property by TEC, the diocese, or the
original trustees. Id. at 598. After the resolutions
passed by majority vote, amended articles of
65 In contrast, here, under EDFW’s canons, parishes and
missions may form a corporation as an adjunct or instrument but
may not incorporate themselves.

App-121
incorporation changing the corporate name from “The
Episcopal Church of the Good Shepherd” to the
“Anglican Church of the Good Shepherd” were filed.
Id. In conjunction with these acts, the majority of the
church’s members withdrew from the diocese and TEC
and retained possession of the parish property. Id.
Like the first round of the case before us, in the
ensuing litigation between the church’s withdrawing
faction and the faction that remained loyal to TEC and
to the diocese, the parties’ focus was on deference
rather than the application of neutral principles. Id.
at 599. The trial court and the intermediate appellate
court both relied on deference to identify the
continuing parish and the proper custodians of the
church’s property. Id. After reviewing both its own and
U.S. Supreme Court precedent, our supreme court
acknowledged the “neutral principles” methodology as
the sole applicable methodology, requiring courts to
decide non-ecclesiastical issues such as property
ownership based on the same neutral principles of law
applicable to other entities while deferring to religious
entities’ decisions on ecclesiastical and church polity
issues. Id. at 596, 601-07.
The supreme court concluded that TEC is a
hierarchical organization. Id. at 608. But the court
clarified that the question of identifying who owns the
property is not necessarily inextricably linked to or
determined by ecclesiastical matters, explaining that
[t]here is a difference between (1) the Bishop’s
determining which worshipers are loyal to
the Diocese and TEC, whether those
worshipers constituted a parish, and whether
a parish properly established a vestry, and

App-122
(2) whether the corporation’s bylaws were
complied with when the vote occurred to
disassociate the corporation from the Diocese
and TEC.
Id. That is, the corporation, with its secular existence
derived from state law and its articles of incorporation
and bylaws, is subject to a neutral principles
determination. Id. Accordingly, the court reversed the
judgment of the court of appeals and remanded the
case to the trial court to apply the neutral principles
methodology. Id.
The court noted that the trial court lacked
jurisdiction over whether the diocese’s bishop was
authorized to form a new parish and recognize its
membership and whether he could or did authorize
that parish to establish a vestry or recognize members
of the vestry because these items were ecclesiastical
matters of church governance, questions upon which
the trial court properly deferred to the bishop’s
exercise of ecclesiastical authority. Id.
The court also took the opportunity, in the
interest of judicial economy, to address issues likely to
be raised on remand in the trial court, some of which
apply directly to the case now before us and are
summarized as follows:
•

Absent specific, lawful provisions in a corporation’s
articles of incorporation or bylaws otherwise,
whether and how a corporation’s directors or those
entitled to control its affairs can change its articles
of incorporation and bylaws are secular, not
ecclesiastical matters, and an external entity—
under the former or current statutory scheme—is
not empowered to amend them absent specific,

App-123

•

•

•

lawful provision in the corporate documents. Id. at
609-10 (citing Tex. Bus. Orgs. Code § 3.009; Tex.
Rev. Civ. Stat. Ann. art. 1396-2.09).
The TEC-affiliated bishop could, as an
ecclesiastical matter, determine which faction of
believers was recognized by and was the “true”
church loyal to the Diocese and TEC, and courts
must defer to such ecclesiastical decisions, but his
decision identifying the loyal faction as the
continuing parish does not necessarily determine
the property ownership issue, and his decisions on
secular legal questions such as the validity of the
parish members’ vote to amend the bylaws and
articles of incorporation are not entitled to
deference. Id. at 610.
If the title to the real property is in the
corporation’s name and the language of the deeds
does not provide for an express trust in favor of
TEC or the Diocese, then the corporation owns the
property. Id.
As to the Dennis Canon’s terms, which provide in
part that “all real and personal property held by or
for the benefit of any Parish, Mission or
Congregation is held in trust for TEC,”—assuming,
without deciding, that the Dennis Canon
attempted to impose a trust on the nonprofit
corporation’s property and limited the nonprofit
corporation’s authority over the property—these
terms do not make a trust expressly irrevocable
under Texas law. Id. at 613. To the contrary,
“[e]ven if the Canon could be read to imply the trust
was irrevocable, that is not good enough under
Texas law. The Texas statute requires express
terms making it irrevocable.” Id.

App-124
(b) Brown v. Clark, 116 S.W.
360 (Tex. 1909).
In Brown, the 1909 case upon which the supreme
court relied to resolve the initial methodology issue in
Masterson and Episcopal Diocese, the supreme court
was faced with a task similar to the one before us: two
groups litigated over property deeded “by different
persons at different times to trustees for the
Cumberland Presbyterian Church at Jefferson, Tex.”
116 S.W. at 361. One group claimed to constitute “the
church session of the Cumberland Presbyterian
Church at the city of Jefferson, Tex.,” while the other
claimed to be “the church session of the Presbyterian
Church in the United States of America at Jefferson,
Tex.” Id.
At the time, nationally, the Cumberland
Presbyterian Church and the Presbyterian Church of
the United States of America (PCUSA) had overcome
their differences and reunited. Id. The members of the
Jefferson church held differences of opinion “upon the
subject of reunion,” and those who opposed the
reunion sued those who claimed that the reunion had
transferred the property to PCUSA. Id. at 362. Upon
the conclusion of a bench trial, the trial court agreed
with the PCUSA faction; the intermediate appellate
court disagreed and reversed the trial court’s
judgment. Id.
The supreme court declined to address the
argument that the national churches could not reunite
because the highest court of the church—to which the
decision of doctrine and the modification of the
confession of faith were directed—had exclusive
jurisdiction over that question. Id. at 363-64. Instead,

App-125
the only question that the supreme court had
jurisdiction to address was the effect the reunion had
on the property when the deed’s plain language was
made “to the trustees of the Cumberland Presbyterian
Church at Jefferson, Tex.” 66 Id. at 364.
The supreme court concluded that the church to
which the deed was made still owned the property and
that “whatever body is identified as being the church
to which the deed was made must still hold the title.”
Id. at 364-65. In reaching the conclusion that the
property resided with the PCUSA faction, the court
traced the identity from the Cumberland-PCUSA
reunion, stating,
The Cumberland Presbyterian Church at
Jefferson was but a member of and under the
control of the larger and more important
Christian organization, known as the
Cumberland Presbyterian Church, and the
local church was bound by the orders and
judgments of the courts of the church. The
Jefferson church was not disorganized by the
act of union. It remained intact as a church,
losing nothing but the word “Cumberland”
from its name. Being a part of the
Cumberland Presbyterian Church, the
church at Jefferson was by the union
incorporated into the Presbyterian Church of
the United States of America. . . . those
members who recognize the authority of the
Presbyterian Church of the United States of
66 The property had been paid for by the local church “in the
ordinary way of business.” Brown, 116 S.W. at 364.

App-126
America are entitled to the possession and
use of the property sued for.
Id. at 365. The supreme court affirmed the trial court’s
judgment. Id.
(c) Westbrook v. Penley, 231
S.W.3d 389 (Tex. 2007).

Our supreme court has previously acknowledged
that when a church dispute involves property or a
contract and is purely secular, we have jurisdiction to
consider it. See Westbrook, 231 S.W.3d at 398-99.
Westbrook involved a tort action that arose from an act
of church discipline (shunning) resulting from
counseling performed by the church’s pastor. Id. at
391.
The court first observed that the First
Amendment prohibits governmental action, including
court action, that would burden the free exercise of
religion by encroaching on a church’s ability to
manage its internal affairs, presenting a question of
subject matter jurisdiction reviewed sua sponte and de
novo. Id. at 394 & n.3, 395 (“[T]he majority of courts
broadly conceptualize the prohibition as a subjectmatter bar to jurisdiction.”); see M.O. Dental Lab v.
Rape, 139 S.W.3d 671, 673 (Tex. 2004) (“[W]e are
obligated to review sua sponte issues affecting
jurisdiction.”). To gauge the constitutional validity of
a particular civil action, a court must identify the
nature of the constitutional and other interests at
stake. Westbrook, 231 S.W.3d at 396; see David J.
Young & Steven W. Tigges, Into the Religious ThicketConstitutional Limits on Civil Court Jurisdiction over
Ecclesiastical Disputes, 47 Ohio St. L.J. 475, 499
(1986) (describing some steps to take in analyzing

App-127
intrachurch litigation). “In determining whether
subject matter jurisdiction exists, courts must look to
the ‘substance and effect of a plaintiff’s complaint to
determine its ecclesiastical implication, not its
emblemata.’” Westbrook, 231 S.W.3d at 405 (quoting
Tran v. Fiorenza, 934 S.W.2d 740, 743 (Tex. App.—
Houston [1st Dist.] 1996, no writ). The difficulty comes
in determining whether a particular dispute is
“ecclesiastical” or simply a civil law controversy in
which church officials happen to be involved. Tran,
934 S.W.2d at 743 (holding that whether priest had
been excommunicated—divesting him of his priestly
authority—was unavoidably an ecclesiastical matter
even if the truth of that fact would bar his defamation
claim).
“‘Membership in a church creates a different
relationship from that which exists in other voluntary
societies formed for business, social, literary, or
charitable purposes.’” Westbrook, 231 S.W.3d at 398
(quoting Minton v. Leavell, 297 S.W. 615, 622 (Tex.
Civ. App.—Galveston 1927, writ ref’d)). Because a
church’s autonomy in managing its affairs has long
been afforded broad constitutional protections, the
court must ask whether its decision of the issues
would “unconstitutionally impede the church’s
authority to manage its own affairs.” Id. at 397.
Ultimately, in Westbrook, the court concluded
that subjecting the church’s pastor to tort liability for
professional negligence as a counselor for engaging
the church’s disciplinary process once facts were
revealed that triggered such discipline would have a
“chilling effect” on the church’s ability to discipline
members and deprive churches of their right to

App-128
construe and administer church laws. Id. at 400. The
court reasoned that
while the elements of Penley’s professionalnegligence claim can be defined by neutral
principles without regard to religion, the
application of those principles to impose civil
tort liability on Westbrook would impinge
upon [the church’s] ability to manage its
internal affairs and hinder adherence to the
church disciplinary process that its
constitution requires.
Id. The secular confidentiality interest represented by
Penley’s professional-negligence claim failed to
override the strong constitutional presumption that
favors preserving the church’s interest in managing
its affairs, particularly when the pastor’s actions did
nothing to endanger Penley’s or the public’s health or
safety. Id. at 402, 404. The values underlying the
constitutional interest in prohibiting judicial
encroachment upon a church’s ability to manage its
affairs and discipline its members, who have
voluntarily united themselves to the church body and
impliedly consented to be bound by its standards,
must be zealously protected, and when presented with
conflicting interests like those presented in Westbrook,
generally “a ‘spirit of freedom for religious
organizations’ prevails, even if that freedom comes at
the expense of other interests of high social
importance.” Id. at 403 (internal citations omitted).
Accordingly, after liberally construing Penley’s
pleadings, the court held that the trial court properly
dismissed the case on Westbrook’s plea to the
jurisdiction. Id. at 405.

App-129
(3) Intermediate Appellate Court
Cases
This court’s cases involving churches have run the
gamut, from the relationship between a church and its
ministers, which we recognized as of “prime
ecclesiastical concern,” to whether a church
incorporated under the nonprofit corporations act
gave proper notice of a business meeting. Compare
Smith v. N. Tex. Dist. Council of Assemblies of God &
House of Grace, No. 02-05-00425-CV, 2006 WL
3438077, at *3 (Tex. App.—Fort Worth Nov. 30, 2006,
no pet.) (mem. op.) (affirming dismissal for want of
jurisdiction when appellants sued for declaration that
church’s district council did not follow church
constitution, bylaws, and rules of procedure and for a
division
of
church’s
assets
between
two
congregations), Dean v. Alford, 994 S.W.2d 392, 395
(Tex. App.—Fort Worth 1999, no pet.) (holding that
the vote on a pastor’s removal in a congregational
church involved a purely ecclesiastical, administrative
matter), and Patterson v. Sw. Baptist Theological
Seminary, 858 S.W.2d 602, 603-04 (Tex. App.—Fort
Worth 1993, no writ) (affirming dismissal in wrongful
termination suit because case essentially involved a
religious dispute, the “key inquiry under the First
Amendment [being] whether a religious organization
is making an ecclesiastical decision”), with Kelly v.
Church of God In Christ, Inc., No. 02-10-00047-CV,
2011 WL 1833095, at *13 n.18 (Tex. App.—Fort Worth
May 12, 2011, pet. denied) (mem. op.) (avoiding issue
of whether negligence claims were barred by First
Amendment by concluding that the trial court
properly granted summary judgment on the
negligence claims), and Randolph v. Montgomery,

App-130
No. 02-06-00087-CV, 2007 WL 439026, at *1-2 (Tex.
App.—Fort Worth Feb. 8, 2007, no pet.) (mem. op.)
(holding no intrusion into ecclesiastical matters when
issue was whether proper notice of business meeting
was given by church incorporated under nonprofit
corporations act and trial court merely had to apply
statute’s plain language and apply neutral principles
of law). Yet, to the extent the application of neutral
principles requires discussion and analysis, the issues
now before us appear to be of first impression. Cf.
Smith, 2006 WL 3438077, at *3.67 This is not so with
some of our sister courts.
Smith involved an intracongregational dispute that arose
after some church members unsuccessfully sought a division of
church assets. 2006 WL3438077, at *1. One of the complaints
raised in the ensuing litigation was that the church constitution,
bylaws, and rules of procedure had not been followed. Id. at *2.
We agreed that the trial court correctly dismissed the case for
want of jurisdiction when the plaintiffs’ claims asked the trial
court to determine matters involving clergy, church discipline,
and ecclesiastical governance. Id. We noted that the difficulty—
as here—lies in determining whether a particular dispute is
ecclesiastical or simply a civil law controversy in which church
officials happen to be involved. Id. at *3. We held that “[m]atters
involving the interpretation of church bylaws and constitutions,
the relationship between an organized church and its minister,
and the division of church assets are all ecclesiastical concerns.”
Id. (citing Milivojevich, 426 U.S. at 708-09, 724-25, 96 S. Ct. at
2380, 2387-88). However, per the supreme court’s instructions in
Episcopal Diocese and Masterson, we are required to consider the
division of church assets insofar as we can determine ownership
through the application of neutral principles and are required in
that analysis to consider church bylaws and constitutions. See
Episcopal Diocese, 422 S.W.3d at 651-52; see also Masterson, 422
S.W.3d at 606 (observing that many disputes “will require courts
to analyze church documents and organizational structures to
some degree”).
67

App-131
For example, the Amarillo court discussed the
issue in African Methodist Episcopal Church, Allen
Chapel v. Independent African Methodist Episcopal
Church (AMEC), within the context of what the case
was not: “[T]his is not one of those suits where the local
congregation becomes divided and each division
claims to have the right to the property to the
exclusion of the other members.” 281 S.W.2d 758, 759
(Tex. Civ. App.—Amarillo 1955, writ ref’d n.r.e.)
(emphasis added). In AMEC, all of the property was
bought and paid for by the local church, the deed was
made out to the trustees of the African Methodist
Church of Vernon and not to the mother church, and
the entire membership of the local church—including
the pastor—quit the mother church. Id. at 759-60.
When all of the members withdrew from the mother
church, dissolved the local church, and organized
under the name of Independent AMEC of Vernon,
Texas, because the trustees held the property in trust
for the benefit of those who had bought and paid for it,
the court concluded that the property belonged to the
local church. Id. at 760. Part of the rationale, however,
was that this case preceded the ability of
unincorporated nonprofit associations to hold property
in any form other than under trustees. See id.; cf. Tex.
Bus. Orgs. Code Ann. § 252.003 (West 2012)
(providing that nonprofit associations may acquire,
hold, encumber, and transfer real and personal
property in this state).
The Texarkana court discussed the issue before us
in Presbytery of the Covenant v. First Presbyterian
Church of Paris, Inc., 552 S.W.2d 865 (Tex. Civ.
App.—Texarkana 1977, no writ). In that case, the
majority of the members of the First Presbyterian

App-132
Church of Paris sought to withdraw from the national
church, PCUSA, and to affiliate with another group.
Id. at 867. The Presbytery of the Covenant—one of
PCUSA’s governing layers—sought to prevent the
withdrawing faction from taking possession of and
asserting ownership to the church property, and the
withdrawing faction sued the Presbytery and others to
try title. Id. After a jury trial, the trial court rendered
judgment for the withdrawing faction. Id. The
appellate court reversed the trial court’s judgment. Id.
at 872.
On appeal, the court determined that prior to
June 17, 1973—the date of the attempted
withdrawal—there was only one First Presbyterian
Church of Paris, which was affiliated with PCUSA and
which had acquired all of the real property involved at
a time when there was no disagreement over the
church property. Id. at 867-69. Each of the deeds
named as grantee either First Presbyterian Church of
Paris U.S. or the corporation First Presbyterian
Church U.S. of Paris, Inc., which was chartered in
Texas in 1966 to hold property for the First
Presbyterian Church of Paris U.S. Id. at 869. On
February 13, 1973, the Presbytery established an
administrative commission in anticipation that some
of the local congregations might attempt to withdraw
from PCUSA and a pastoral letter required written
notices prior to calling a congregational meeting to
consider a proposal to withdraw. Id. The required
written notices were not given; rather, on June 10,
1973, oral notice was given from the pulpit of the
congregational meeting to be held on June 17 to
consider a resolution to withdraw from PCUSA. Id.

App-133
At the June 17, 1973 meeting, 101 of the 149
members on the church’s active roll attended the
meeting and voted for the withdrawal. Id. The
Presbytery turned the matter over to the
administrative commission, which began a process
that resulted in the formal suspension and divestiture
of the local church’s leadership, and in July 1973, the
commission declared that the action taken to
withdraw was null and void. Id. at 869-70. The
withdrawing faction transferred the real property and
assets owned by the First Presbyterian Church of
Paris U.S. to a corporation that they attempted to
create by way of an amendment to the charter of the
First Presbyterian Church U.S. of Paris, Inc., and they
affiliated with a schismatic organization, the
Vanguard Presbytery of the Continuing Presbyterian
Church. Id. at 870. Of the 149 members, 30 signed
statements of loyalty and desire to remain in the
PCUSA-recognized church, and on September 13,
1973, the administrative commission recognized them
as constituting the First Presbyterian Church of Paris
U.S. Id.
The Texarkana court first identified the two
general types of religious organizations recognized in
the law: (1) congregational, which is strictly
independent of any other ecclesiastical association
and owes no fealty or obligation to any higher
authority, and (2) hierarchical, in which the local
congregation is but a subordinate member of some
general church organization in which there are
superior ecclesiastical tribunals with general and
ultimate power of control more or less complete in
some supreme judicatory over the whole membership
of that general organization. Id. PCUSA—like TEC—

App-134
is recognized as a hierarchical church, “at least as to
ecclesiastical matters and church government.” Id.
The Texarkana court acknowledged that civil
courts’ power to resolve disputes relating to church
property was restricted to an adjudication of property
rights by the application of neutral principles of law
developed for use in all property disputes and that
when a hierarchical organization is involved, the
decisions of the highest church judicatory to which the
question has been taken, as to questions of church
discipline or government, are—so far as they are
relevant—final and binding on the civil courts, subject
only to narrow review if found to have resulted from
fraud or collusion. Id. at 870-71. With regard to the
issue before it, the Texarkana court recited that
[w]hen a division occurs in a local church
affiliated with a hierarchical religious body,
and a dispute arises between rival groups as
to the ownership or control of the local church
property, the fundamental question as to
which faction is entitled to the property is
answered by determining which of the
factions is the representative and successor to
the church as it existed prior to the division,
and that is determined by which of the two
factions adheres to or is sanctioned by the
appropriate
governing
body
of
the
organization. It is a simple question of
identity. In making such a determination, the
civil court exercises no role in determining
ecclesiastical questions. It merely settles a
dispute as to identity, which in turn
necessarily settles a dispute involving

App-135
property rights. In doing so, the court applies
neutral principles of law . . . .
Id. at 871 (citations omitted) (emphasis added).
Accordingly, the court reasoned that prior to June
17, 1973, the First Presbyterian Church of Paris U.S.
and all of its members were part of PCUSA’s
organization, and there was no question that members
dissatisfied with PCUSA’s actions could withdraw
their membership from the First Presbyterian Church
of Paris U.S. and thus their affiliation with PCUSA.
Id. But by their unilateral action, the withdrawing
members could not dissolve the local church that was
an integral part of PCUSA when the PCUSA
constitution expressly vested in the presbytery the
power to dissolve a local church. Id. When the local
church was not dissolved and still existed after June
17, it became the prerogative of PCUSA’s governing
judicatories to determine who constituted the lawful
congregation of the First Presbyterian Church of Paris
U.S. Id. Because the loyal faction had submitted itself
to PCUSA’s judicatories and had been recognized as
such as the duly existing local congregation, they had
“the identity to make of them the First Presbyterian
Church of Paris U.S., and they are entitled to
possession and control of the property conveyed to that
church.” Id.
Specifically, despite the vote by the majority to
withdraw from PCUSA, the members of a church
organization “which is hierarchical as to church
government cannot dissolve a local church in
contravention of the governing rules or edicts of the
mother church, and then re-establish themselves as
an independent church or one associated with a

App-136
schismatic group and take the church property with
them.” Id. at 871-72. The church existed prior to the
schism, still existed, and was composed of those
members who remained loyal to PCUSA and who had
been recognized by the governing judicatories as the
local church. Id. at 872. The question of the church’s
right to withdraw from PCUSA without the consent of
the Presbytery was one of church government
determined adversely to the withdrawing faction by
the appropriate church tribunals. Id.; see also Green,
808 S.W.2d at 548-49, 552 (relying on Presbytery of the
Covenant to affirm trial court’s judgment awarding
possession of church property to loyalist group
affiliated
with
United
Pentecostal
Church
International, Inc., a hierarchical church, which had
adopted UPCI’s bylaws for local church government
prior to the dispute over property ownership). But see
Masterson, 422 S.W.3d at 605 & n.5 (listing Presbytery
of the Covenant as one of the court of appeals cases
reading Brown as applying a deference approach and
applying deference principles to hierarchical church
property dispute cases); Schismatic & Purported Casa
Linda Presbyterian Church in Am. v. Grace Union
Presbytery, Inc., 710 S.W.2d 700, 705 (Tex. App.—
Dallas 1986, writ ref’d n.r.e.) (stating that although
the Texarkana court purported to apply neutral
principles in Presbytery of the Covenant, “the court in
fact applied the deference rule in reaching its
decision”), 68 cert. denied, 484 U.S. 823 (1987).
68 Constitutionally speaking, the court in Presbytery of the
Covenant did not have a choice about applying deference in that
case. Deed construction was not an issue because each of the
deeds named either First Presbyterian Church of Paris U.S. or

App-137
Because the foregoing cases involved facts, legal
principles, and analysis similar to those facing us
here, they provide guidance to us in conducting our
analysis.
(4) Other States’ Cases
Because other courts have previously faced
strikingly similar facts, we also examine these cases
to determine how those situations have been resolved.
(a) Diocese of San Joaquin
The annual convention of the Diocese of San
Joaquin voted to leave TEC and affiliate with the
Anglican Province of the Southern Cone in December
2007. Diocese of San Joaquin, 202 Cal. Rptr. 3d at 57.
In January 2008, TEC disciplined then-Bishop JohnDavid Schofield, and Presiding Bishop Schori ordered
him to stop all “episcopal, ministerial, and canonical
acts, except as relate to the administration of the
temporal affairs of the Diocese of San Joaquin.” Id.
Approximately a week later, Schofield filed with the
California Secretary of State an amendment to the
articles of incorporation of the corporation sole 69 to

the First Presbyterian Church of Paris U.S., Inc. as grantee. 552
S.W.2d at 869. Instead, the primary questions before the court
were (1) whether PCUSA was hierarchical or congregational as
to property and (2) who was the “First Presbyterian Church of
Paris U.S.”? Id. at 868, 870-72. The court’s answer to the first
question—PCUSA was hierarchical—determined the answer to
the second. Id. at 870-72; see Brown, 116 S.W. at 364-65 (holding
that the church that recognized the authority of PCUSA was
“identified as being the church to which the deed was made”).
69 Under California law, a corporation sole is a perpetual entity
through which a religious organization can administer and

App-138
change its name from “The Protestant Episcopal
Bishop of San Joaquin” to “The Anglican Bishop of San
Joaquin.” Id. He represented in the document that the
amendment had been duly authorized by the diocese,
whose consent by annual convention was required;
however, the annual convention had neither
considered nor authorized any such amendment. Id. at
56-57.
Presiding Bishop Schori issued Schofield’s
deposition on March 12, 2008, terminating and
vacating his ecclesiastical and related secular offices.
Id. at 57-58. Nonetheless, on March 27, 2008,
Schofield began retitling twenty-seven pieces of real
property, first granting them to “The Anglican Bishop
of San Joaquin, a Corporate Sole,” and then
transferring them to the “Anglican Diocese Holding
Corporation,” which he had formed to perform the
same function as the corporation sole and to protect
the property from the provisional bishop elected by the
minority of parishes and members who had not
seceded from TEC. Id. at 58. In its lawsuit, TEC and
its affiliated diocese sought to reclaim possession of
property, among other things. Id. California’s
intermediate appellate court concluded that the
dispute regarding the identity of the incumbent
“Episcopal Bishop of the Diocese of San Joaquin” was
“quintessentially ecclesiastical,” as was the continuity
of the diocese as an entity within TEC. Id. at 58-59.
On remand, it instructed the trial court to apply

manage property dedicated to the benefit of that organization.
Diocese of San Joaquin, 202 Cal. Rptr. 3d at 56 n.1.

App-139
neutral principles of law to resolve the property
disputes on the remaining causes of action. Id. at 59.
At trial, the parties stipulated that all of the dates
of Schofield’s transfer of the property had occurred
after he had been removed as TEC’s bishop. Id.
Accordingly, the trial court concluded that the
property transfers were void either because the
property was held in trust for TEC or because
Schofield lacked the authority to make the transfers.
Id. at 59-60.
On appeal, the court noted that deciding whether
a diocese can leave TEC does not resolve the property
dispute; rather, sources such as deeds, bylaws, articles
of incorporation, and relevant statutes must be
considered under the neutral principles analysis. Id.
at 63-64. The court also observed that the trial court
erred in its trust finding because the Dennis Canon
imposed by its terms an express trust in favor of TEC
on property held by a parish, not by a diocese. Id. at
64. It refused to imply a trust on church property
because that
almost inevitably puts the civil courts
squarely in the midst of ecclesiastical
controversies, in that every dispute over
church doctrine that produces strongly held
majority and minority views forces the court
to determine the true implied beneficiaries of
the church entities involved. The court would
be required to determine which faction
continued to adhere to the “true” faith. This
is something a civil court is not permitted to
do. “If the civil courts cannot properly
determine which competing group is the

App-140
bearer of the true faith, they cannot
determine for whose benefit title to church
property is impliedly held in trust.”
Id. (quoting Barker, 171 Cal. Rptr. at 551).
The court looked at how title to the property was
held and the structure of the corporation sole when
Schofield attempted to make the transfers. Id. The
validity of the 2007 amendments to the diocesan
constitution and canons were not determinative
because the corporation sole, not the diocese, held title
to the property. Id. Because TEC had ordered
Schofield to continue administering the diocese’s
temporal affairs in the January 11, 2008 order, he
remained the chief officer of the corporation sole until
he was deposed on March 12, 2008. Id. at 65. However,
his attempted amendment was not authorized at the
2007 diocesan convention as required to be valid under
California law. Id. at 65. And the diocesan convention
did not attempt to ratify the action of the diocesan
council in trying to amend the canon requiring title of
the corporation sole to be “The Protestant Episcopal
Bishop of San Joaquin” until October 2008. Id. at 6566. Thus, under the terms of the diocese’s canons, the
amendment was invalid. Id. at 66.
Consequently, Schofield’s January 22, 2008
attempt to amend the articles of incorporation was
invalid and of no effect. Id. And because that
amendment was invalid, his attempt to transfer
property from the corporation sole known as “The
Protestant Episcopal Bishop of San Joaquin” to “The
Anglican Bishop of San Joaquin, a Corporation Sole”
also failed, because no such entity existed when he
executed and recorded those deeds between March

App-141
and August 2008. Id. Likewise, Schofield’s attempt to
transfer the disputed property from “The Anglican
Bishop of San Joaquin, a Corporation Sole” to “The
Anglican Diocese Holding Corporation” also failed,
and title therefore remained with the Protestant
Episcopal Bishop of San Joaquin. Id. at 66-67. The
court affirmed the judgment returning the property to
TEC and the TEC-affiliated diocese. Id. at 67.
(b) Diocese of Quincy
The Diocese of Quincy voted to end its association
with TEC and entered into membership with the
Anglican Church of the Southern Cone in November
2008. Diocese of Quincy, 2014 IL App (4th) 130901,
¶¶ 1, 9, 14 N.E.3d at 1249-50. The dissenters formed
the “Diocese of Quincy of the Episcopal Church,” and
they and TEC (collectively, the TEC dissenters)
informed the bank holding approximately $3 million
in church assets that a dispute had arisen over the
funds’ ownership. Id. ¶ 1, 14 N.E.3d at 1249. After the
bank froze the assets, all parties sought a declaratory
judgment on the assets’ ownership. Id. ¶ 2, 14 N.E.3d
at 1249. After a three-week bench trial, the trial court,
applying neutral principles of law, found against the
TEC dissenters and issued twenty-one pages of
findings with its order. Id. ¶¶ 2, 19, 27, 14 N.E.3d at
1249, 1252-53.
In affirming the trial court’s judgment, the court
recounted that in 1893, the diocese had formed a state
nonprofit corporation called “The Trustees of Funds
and Property of the Diocese of Quincy” (hereafter,
Corporation #1) to hold, manage, and distribute the
diocese’s funds. Id. ¶ 6, 14 N.E.3d at 1249-50. TEC
was not a party to the 1999 contract between the bank

App-142
and Corporation #1. Id. ¶ 7, 14 N.E.3d at 1250. Then
in 2005, the diocese incorporated as a state nonprofit
corporation called the Diocese of Quincy (hereafter,
Corporation #2). Id. ¶ 8, 14 N.E.3d at 1250.
Corporation #2’s directors were members of the
diocese, and in March 2009, Corporation #2 filed its
annual corporate report with the state, listing its
directors. Id. ¶¶ 8, 10, 14 N.E.3d at 1250. In April
2009, TEC declared void the diocese’s November 2008
decision to disaffiliate and elected a new bishop and
other new leaders for the diocese. Id. ¶ 12, 14 N.E.3d
at 1250. That same month, Corporation #1 filed its
annual report with the state, listed its directors, and
amended its bylaws to remove references to TEC. Id.
¶ 11, 14 N.E.3d at 1250. Corporation #1’s amended
bylaws provided that directors did not have to be
Illinois residents but “shall be communicants in good
standing with their parish or mission church within
the Diocese of Quincy.” Id., 14 N.E.3d at 1250. TEC
asked the court to hold that the individuals listed as
directors of Corporations #1 and #2 had vacated their
offices by leaving TEC and to declare the new persons
that had been elected as the corporations’ directors.
Id. ¶ 17, 14 N.E.3d at 1251.
The court observed that Illinois had adopted the
neutral principles approach, “whereby a court may
objectively examine pertinent church characteristics,
constitutions and bylaws, deeds, state statutes, and
other evidence to resolve the matter as it would a
secular dispute.” Id. ¶ 44, 14 N.E.3d at 1256. The court
further noted that deference is unavailable when the
determination of a church’s hierarchical structure is
not easily discernible. Id. ¶ 47, 14 N.E.3d at 1256. It
pointed out that the trial court—after hearing

App-143
conflicting evidence—had concluded that it could not
“constitutionally determine the highest judicatory
authority or the locus of control regarding the property
dispute to which it would be required to defer,”
because the diocese’s status as a subordinate in a
hierarchy was “not clear or readily apparent,”
rendering deference unavailable. Id. ¶¶ 20-22, 27, 47,
14 N.E.3d at 1252-53, 1256; cf. Masterson, 422 S.W.3d
at 608 (“We agree with the court of appeals that the
record conclusively shows TEC is a hierarchical
organization.”).
Because the central matter underlying the
parties’ dispute was “who owns the disputed
property,” the court did not have to determine whether
the diocese could leave TEC or identify the leaders of
the continuing diocese. Diocese of Quincy, 2014 IL App
(4th) 130901, ¶ 48, 14 N.E.3d at 1257. For the
property at issue—funds in the bank account and the
deed to the “Diocesan House”—the deed reflected that
title to the property was held by Corporation #1, and
its language did not provide for an express trust in
favor of TEC; TEC was likewise not a party to the
contract between Corporation #1 and the bank, and it
was undisputed that TEC had never had any
involvement with the bank account. Id. ¶ 50, 14
N.E.3d at 1257. The corporations were not organized
under Illinois’s Religious Corporation Act, which
would have imposed certain requirements on the
incorporating body with regard to trustee
membership. Id. ¶ 51, 14 N.E.3d at 1257. And the
evidence—including the deed, the bank contract, and
the diocese’s constitution and canons—revealed
nothing to show an express or implied trust or any
other interest vested in TEC. Id. ¶ 54, 14 N.E.3d at

App-144
1258. The Dennis Canon provided that parish
property was held in trust for the diocese and TEC but
included no “similar language with respect to diocesan
property being held in favor of” TEC. Id., 14 N.E.3d at
1258. Accordingly, the court affirmed the trial court’s
judgment. 70 Id. ¶ 57, 14 N.E.3d at 1259.

In Diocese of San Joaquin, the court distinguished Diocese of
Quincy, observing that the Quincy diocese (Corporation #2) was
incorporated as a nonprofit corporation under Illinois law and the
property was held, managed, and distributed by another
nonprofit corporation (Corporation #1), the directors of whom
were members of Corporation #2. 202 Cal. Rptr. 3d at 60-61. In
contrast, in the San Joaquin Diocese, the property was held in
the name of the corporation sole with the incumbent bishop as
the single office holder. Id. at 61. The San Joaquin court noted
that because the Quincy diocese was organized under the Illinois
Not-For-Profit Corporation Act instead of the Illinois Religious
Corporation Act, TEC had no authority to remove and replace the
incorporated diocese’s directors, whereas TEC had more
influence and control over the California corporation sole because
any amendments to its articles of incorporation had to be
“authorized by the religious organization.” Id. (observing that
under the Illinois Religious Corporation Act “a trustee of a
religious corporation can be removed from office for, inter alia,
abandonment of the denomination”); see 805 Ill. Comp. Stat. Ann.
110/46d (West, Westlaw through 2018 Legis. Sess.) (providing
that the trustee of a corporation organized under the Illinois
Religious Corporation Act “may be removed from office whenever
his office shall be declared vacant . . . for an abandonment of the
faith of the congregation, church, society, sect, or denomination,
or for failure to observe the usages, customs, rules, regulations,
articles of association, constitution, by-laws or canons of the
congregation, church or society, or of the ecclesiastical body, or
diocesan, or like ecclesiastical officer, having jurisdiction over
any ecclesiastical district or diocese).
70

App-145
(c) Diocese
Carolina

of

South

During the pendency of this appeal, the Supreme
Court of South Carolina issued an opinion—or rather,
five opinions, as each justice wrote separately—
touching on some of the issues before us. See
Protestant Episcopal Church in the Diocese of S.C. v.
The Episcopal Church, 806 S.E.2d 82, 84, 93 (S.C.
2017), pet. for cert. filed, No. 17-1136 (Feb. 9, 2018). As
recounted by one of the justices, a majority of three
agreed that in secular church disputes, neutral
principles of law should be applied to resolve the case,
while a different majority of three held that, with
regard to the twenty-eight church organizations that
acceded to the Dennis Canon, a trust in favor of TEC
is imposed on the property, putting title in the
national church. Id. at 125 n.72 (Toal, Acting J.,
dissenting).
(5) Commentary
Unsurprisingly, cases involving church property
have attracted a number of scholarly articles weighing
in on various aspects of the tension between the First
Amendment and state secular law. See McConnell &
Goodrich, 58 Ariz. L. Rev. at 321-22 (observing the
common pattern of church property disputes and the
arguments made by each side); Valerie J. Munson,
Fraud on the Faithful? The Charitable Intentions of
Members of Religious Congregations & the Peculiar
Body of Law Governing Religious Property in the
United States, 44 Rutgers L.J. 471, 509 (2014)
(observing that history suggests that religion-based
property disputes will always be around and that “the
only constant in that body of law has been its utter

App-146
inconsistency and uncertainty”); Bertie D. Jones,
Litigating the Schism & Reforming the Canons:
Orthodoxy, Property & the Modern Social Gospel of the
Episcopal Church, 42 Golden Gate U. L. Rev. 151, 215
(2012) (asserting that the property disputes within
TEC are about theology and proposing that
ecclesiastical property courts would be more efficient
to determine the Dennis Canon trust question); R.
Gregory Hyden, Comment, Welcome to the Episcopal
Church, Now Please Leave: An Analysis of the
Supreme Court’s Approved Methods of Settling Church
Property Disputes in the Context of the Episcopal
Church & How Courts Erroneously Ignore the Role of
the Anglican Communion, 44 Willamette L. Rev. 541,
560 (2008) (“By ignoring the judicatory procedures
outside of the national polity of the Episcopal Church,
courts are not following the principles they set out for
a hierarchical church in either a deference approach
or a neutral principles approach.”); Jeffrey B. Hassler,
Comment, A Multitude of Sins? Constitutional
Standards for Legal Resolution of Church Property
Disputes in A Time of Escalating Intradenominational
Strife, 35 Pepp. L. Rev. 399, 455 (2008) (“Churches
have not ordered their affairs in ways that lend
themselves to easy civil court resolution.”); Fennelly,
9 St. Thomas L. Rev. at 357 (“The unintended
consequence of neutral principles has been . . . an
unwarranted intrusion into a sphere that lies outside
government’s legitimate boundaries of authority.”);
Patty Gerstenblith, Civil Court Resolution of Property
Disputes Among Religious Organizations, 39 Am. U.
L. Rev. 513, 519-20 (1990) (observing that Supreme
Court jurisprudence that grants greater deference in
property
disputes
to
hierarchical
religious

App-147
organizations than to congregational religious
organizations “would seem to create a structural
relationship violative of the establishment clause”).
These commentaries have provided valuable guidance
to us.
(6) Summary
Under the neutral principles methodology, we are
required to apply neutral principles of law to issues
such as land titles, trusts, and corporate formation,
governance, and dissolution, even when religious
entities are involved, Masterson, 422 S.W.3d at 606,
and “what happens to the property is not [an
ecclesiastical matter], unless the congregation’s
affairs have been ordered so that ecclesiastical
decisions effectively determine the property issue.” Id.
at 607. That is, as set out above, per Jones and
Milivojevich, we must perform a non-religiousdoctrine-related review of the plain language of the
deeds and the provisions dealing with ownership and
control of property contained within the local and
general churches’ governing documents, confining
ourselves to formal title, corporate documents, and
other items used in the secular world to determine
ownership issues, while avoiding questions about the
tenets of faith, including any religious test as to the
parties’ leadership or identity. If a case requires the
court only to interpret a contract or deed but not to
intervene in matters of church discipline, internal
administration, or membership—or matters of
morality or church doctrine—then it should be a
simple matter to resolve a basic civil law controversy
that just happens to involve a church. See Episcopal
Diocese, 422 S.W.3d at 650 (stating that under neutral

App-148
principles, courts “defer to religious entities’ decisions
on ecclesiastical and church polity issues such as who
may be members of the entities and whether to remove
a bishop” while deciding issues like property
ownership and the existence of a trust “on the same
neutral principles of secular law that apply to other
entities”). But whether the application of the neutral
principles approach is unconstitutional depends on
how it is applied. Id. at 651; see also Westbrook, 231
S.W.3d at 400, 403. Milivojevich, Kedroff, and
Hosanna-Tabor warn us, at all costs, to avoid
becoming unconstitutionally entangled in the parties’
theological, hierarchical web of who is or can be the
“real” bishop or diocese for religious purposes. We
have translated these and other strictures into a flow
chart.

App-149

See Young & Tigges, 47 Ohio St. L.J. at 498-99
(“[I]ndeed it is the presence of such a doctrinal issue
which turns a case concerning church discipline,

App-150
organization, or government into an ecclesiastical one
calling for deference. Once a doctrinal question is
present in a case, it cannot be avoided through neutral
principles or any other approach.” (footnote omitted));
see also Hyden, 44 Willamette L. Rev. at 569-70
(recommending that courts should ensure that
churches wishing to disaffiliate have first exhausted
all remedies available to them within the structure of
the national and international church and, if so, then
give the deference courts traditionally give to
administrative agency decisions). Compare Gonzalez
v. Roman Catholic Archbishop of Manila, 280 U.S. 1,
16, 50 S. Ct. 5, 7-8 (1929) (observing that in the
absence of fraud or collusion, “the decisions of the
proper church tribunals on matters purely
ecclesiastical, although affecting civil rights, are
accepted in litigation before the secular courts as
conclusive, because the parties in interest made them
so by contract or otherwise”), and Singh v. Sandhar,
495 S.W.3d 482, 490 (Tex. App.—Houston [14th Dist.]
2016, no pet.) (“While the Supreme Court left open the
possibility that fraud or collusion claims may serve as
vehicles for civil court review of ecclesiastical
decisions, we have found no Texas case that has
applied such an exception.”), with Libhart, 949 S.W.2d
at 794 (citing a Washington case for the proposition
that when church proceedings are tainted by fraud,
judicial review is appropriate). 71
71 In considering whether a former pastor fraudulently
misrepresented material facts in selling church facilities, the
Libhart court quoted the Supreme Court of Washington as
prohibiting the use of “chicanery, deceit, and fraud” to divert
church property “to a purpose entirely foreign to the purposes of
the organization[] for . . . selfish benefit.” 949 S.W.2d at 794

App-151
b.

State Substantive Law

Within the neutral principles framework, we
must consider our state’s associations, corporations,
and trust law as applicable to the case.
(1) Associations Law
EDFW is a Texas nonprofit association governed
by chapter 252 of the business organizations code. See
Tex. Bus. Orgs. Code Ann. §§ 1.103, 252.001 (West
2012). These days, a nonprofit association may be the
beneficiary of a trust, contract, or will. See id.
§ 252.015 (noting that until September 1, 1995, a
nonprofit association could not hold an estate or
interest in real or personal property, so the interest
was held in trust by a fiduciary, but after September
1, 1995, the fiduciary could transfer the interest to the
nonprofit association in the nonprofit’s name). The
nonprofit association is separate from its members for
purposes of determining and enforcing its rights,
duties, and liabilities in contract and tort. Id.
§ 1.002(57)-(58) (West Supp. 2017), §§ 3.002,
252.006(a) (West 2012). Under chapter 252, a
“member” is a person who, under the association’s
rules or practices, may participate in the selection of
persons authorized to manage association affairs or in
the development of association policy. Id. § 252.001(1).
“A member of, or a person considered as a member by,
a nonprofit association may assert a claim against the
nonprofit association,” and vice versa. Id. § 252.006(d).

(quoting Hendryx v. People’s United Church of Spokane, 84 P.
1123, 1127 (Wash. 1906)). The parties in the instant case have
not specified any fraud claims.

App-152
“It is generally held that the constitution and bylaws of a voluntary association, whether incorporated
or not, are controlling as to its internal management.”
Dist. Grand Lodge No. 25 Grand United Order of Odd
Fellows v. Jones, 160 S.W.2d 915, 922 (Tex. 1942);
Juarez v. Tex. Ass’n of Sporting Officials El Paso
Chapter, 172 S.W.3d 274, 279 (Tex. App.—El Paso
2005, no pet.) (“[T]he courts of this state recognize the
right of a private association to govern its own
affairs.”). Texas courts have recognized that an
association’s bylaws constitute a contract between the
parties. Monasco v. Gilmer Boating & Fishing Club,
339 S.W.3d 828, 838 n.14 (Tex. App.—Texarkana
2011, no pet.). But see Westbrook, 231 S.W.3d at 398
(quoting Minton, 297 S.W.2d at 621-22, for the
proposition that church membership creates a
different relationship from that of other voluntary
associations); Harden v. Colonial Country Club, 634
S.W.2d 56, 60 (Tex. App.—Fort Worth 1982, writ ref’d
n.r.e.) (stating that a suit on bylaws and policies is not
the type of breach-of-contract suit contemplated by the
legislature with regard to the recovery of attorney’s
fees). The constitution and bylaws of an association
confer no legal rights on nonmembers. Schooler v.
Tarrant Cty. Med. Soc’y, 457 S.W.2d 644, 647 (Tex.
Civ. App.—Fort Worth 1970, no writ).
By becoming a member of an association, an
individual “subjects himself, within legal limits, to the
association’s power to administer as well as its power
to make its rules.” Harden, 634 S.W.2d at 59. The
actions of the association’s leadership are permissible
and binding on the association’s membership so long
as they are not illegal, against some public policy, or
fraudulent. Id. at 60 (refusing judicial intervention in

App-153
association’s internal dispute over rules pertaining to
sale of country club membership); see also Whitmire v.
Nat’l Cutting Horse Ass’n, No. 02-08-00176-CV, 2009
WL 2196126, at *4 (Tex. App.—Fort Worth July 23,
2009, pet. denied) (mem. op.) (“Judicial review is only
proper when the actions of the organization are illegal,
against some public policy, arbitrary, or capricious.”).
But see Milivojevich, 426 U.S. at 713, 96 S. Ct. at 2382
(disavowing an exception for arbitrariness as to
religious associations). Legislative enactment dictates
what is public policy in this state. See Dist. Grand
Lodge No. 25, 160 S.W.2d at 920; see also Dickey v.
Club Corp. of Am., 12 S.W.3d 172, 177 (Tex. App.—
Dallas 2000, pet. denied) (holding that membership in
a golf club is not a valuable property right,
particularly when plaintiffs did not allege gender
inequity or discrimination and there was no claim of
fraud or illegality, and that “[i]f the courts were to
intervene each time members of a golf club felt that
restrictions on tee times were unreasonable, operation
of such clubs would become unmanageable and
valuable judicial resources would be wasted”).
Complaints that attract judicial review are those that
“allege a wholesale deprivation of due process or the
opportunity to be heard in violation of some civil or
property right.” Whitmire, 2009 WL 2196126, at *5;
see Stevens v. Anatolian Shepherd Dog Club of Am.,
Inc., 231 S.W.3d 71, 74-75 (Tex. App.—Houston [14th
Dist.] 2007, pet. denied) (reciting that despite the
general rule of noninterference with a voluntary
association’s internal management, courts will
interfere in a private association’s inner-dealings if a
valuable right or property interest is at stake or if

App-154
association fails to accord members “something
similar to due process”).
The TEC parties assert that Appellees lost
EDFW’s property when they disassociated from TEC,
and they refer us to several cases to support their
position. See Int’l Printing Pressman v. Smith, 198
S.W.2d 729, 736 (Tex. 1946); 72 Dist. Grand Lodge No.

In International Printing, Smith sued the parent union for
his wrongful expulsion from the local union, a chartered
subordinate organization, after it failed to follow the parent
union’s rules in expelling him. 198 S.W.2d at 731-32. After a jury
trial, the trial court issued a JNOV for the union, but the supreme
court rendered judgment for Smith. Id. at 731, 738. The court
held that Smith’s expulsion was illegal and void—the result of “a
breach of the fundamental guarantees established by the union
for the protection of the rights of the individual member,” id. at
732, and while the parent union contended that it was not
responsible for its subordinate unit’s actions, the local union had
acted as its agent and was “but the alter ego of the national
organization” when it breached the contract—constitution and
bylaws—between the organization and its members. Id. at 73334, 736, 742-43. That is, while the local union could elect its own
officers and adopt its own constitution and bylaws, the parent
union’s constitution and bylaws took precedence, regulating in
detail how the local union could operate and its officers’
performance of their duties. Id. at 733. The parent union could
also forfeit the local union’s charters, take over the
administration of its affairs, and remove and expel its officers for
a failure to perform their duties. Id. And while the parent union’s
constitution and bylaws did not contain any express promise to
allow union members to remain members and enjoy the benefits
thereof, the court held that there was an implied obligation to
allow a member to enjoy the benefits of his membership “so long
as he complies with the obligations imposed by the constitution
and by-laws.” Id. at 737-38.
72

App-155
25, 160 S.W.2d at 920; 73 see also Progressive Union of
Tex. v. Indep. Union of Colored Laborers, 264 S.W.2d
In Grand Lodge, the supreme court considered whether the
property held by a defunct local fraternal lodge would go to its
members or to the grand lodge of which the local lodge had been
a constituent member. 160 S.W.2d at 920. Grand Lodge, a
fraternal benefit society organized in 1890, sued members of the
defunct local lodge in a trespass-to-try-title action involving three
lots. Id. at 917-18. The local lodge had been one of Grand Lodge’s
subordinate lodges when it acquired the lots but became
“defunct” in 1936, paying no membership dues or assessments to
either Grand Lodge or the national organization. Id. at 918. The
lots, acquired between 1909 and 1920, were paid for by the local
lodge’s members, and none of Grand Lodge’s or the national
organization’s funds were used directly or indirectly in
purchasing the lots or making improvements upon them. Id. The
deeds were executed to named members of the local lodge “as
trustees of said Local Lodge and to their successors in trust for
said lodge.” Id. In 1936, the self-described duly elected and
qualified trustees of the local lodge executed general warranty
deeds conveying the lots to thirty-four individuals (including
themselves) as “all of the present qualified and paid up members”
of the lodge, which “is contemplated to be dissolved.” Id.
73

The court construed Grand Lodge’s constitution and bylaws,
which had been in effect since 1908 and which provided that title
to all property acquired by subordinate lodges was as trustee for
and for the benefit of Grand Lodge, that no property held by a
subordinate lodge could be mortgaged, sold, or otherwise
encumbered without written permission and consent from Grand
Lodge, and that when a subordinate lodge became defunct, all of
the property held in trust by the local lodge “shall be taken
over . . . and re-possessed by the District Grand Lodge” and “shall
vest absolutely in the District Grand Lodge.” Id. at 918-19. The
court then looked to the statutory provisions relating to
incorporated lodges—even though Grand Lodge was not
incorporated—to determine whether Grand Lodge’s constitution
and bylaws were contrary to the public policy stated therein and
observed that the statutory language “is clear and unequivocal
and plainly states what is to become of the property of a defunct

App-156
765, 768 (Tex. Civ. App.—Galveston 1954, writ ref’d
n.r.e.); 74 see generally Tex. Bus. Orgs. Code Ann.
local lodge”—i.e., it passes to and vests in the grand body to which
it was attached. Id. at 920-21 (referring to the statute “merely as
a legislative statement of the [underlying] public policy”).
Accordingly, the court held that the applicable provisions in
Grand Lodge’s constitution and bylaws were not contrary to
public policy, making Grand Lodge the lots’ owner because its
constitution and bylaws “became a part of the contract entered
into by the defendants when they became members of the order
and whatever rights defendants had in the lots in controversy
were merely incidental to their membership and terminated
absolutely with such membership.” Id. at 920. While the local
lodge had held superior equitable title based on the deeds’
language, when it became defunct, it lost its interest in the lots.
Id. at 920, 923; cf. Simpson v. Charity Benevolent Ass’n, 160
S.W.2d 109, 109-10, 112-13 (Tex. Civ. App.—Fort Worth 1942,
writ ref’d w.o.m.) (holding claimants did not show title vested in
them when local lodge purchased property three years before
adoption of bylaws upon which claimants relied and entity under
which claimants claimed title was not local lodge’s parent
organization).
In Progressive, the court observed that it “is well settled that
when a person ceases to be a member of a voluntary association,
his interest in its funds and property ceases and the remaining
members become jointly entitled thereto,” even when the
majority secedes and organizes a new association. 264 S.W.2d at
768. In that context, 17 individual incorporators obtained a
charter for a union in 1930 and became the union’s supreme
council, which supplied a franchise to Lodge No. 1, an
unincorporated association. Id. at 766. The franchise authorized
the organization of Lodge No. 1 and gave it a constitution, bylaws,
and a password. Id. Lodge No. 1 collected dues and assessments
from its members and regularly paid dues to the supreme council.
Id. Lodge No. 1 subsequently acquired some property and
purported to adopt a constitution and bylaws authorizing its
officers to execute legal documents in connection therewith. Id.
at 766-67. By 1951, Lodge No. 1 had over 1,000 members, had
paid off the indebtedness on its land, and had around $8,500. Id.
74

App-157
§ 23.110(a) (West 2012) (providing that when a
subordinate body attached to a grand body is wound
up and terminated, “all property and rights existing in
the subordinate body pass to and vest in the grand
body to which it was attached, subject to the payment
of any debt owed by the subordinate body”).
The business organizations code has a separate
chapter for “special-purpose” corporations. See Tex.
Bus. Orgs. Code Ann. §§ 23.001-.110 (West 2012). This
category
applies
to
business
development
corporations, which are formed “to promote, develop,
and advance the prosperity and economic welfare of
this state,” id. § 23.052, and to “Grand Lodges,” such
as the Free Masons, Knights Templar, Odd Fellows, or
“similar institution or order organized for charitable
or benevolent purposes.” 75 Id. § 23.101; see also CKB
at 767. As resentment towards the supreme council festered,
some of the officers of Lodge No. 1 became incorporators of the
Progressive Union of Texas, to which the State of Texas issued a
charter. Id. Those incorporators/officers executed a deed
conveying Lodge No. 1’s property to Progressive and withdrew
Lodge No. 1’s funds but continued to make reports to the supreme
council as Lodge No. 1 for two or three months. Id. The majority
of Lodge No. 1’s members ultimately affiliated with Progressive,
while 60 or 70 members of Lodge No. 1 continued to hold
meetings separately. Id. Litigation ensued, and the remaining
members of Lodge No. 1 prevailed in a jury trial. Id. Progressive
appealed, complaining that the trial court’s judgment affected
the rights of 900 persons, representing 96% of Lodge No. 1’s
former membership, but to no avail. Id. at 768. The court likewise
observed that the evidence was sufficient to support the jury’s
finding that the incorporator/officers had withdrawn as members
from Lodge No. 1 before executing the deed, leaving them without
the power to convey Lodge No. 1’s property. Id.
75 In addition to the implied exclusion of other types of
associations based on the list in the “special-purpose” statute,

App-158
& Assocs., Inc. v. Moore McCormack Petroleum, Inc.,
734 S.W.2d 653, 655 (Tex. 1987) (explaining the
maxim expressio unius est exclusio alterius to mean
“that the naming of one thing excludes another”);
Johnson v. Second Injury Fund, 688 S.W.2d 107, 10809 (Tex. 1985) (“The legal maxim Expressio unius est
exclusio alterius is an accepted rule of statutory
construction in this state” through which the express
mention or enumeration “of one person, thing,
consequence or class is equivalent to an express
exclusion of all others”). While the facial simplicity of
comparing grand lodges to the types of associations
here is alluring, we cannot conclude that the statutory
principles applicable to grand lodges apply to entities
that lack grand lodges’ defining characteristics. 76
grand lodges can be fraternal benefit societies, subject to
additional rules applicable to their unique character. See Tex.
Ins. Code Ann. § 885.051 (West 2009) (defining “fraternal benefit
society” in part as a corporation, society, order, or voluntary
association that has a lodge system and representative form of
government, with or without limiting its membership to a secret
fraternity); Wonderful Workers of the World v. Winn, 31 S.W.2d
879, 881 (Tex. Civ. App.—Waco 1930, writ dism’d w.o.j.) (“The
charter, constitution, by-laws, and rules of appellant offered in
evidence show that it consists of a grand lodge with subordinate
lodges, and is a fraternal benefit society as contemplated by
articles 4820, 4821, 4822, 4823, 4824, and 4834 of the Revised
Statutes.”); see also State v. The Praetorians, 186 S.W.2d 973,
975-76 (Tex. 1945) (observing that respondent, a fraternal benefit
association operating under a lodge system of government, was
the type of association “dealt with in a separate chapter of the
statutes . . . and . . . regulated by laws applicable to them alone,”
and “regarded by the Legislature as being different from ordinary
insurance companies and all other organizations”).
76 For example, under section 23.104, “Subordinate Lodges,”
“[a] subordinate body is subject to the jurisdiction and control of

App-159
Furthermore, labor unions and lodges—and the
policies and law applicable to them—have more in
common with each other than with hierarchical
religious associations. Compare Westbrook, 231
S.W.3d at 398 (identifying distinction between church
membership and that of other voluntary associations
formed for business, social, literary, or charitable
purposes), with Comment, State Court Holds Union
Must Reinstate & Compensate Members Wrongfully
Expelled for Intra-Union Political Activity: Madden v.
Atkins, 59 Colum. L. Rev. 190, 190 (1959) (“Labor
unions were early characterized as unincorporated
associations not for profit and thus were governed by
legal principles which had been formulated for social
and benevolent organizations.” (footnotes omitted)).
As one commentator has noted,
The explicitly stated purpose of limiting the
local union’s retention of its property is to
strengthen the national labor organization
and increase its bargaining power. In the
context of church property disputes, the goal
of favoring and strengthening the religious
hierarchy is not legitimate because it would
its respective grand body, and the warrant or charter of the
subordinate body may be revoked by the grand body.” Tex. Bus.
Orgs. Code Ann. § 23.104(c). But TEC’s constitution and canons
do not provide for the complete disassociation—voluntary or
involuntary—of a diocese by somehow revoking its membership
in the hierarchical church. Indeed, part of the problem in this
case is that there was no established framework for disaffiliation.
See Hassler, 35 Pepp. L. Rev. at 455 (observing “an integral part
of the nature of the belief systems of religious communities is the
hope that their shared beliefs will make their temporal unity
lasting and secure”).

App-160
clearly violate the establishment clause of the
[F]irst [A]mendment.
Gerstenblith, 39 Am. U.L. Rev. at 570-71 (footnote
omitted) (referencing Int’l Bhd. of Boilermakers v.
Local Lodge D474, 673 F. Supp. 199, 203 (W.D. Tex.
1987) (“Other courts have held that disaffiliation does
justify a trusteeship since disaffiliation would have a
detrimental effect on the collective bargaining
process.”)).
Accordingly, the law applicable to lodges, unions,
or other special-purpose corporations does not apply to
the case before us, and we overrule this portion of the
TEC parties’ issue 1(c). We will address the remainder
of their associations sub-issue in our analysis below.
(2) Corporations Law
The Corporation, formed under Texas law, came
into existence when its certificate of formation was
filed. See Tex. Bus. Orgs. Code Ann. § 1.002(22)
(explaining that one of the “filing” entities is a
domestic entity that is a corporation), § 1.101 (West
2012) (stating that Texas law governs the formation
and internal affairs of an entity if the entity files a
certificate of formation in accordance with the
provisions of the business organizations code),
§ 3.001(c) (West 2012) (“Formation and Existence of
Filing Entities”). A nonprofit corporation must include
in its certificate of formation whether it will have
members and the number of directors constituting the
initial board of directors and their names and
addresses, among other things. Id. § 3.009(1)-(3). In a
religious nonprofit corporation, as here, the board of
directors may be affiliated with, elected, and
controlled by “an incorporated or unincorporated

App-161
convention, conference, or association organized under
the laws of this or another state, the membership of
which is composed of representatives, delegates, or
messengers from a church or other religious
association.” Id. § 22.207(a). 77 The board of directors
of such a corporation may be wholly or partly elected
by one or more associations organized under state law
if the corporation’s certificate of formation or bylaws
provide for that election and the corporation has no
members with voting rights. Id. § 22.207(b).
A nonprofit corporation’s board of directors is “the
group of persons vested with the management of the
affairs of the corporation, regardless of the name used
to designate the group,” and its bylaws are the rules
adopted to regulate or manage the corporation. Id.
§ 22.001(1), (2) (West Supp. 2017). Unless a director of
a nonprofit corporation resigns 78 or is removed, he or
she holds office for the period specified in the
certification of formation or bylaws and until a
successor is elected, appointed, or designated and
qualified. Id. § 22.208(a)-(b) (West 2012). A director
may be removed from office under any procedure
provided by the certificate of formation or bylaws. Id.
§ 22.211(a) (West 2012). “In the absence of a provision
for removal in the certificate of formation or bylaws, a
director may be removed from office, with or without
Revised civil statute article 1396, section 2.14(B) contained
the same provisions. See Act of Apr. 23, 1959, 56th Leg., R.S., ch.
162, art. 2.14, 1959 Tex. Gen. Laws 286, 294.
77

78 Except as provided by the certificate of formation or bylaws,
a director of a corporation may resign at any time by providing
written notice to the corporation. Tex. Bus. Orgs. Code Ann.
§22.2111 (West 2012).

App-162
cause, by the persons entitled to elect, designate, or
appoint the director.” Id. § 22.211(b). If the director
was elected to office, his or her removal requires an
affirmative vote equal to the vote necessary to elect
the director. Id. Unless otherwise provided by the
certificate of formation or bylaws, a vacancy in the
board of directors shall be filled by the affirmative vote
of the majority of the remaining directors, regardless
of whether that majority is less than a quorum. Id.
§ 22.212(a) (West 2012).
As to the general standards applicable to the
directors of a nonprofit corporation’s board, a director
shall discharge his or her duties “in good faith, with
ordinary care, and in a manner the director
reasonably believes to be in the best interest of the
corporation,” and he or she “is not liable to the
corporation, a member, or another person for an action
taken or not taken as a director if the director acted in
compliance with” section 22.221. Id. § 22.221(a), (b)
(West 2012). A director is not considered to have the
duties of a trustee of a trust with respect to the
corporation or with respect to property held or
administered by the corporation, including property
subject to restrictions imposed by the donor or
transferor of the property. 79 Id. § 22.223 (West 2012).
In construing bylaws, we apply the rules that
govern contract interpretation. In re Aguilar, 344
S.W.3d 41, 49 (Tex. App.—El Paso 2011, orig.
proceeding). We also apply the general rules of
79 Depending on a nonprofit corporation’s federal tax
qualification, the nonprofit corporation may also serve as the
trustee of a trust. Tex. Bus. Orgs. Code Ann. § 2.106(a) (West
2012).

App-163
contract construction, as expressed in Texas case law,
to interpret a Texas corporation’s articles of
incorporation. Corcoran v. Atascocita Cmty.
Improvement Ass’n, No. 14-12-00982-CV, 2013 WL
5888127, at*2 (Tex. App.—Houston [14th Dist.] Oct.
31, 2013, pet. denied) (mem. op.) (citing Highland
Crusader Offshore Partners, L.P. v. Andrews & Kurth,
L.L.P., 248 S.W.3d 887, 891 (Tex. App.—Dallas 2008,
no pet.)). We attempt to harmonize and give effect to
every provision, and we presume that the parties
intended to impose reasonable terms. Aguilar, 334
S.W.3d at 50. We examine the document as a whole in
light of the circumstances present when it was
written. Corcoran, 2013 WL 5888127, at *2. If the
bylaw or article is written so that it can be given a
definite interpretation, it is not ambiguous and the
court will construe it as a matter of law. See Aguilar,
334 S.W.3d at 50.
Appellees refer us to Chen v. Tseng, No. 01-0201005-CV, 2004 WL 35989, at *6 (Tex. App.—Houston
[1st Dist.] Jan. 8, 2004, no pet.) (mem. op.), a
corporation case, to support their argument that “[i]t
is easy to separate ecclesiastical and property disputes
in most cases.” The TEC parties respond that the First
court subsequently held that case irrelevant under the
circumstances presented here, citing Greanias v.
Isaiah, No. 01-04-00786-CV, 2006 WL 1550009, at *9
(Tex. App.—Houston [1st Dist.] June 8, 2006, no pet.)
(mem. op.).
In Chen, the First court, citing our opinion in
Dean, 994 S.W.2d at 395, noted—as set out above—
that civil courts have jurisdiction over matters
involving churches and their civil, contract, and

App-164
property rights as long as neutral principles of law
may be applied to decide the issues. 2004 WL 35989,
at *6. The membership of a religious group had formed
a corporation to build a temple; the corporation’s
bylaws set out the requirements for an annual
meeting of the membership to elect directors, the
length of their terms, how vacancies would be filled,
and the date of the annual meeting. Id. at *1. In
conducting corporate affairs, the directors frequently
consulted with the religion’s patriarch and generally
followed his instructions. Id. at *2. After he died, a
dispute arose with regard to the composition of the
corporation’s board. Id. at *2-3.
Chen, who had served as the patriarch’s assistant
and who subsequently attempted to reorganize the
corporation outside the parameters of the
corporation’s bylaws, conceded that the trial court
applied neutral principles of law in interpreting and
applying the bylaws. Id. at *2, *6. After a four-day
bench trial, the trial court “merely applied the bylaws
to make a determination of the validity of the selection
of directors of the [c]orporation.” Id. at *3, *6. While
the corporation’s board controlled the corporation’s
membership, it did not control membership in the
religious group. Id. at *6.
In Greanias, the court considered a plea to the
jurisdiction brought in a suit to determine the rightful
board of trustees (parish council) of the Annunciation
Greek Orthodox Cathedral, organized as a Texas
nonprofit corporation, after the hierarch of the
regional division of the Greek Orthodox Archdiocese of
America removed some of the trustees (10 of 15 total,
elected to three-year, staggered terms, from 2000-

App-165
2002) from office. 2006 WL 1550009, at *1. Prior to the
trustees’ removal from the board, the Cathedral had
adopted its own bylaws rather than the Archdiocese’s
uniform parish regulations. Id.
Internal strife occurred in 2001, with the
appointment by the hierarch of a priest with whom the
subsequently removed board members did not get
along. Id. at *2-3 (recounting that the board members
had the priest followed by a private investigator and
twice notified the IRS about his personal finances). In
2002, the hierarch refused to ratify the purported
election of new board members because the priest had
refused to sign the election results, as required by the
local bylaws. Id. at *2. The board members also
ignored the hierarch’s request that they amend the
local bylaws to conform to the archdiocese’s uniform
parish regulations. Id. at *1. In 2003, the hierarch
demanded that board members with uncompleted
terms submit their resignations. Id. at *2. When only
three did so, he rescinded his ratification of the
remaining original board members’ elections. Id. at
*2-3 (quoting the hierarch’s statement that “[i]t does
not take a rocket scientist to see that there is no
working cooperation between the spiritual head of the
parish and those who took the oath to assist him in his
work”). The hierarch and the local priest organized an
interim council, which elected officers and assumed
control of the Cathedral—actions that ultimately led
to a lawsuit seeking a declaratory judgment that the
corporation’s bylaws were the controlling document
governing the Cathedral’s affairs. Id. at *3. The trial
court granted the hierarch’s plea to the jurisdiction.
Id. at *4.

App-166
On appeal, the board members complained that
under the local bylaws, the hierarch lacked the power
to dismiss them and to create an interim council and
that only they—as the original parish council—had
the right to serve and act on the Cathedral’s behalf.
Id. The court recited the neutral-principles template
before noting that “if an issue—even one that is
claimed to be based solely on neutral principles of
law—cannot be decided without determining
prohibited religious matters, the court must defer to
the ecclesiastical authority’s resolution of that issue.”
Id. at *5. Accordingly, the court had to examine the
substance and effect of the plaintiff’s petition, without
considering the technical claims asserted, to
determine the suit’s ecclesiastical implications. Id.
The Cathedral’s bylaws set out a corporate
purpose that included maintaining, conducting, and
operating “a church in conformity with the doctrine,
canons, worship, discipline, usages and customs of the
Greek Orthodox Church,” and required that
candidates for parish council be members of the
Cathedral in good standing for at least a year before
the election. Id. at *7. To be in good standing, the
member was required to, among other things, live
“according to the faith and canons of the [Greek
Orthodox] Church.” Id. The bylaws also required
newly elected parish council members to have their
election ratified by the hierarch and to be
administered the oath of office by the parish priest. Id.
And they required the parish council to conduct the
Cathedral’s secular business “in furtherance of the
aims and purposes of the [Greek Orthodox] Church
and in accordance with . . . the constitution, canons,

App-167
discipline, and regulations of the Archdiocese,” and to
refer all spiritual questions to the hierarch. Id.
Although the board members argued that the
controversy involved a simple determination of which
bylaws applied and the application of the nonprofit
corporation act’s provisions to the corporate
organization, the First court observed that “[t]he
controversy inherently and inextricably involves a
presiding hierarch’s power to discipline a local parish
council; his power to determine whether that council’s
members have violated their oath to obey the church’s
hierarchy, discipline, and canons; and an archdiocese’s
right to insist on what by-laws may be adopted by its
subordinate parishes,” all of which constituted
ecclesiastical matters inextricably intertwined with
the board members’ request for a declaration that the
local bylaws controlled. Id. at *7-8. And such
inextricable intertwining prevented the court from
resolving the dispute on purely neutral principles. Id.
at *8.
Specifically, in affirming the trial court’s
judgment granting the plea to the jurisdiction, the
court observed that there was a question as to whether
the local bylaws or the uniform parish regulations
controlled when the uniform regulations provided that
the mere assignment of a parish priest would bind the
parish to the regulations—”[t]hose matters are at the
heart of this dispute, and they are inextricably
intertwined with ecclesiastical issues of church
governance, polity, and doctrine that we may not
determine.” Id. The court distinguished Chen in part
based on the lack of a preserved challenge in that case
concerning which bylaws applied and what they

App-168
required, pointing out that the Chen dispute had only
involved whether various elections and appointments
had been lawful under those bylaws. Id. at *9. The
court observed that Chen did not involve a situation
“in which a higher authority, external of the local
congregation, was disputing what the document
governing the local congregation was” and that the
evidence in Chen showed that membership in the
religious corporation was not co-extensive with
membership in the religion. Id.
Chen and Greanias were both decided before the
supreme court fleshed out the neutral principles
analysis in Episcopal Diocese and Masterson but, to
some extent, they represent the range of religious
corporation cases, from the most neutral—was there
compliance with the bylaws?—to the most inextricably
intertwined—which bylaws apply and do they involve
a religious test or religious governance? When we
review the Corporation’s bylaws in our analysis below,
we will consider these questions to determine where
the case before us rests on that spectrum. See Mouton
v. Christian Faith Missionary Baptist Church, 498
S.W.3d 143, 150 (Tex. App.—Houston [1st Dist.] 2016,
no pet.) (concluding that Masterson did not alter the
principle for which Westbrook stands: courts may
apply neutral principles of law in cases involving
religious entities only if doing so does not implicate
inherently ecclesiastical concerns). Whether neutral
principles may be applied to a claim turns on the
substance of the issues it raises. Id.
(3) Trust Law
In addition to the questions of association and
corporate control, at issue is whether the property

App-169
claimed by both parties is held in trust and if so, for
whom. See Perfect Union Lodge No. 10, A.F. & A.M., of
San Antonio v. Interfirst Bank of San Antonio, N.A.,
748 S.W.2d 218, 220 (Tex. 1988) (“It is well established
that the legal and equitable estates must be
separated; the former being vested in the trustee and
the latter in the beneficiary. This separation of legal
and equitable estates in the trust property is the basic
hallmark of the trust entity.” (citations omitted)); see
also Tex. Prop. Code Ann. § 111.004(4) (West 2014)
(stating that an express trust “means a fiduciary
relationship with respect to property which arises as
a manifestation by the settlor of an intention to create
the relationship and which subjects the person holding
title to the property to equitable duties to deal with
the property for the benefit of another person”). When
an express trust fails, the law implies a resulting trust
with the beneficial title vested in the settlor, to
prevent unjust enrichment. Pickelner v. Adler, 229
S.W.3d 516,526-27 (Tex. App.—Houston [1st Dist.]
2007, pet. denied). 80

If fraud is involved, a constructive trust—an equitable
remedy implied by operation of law to prevent unjust
enrichment—may be imposed, under the theory that equitable
title should be recognized in someone other than the holder of
legal title. Pickelner, 229 S.W.3d at 527; see also Kinsel v.
Lindsey, 526 S.W.3d 411, 426 (Tex. 2017) (noting that the specific
instances in which equity may impress a constructive trust are
as numberless as the modes by which property may be obtained
through bad faith and unconscientious acts); KCM Fin. LLC v.
Bradshaw, 457 S.W.3d 70, 87 (Tex. 2015) (observing that
constructive trusts have historically been applied to ameliorate
harm arising from a wide variety of misfeasance).
80

App-170
(a) Law of Situs
Texas law governs the transfer of Texas land.
Welch v. Trs. of Robert A. Welch Found., 465 S.W.2d
195, 198, 200 (Tex. Civ. App.—Houston [1st Dist.]
1971, writ ref’d n.r.e.) (op. on reh’g) (stating that “[t]he
general rule that the law of the state in which real
estate is situated governs its descent, alienation, and
transfer is not questioned,” and that “the law of this
state controls and governs the transmission by will of
real estate located therein and the construction and
effect of all instruments intended to convey such real
estate”); see Toledo Soc’y for Crippled Children v.
Hickok, 261 S.W.2d 692, 694, 697 (Tex. 1953) (“[T]he
law of the situs governs the matter of testamentary or
intestate succession to land.”), cert. denied, 347 U.S.
936 (1954).
(b) Standard of Review
The construction of a trust instrument is a
question of law for the court. Eckels v. Davis, 111
S.W.3d 687, 694 (Tex. App.—Fort Worth 2003, pet.
denied). We look to the law that was in effect at the
time that the trust became effective. See Carpenter v.
Carpenter, No. 02-10-00243-CV, 2011 WL 5118802, at
*3 (Tex. App.—Fort Worth Oct. 27, 2011, pet. denied)
(mem. op.); see also Act of May 26, 1983, 68th Leg.,
R.S., ch. 576, § 7, 1983 Tex. Gen. Laws 3475, 3730
(stating that the 1984 Act was intended only as a
recodification and that no substantive change was
intended); Perfect Union Lodge No. 10, 748 S.W.2d at
220 (stating that the new trust code provides that the
Texas Trust Act, which was repealed in 1984, will
govern the creation of trusts entered into while the Act
was in effect); Cutrer v. Cutrer, 345 S.W.2d 513, 519

App-171
(Tex. 1961) (“It would be quite strange to ascertain
th[e settlor’s] intention by looking to the provisions of
statutes enacted after the trust instruments became
effective or considering changes in public policy as
reflected thereby.”). Accordingly, we review our trust
statutes and case law for the defining characteristics
of trusts.
Trust statutes were “framed to supplement rather
than to supplant the desires of a trustor.” St. Marks
Episcopal Church, Mt. Pleasant, Tex. v. Lowry, 271
S.W.2d 681, 684 (Tex. Civ. App.—Fort Worth 1954,
writ ref’d n.r.e.). Thus, we look to the words of the
instrument first, seeking to uphold rather than
destroy a trust, and then turn to statutory provisions
to fill in any gaps. See id. at 684-85 (construing will to
determine deceased’s intent with regard to trust
income); see also Runyan v. Mullins, 864 S.W.2d 785,
789 (Tex. App.—Fort Worth 1993, writ denied)
(“[W]hen the terms of a trust set out a specific method
or manner in which to amend the trust, the Texas
Trust Code indicates that those terms are controlling
and must be followed.”); Commercial Nat’l Bank in
Nacogdoches v. Hayter, 473 S.W.2d 561, 565 (Tex. Civ.
App.—Tyler 1971, writ ref’d n.r.e.)(“Since the Testator
did not choose to direct the manner of apportionment,
it would seem to follow that he intended the Texas
Trust Act to govern.”); see generally Tex. Prop. Code
Ann. §111.002 (West 2014) (“This subtitle and the
Texas Trust Act, as amended . . . shall be considered
one continuous statute, and for the purposes of any
statute or of any instrument creating a trust that
refers to the Texas Trust Act, this subtitle shall be
considered an amendment to the Texas Trust Act.”),
§ 111.0035(b) (West Supp. 2017) (stating that the

App-172
trust’s terms prevail over statutory provisions except
as to items such as illegal purposes, exculpation for
breaches of trust, limitations periods, and a court’s
jurisdiction to take certain actions, including
modifying or terminating a trust or removing a
trustee). 81 But “under general rules of construction[,]
we avoid strictly construing an instrument’s language
if it would lead to absurd results.” Hemyari v.
Stephens, 355 S.W.3d 623, 626-27 (Tex. 2011).
(c) Trust Formation
“We look to the settlor’s intent to determine
whether a trust was created.” Hubbard v. Shankle,
138 S.W.3d 474, 484 (Tex. App.—Fort Worth 2004,
pet. denied). “The intent of the settlor must be
ascertained from the language used within the four
corners of the instrument,” and we must harmonize all
terms to properly give effect to all parts of the trust
instrument and construe it to give effect to all
provisions so that none is rendered meaningless. 82
Eckels, 111 S.W.3d at 694.
Section 111.0035 was added in 2005 and became effective
January 1, 2006. See Act of May 12, 2005, 79th Leg., R.S., ch. 148,
§§ 2, 32, 2005 Tex. Gen. Laws 287, 287-88, 296, amended by Act
of May 11, 2007, 80th Leg., R.S., ch. 451, § 2, 2007 Tex. Gen. Laws
801, 801-02, amended by Act of May 21, 2009, 81st Leg., R.S., ch.
414, § 2, 2009 Tex. Gen. Laws 995, 995, and amended by Act of
May 9, 2017, 85th Leg., R.S., ch. 62, § 1, 2017 Tex. Sess. Law
Serv. 135, 135 (West). For trusts existing on January 1, 2006,
that were created before that date, the 2005 changes apply only
to an act or omission relating to the trust that occurred on or after
January 1, 2006. Act of May 12, 2005, 79th Leg., R.S., ch. 148,
§ 31(b), 2005 Tex. Gen. Laws at 296.
81

82 Although a settlor’s manifestation of intent to create a trust
was not an express statutory requirement until the legislature’s

App-173
There are no particular words required to create
a trust if there exists reasonable certainty as to the
intended property, the subject to which the trust
obligation relates, and the beneficiary, Hubbard, 138
S.W.3d at 483-84, but “[t]o create a trust by a written
instrument, the beneficiary, the res, and the trust
purpose must be identified.” Perfect Union Lodge No.
10, 748 S.W.2d at 220 (construing trust created by
will); Alpert v. Riley, 274 S.W.3d 277, 286 (Tex. App.—
replacement of the Texas Trust Act with the Texas Trust Code in
1983 (effective January 1, 1984), see Act of May 24, 1983, 68th
Leg., R.S., ch. 576, art. 2, § 2, 1983 Tex. Gen. Laws at 3654-3731
(current version at Tex. Prop. Code Ann. §§ 111.001-117.012
(West 2014 & Supp. 2017)), the requirement that the settlor
clearly express the intention to create a trust had already long
been embedded in our case law. See Mills v. Gray, 210 S.W.2d
985, 987 (Tex. 1948) (quoting 54 Am. Jur. 22, sec. 5, for the
proposition that a trust “intentional in fact”—i.e., one in which
the “execution of an intention” occurs—is an express trust); see
also Omohundro v. Matthews, 341 S.W.2d 401, 405 (Tex. 1960)
(stating that an express trust arises because of a manifestation
of intention to create it); Fitz-Gerald v. Hull, 237 S.W.2d 256, 260
(Tex. 1951) (“[W]e believe that the Texas cases hold that an
express trust ‘can come into existence only by the execution of an
intention to create it by the one having legal and equitable
dominion over the property made subject to it.’” (quoting Mills,
210 S.W.2d at 987)). The 1983 Texas Trust Code repeated the
requirement that a settlor could revoke a trust “unless it is
irrevocable by the express terms of the instrument creating it or
of an instrument modifying it.” See Act of May 24, 1983, 68th
Leg., R.S., ch. 576, art. 2, § 2, 1983 Tex. Gen. Laws at 3659
(current version at Tex. Prop. Code Ann. § 112.051); see also
Ayers v. Mitchell, 167 S.W.3d 924, 931 (Tex. App.—Texarkana
2005, no pet.) (observing that when there is only one settlor and
he or she dies, the trust becomes irrevocable but that when one
of multiple settlors dies and there are purposes of the trust yet
unfulfilled, the trust does not become irrevocable).

App-174
Houston [1st Dist.] 2008, pet. denied) (op. on reh’g)
(“[T]he person intended to be the beneficiary must be
certain.”); see Tex. Prop. Code Ann. § 112.001(1)
(stating that a trust may be created by a property
owner’s declaration that the owner holds the property
as trustee for another person). The mere designation
of a party as “trustee” does not create a trust. Nolana
Dev. Ass’n v. Corsi, 682 S.W.2d 246, 249 (Tex. 1984). If
the trust’s language is unambiguous and clearly
expresses the settlor’s intent, it is unnecessary to
construe the instrument because it speaks for itself.
Eckels, 111 S.W.3d at 694.
A trust in real property is enforceable only if there
is written evidence of the trust’s terms bearing the
signature of the settlor or the settlor’s authorized
agent. See Tex. Prop. Code Ann. § 112.004; Act of April
15, 1943, 48th Leg., R.S., ch. 148, § 7, 1943 Tex. Gen.
Laws 232, 234, repealed by Act of May 24, 1983, 68th
Leg., R.S., ch. 576, §§ 6, 8, 1983 Tex. Gen. Laws at
3729-30 (rev. civ. stat. art. 7425b-7). And an entity
cannot unilaterally name itself as the beneficiary of a
trust involving another entity’s property. See Best Inv.
Co. v. Hernandez, 479 S.W.2d 759, 763 (Tex. Civ.
App.—Dallas 1972, writ ref’d n.r.e.) (reciting the
requirement of a written instrument for a real
property trust and that “[d]eclarations of the
purported beneficiary of the trust are not competent to
establish the trust”). So while a person can establish a
trust for his or her own benefit, he or she must own
the property that is transferred in order to create the
trust. See Lipsey v. Lipsey, 983 S.W.2d 345, 351 n.7
(Tex. App.—Fort Worth 1998, no pet.) (citing Tex.
Prop. Code Ann. § 112.001); see also Elbert v. WaplesPlatter Co., 156 S.W.2d 146, 152 (Tex. Civ. App.—Fort

App-175
Worth 1941, writ ref’d w.o.m.) (citing Wise v. Haynes,
103 S.W.2d 477, 483 (Tex. Civ. App.—Texarkana
1937, no writ), for the proposition that the
declarations of a beneficiary are not competent to
establish a trust).
(d) Trust Statutes
In 1943, the legislature enacted the Texas Trust
Act to govern express trusts. See Act of Apr. 15, 1943,
48th Leg., R.S., ch. 148, § 48, 1943 Tex. Gen. Laws
232, 232-47 (effective as of April 19, 1943, as revised
civil statute articles 7425b-1-b-47); see also Tex. Prop.
Code Ann. § 111.003 (stating that trust statutes do not
govern resulting, constructive, or business trusts or
security instruments). Under the 1943 Act, a trust “in
relation to or consisting of real property” was invalid
unless created, established, or declared by a written
instrument “subscribed by the trustor or by his agent”
or by any other instrument under which the trustee
claimed the affected estate. Act of Apr. 15, 1943, 48th
Leg., ch. 148, § 7, 1943 Tex. Gen. Laws at 234. And
“[e]very trust shall be revocable by the trustor during
his lifetime, unless expressly made irrevocable by the
terms of the instrument creating the same or by a
supplement or amendment thereto.” Id. § 41, 1943
Tex. Gen. Laws at 246. 83
The 1945 amendments to the Texas Trust Act did
not affect the above provisions. See generally Act of
Apr. 5, 1945, 49th Leg., R.S., ch. 77, 1945 Tex. Gen.
83 Prior to April 19, 1943, trusts in Texas were considered
irrevocable unless an expressed power of revocation was reserved
in the trust’s terms. See Citizens Nat’l Bank of Breckenridge v.
Allen, 575 S.W.2d 654, 657 (Tex. Civ. App.—Eastland 1978, writ
ref’d n.r.e.).

App-176
Laws 109, 109-14. Likewise, although the Dennis
Canon—one of the trust provisions to which we are
referred—was added by TEC to its canons in
September 1979, the above provisions were not
substantially modified during the intervening
decades. See Tex. Rev. Civ. Stat. Arts. 7425b-2, b-7, b41, Texas Historical Statutes Project, West’s Texas
Statutes
1979
Supp.
vol.
2,
https://
www.sll.texas.gov/assets/pdf/historical-statutes/19792/1979-2-supplement-to-1974-wests-texas-statutesand-codes.pdf; id., West’s Texas Statutes 1974, vol. 5,
https://www.sll.texas.gov/assets/pdf/historical-statutes/
1974-5/1974-5-wests-texas-statutes-and-codes.pdf.
(e) Trespass to Try Title and
Adverse Possession
The TEC parties brought a trespass-to-try-title
claim, while Appellees argued, to the contrary, that
they adversely possessed any interest that might
otherwise exist for the TEC parties.
An action of trespass to try title may be brought
on an equitable title. Longoria v. Lasater, 292 S.W.3d
156, 165 (Tex. App.—San Antonio 2009, pet. denied)
(op. on reh’g) (“A suit to resolve a dispute over title to
land is, in effect, a trespass to try title action
regardless of the form the action takes and whether
legal or equitable relief is sought.”). An owner of a
superior equitable title may recover in a trespass-totry-title action if the record shows the equitable title
is superior to the defendant’s bare legal title. Id.
(citing Binford v. Snyder, 189 S.W.2d 471, 474 (Tex.
1945)). And, of course, here we must look to any
subsequent arrangements—such as the 1984 consent
judgment—to determine whether any equitable

App-177
interests were modified. See, e.g., Allstate Ins. Co. v.
Clarke, 471 S.W.2d 901, 907-08 (Tex. Civ. App.—
Houston [1st Dist.] 1971, writ ref’d n.r.e.) (considering
whether earlier trust agreement was superseded by a
subsequent one based on the clear intention of the
parties).
The plaintiff in a trespass-to-try-title suit must
recover on the strength of his own title and not on the
weakness of the defendant’s title. Bellaire Kirkpatrick
Joint Venture v. Loots, 826 S.W.2d 205, 209 (Tex.
App.—Fort Worth 1992, writ denied) (citing Adams v.
Rowles, 228 S.W.2d 849, 853 (Tex. 1950)). When title
is controverted, the defendant admits possession of
the subject property but claims better title, and the
burden of proof is on the plaintiff to establish a
superior title in himself by an affirmative showing. Id.
When a trustee’s legal title is adversely possessed,
the equitable interest goes with it. See Capps v. Gibbs,
No. 10-12-00294-CV, 2013 WL 1701772, at *7 (Tex.
App.—Waco Apr. 18, 2013, pet. denied) (mem. op.)
(concluding legal and equitable title obtained by
adverse possession); Broussard Tr. v. Perryman, 134
S.W.2d 308, 313 (Tex. Civ. App.—Beaumont 1939,
writ ref’d) (stating that “when the bar of the statute is
complete against the legal title vested in the trustee,
it applies also to the equitable title of the cestui que
trust”).
The applicable adverse possession standard
depends on whether the person claiming to have
adversely possessed the interest is a stranger or a
cotenant. See Rife v. Kerr, 513 S.W.3d 601, 616 (Tex.
App.—San Antonio 2016, pet. denied). For example,
“[c]otenants must surmount a more stringent

App-178
requirement because acts of ownership ‘which, if done
by a stranger, would per se be a disseizin,’ are not
necessarily such when cotenants share an undivided
interest.” BP Am. Prod. Co. v. Marshall, 342 S.W.3d
59, 70 (Tex. 2011) (quoting Todd v. Bruner, 365 S.W.2d
155, 160 (Tex. 1963)). Under such circumstances, the
proponent
must
prove
ouster—unequivocal,
unmistakable, and hostile acts the possessor took to
disseize the other cotenants. Id.
2.

Ownership of Equitable Title

In response to the TEC parties’ issues, Appellees
assert that they hold both legal and beneficial title and
are the Corporation’s and EDFW’s rightful officers.
They argue that the TEC parties’ case is based on
revoked trusts, superseded deeds, repealed bylaws,
and oral statements and that the TEC parties’
“scattershot defenses don’t annul neutral principles”
because this is not an ecclesiastical dispute. They urge
that associations are governed by neutral principles
and that a Fort Worth case (Shellberg) from almost 50
years ago is no basis for defying the supreme court’s
mandate.
As previously stated, no one disputes that the
Corporation holds legal title to the various items of
property at issue. See Houston First Am. Sav. v.
Musick, 650 S.W.2d 764, 767 (Tex. 1983) (“Assertions
of fact, not pled in the alternative, in the live pleadings
of a party are regarded as formal judicial
admissions.”). The crux of the parties’ dispute,
however, is ownership of equitable title. We therefore
turn, as directed by the supreme court, to the
application of our state law on trusts, corporations,
and associations to the deeds and the various entities’

App-179
formative documents, to determine the property
ownership issue before us.
a.

Trust Law Application

The TEC parties argue that the Dennis Canon
sets forth an enforceable, irrevocable trust for TEC
under Texas trust law, as well as under Jones v. Wolf
irrespective of state law requirements, and under this
court’s Shellberg opinion as a contractual trust. They
further argue that even if a trust was not established
for TEC in the Dennis Canon, the deeds of various
properties set forth trusts for EDFW or the
congregations.
(1) Dennis Canon
Although the TEC parties “contend that the
Dennis Canon is enforceable under Texas trust law,”
we disagree.
The Dennis Canon was adopted in 1979 and
purports to impose a trust for TEC and TEC’s diocese
on parish, mission, and congregation real and
personal property, stating,
All real and personal property held by or for
the benefit of any Parish, Mission or
Congregation is held in trust for this Church
and the Diocese thereof in which such Parish,
Mission o[r] Congregation is located. The
existence of this trust, however, shall in no
way limit the power and authority of the
Parish, Mission or Congregation otherwise
existing over such property so long as the
particular Parish, Mission or Congregation
remains a part of, and subject to, this Church
and its Constitution and Canons.

App-180
The section that follows essentially provides that no
other action need be taken for the trust to be
enforceable but that dioceses can take additional
action, stating,
The several Dioceses may, at their election,
further confirm the trust declared under the
foregoing Section 4 by appropriate action, but
no such action shall be necessary for the
existence and validity of the trust.
But Texas law requires a writing signed by the
settlor or the settlor’s agent to create a trust with
regard to real property. See Tex. Prop. Code Ann.
§ 112.004; Act of Apr. 15, 1943, 48th Leg., R.S., ch.
148, § 7, 1943 Tex. Gen. Laws at 234, repealed by Act
of May 24, 1983, 68th Leg., R.S., ch. 576, §§ 6, 8, 1983
Tex. Gen. Laws at 3729-30 (rev. civ. stat. art. 7425b7). As stated above, a proposed beneficiary cannot
unilaterally name itself as the beneficiary of a trust
involving another entity’s property. See Lipsey, 983
S.W.2d at 351 n.7; Best Inv. Co., 479 S.W.2d at 763;
see also Tex. Prop. Code Ann. § 111.004(14) (defining
“settlor” as a person who creates a trust or contributes
property to a trustee of a trust; “settlor” means the
same as “grantor” and “trustor”), § 112.001 (defining
the methods of creating a trust: through a property
owner’s
declaration,
intervivos
transfer,
or
testamentary transfer, through the power of
appointment to another person as trustee for the
donee of the power or for a third person, or through a
promise to another person whose rights under the
promise are to be held in trust for a third person),
§ 112.005 (“A trust cannot be created unless there is
trust property.”); McConnell & Goodrich, 58 Ariz. L.

App-181
Rev. at 322, 335 (reasoning that “[d]enominations
cannot create a trust in favor of themselves in
property they did not previously own” and that
“[c]hurches can adopt any internal rules they wish,
but those rules do not have legal force unless they are
embodied in the forms required by state law”).
Because under Texas law, an entity that does not own
the property to be held in trust cannot establish a
trust for itself simply by decreeing that it is the
beneficiary of a trust, 84 the Dennis Canon, by itself,
did not establish a trust under Texas law, 85 and we
overrule this portion of the TEC parties’ argument.
(2) Application of Jones v. Wolf
The TEC parties also argue that regardless of the
content of our state law requirements, a trust is
enforceable by virtue of the Dennis Canon, contending
that Jones requires the enforcement of express trusts
recited in governing church documents irrespective of
state law. But in Jones, the Court merely referenced
the need for “some legally cognizable form.” 443 U.S.
at 603-04, 606, 99 S. Ct. at 3025-26, 3027. And our
supreme court has already stated, “We do not read
Jones as purporting to establish substantive property
See also Gerstenblith, 39 Am. U. L. Rev. at 566 (explaining
that implied trusts serve to obfuscate land titles and may
discourage productive use of the land because “any investment in
the property would be lost if the local entity chose to disaffiliate”).
84

85 In Masterson, the supreme court did not determine whether
the Dennis Canon imposed a trust but stated that even assuming
that it had created one, its terms did not make it expressly
irrevocable. 422 S.W.3d at 613. Based on our resolution here, we
do not reach the question of irrevocability with regard to the
Dennis Canon.

App-182
and trust law that state courts must apply to church
property disputes.” Masterson, 422 S.W.3d at 612.
That is, in Texas, the required legally cognizable form
is the one provided by our statutes and case law. 86 We
overrule this portion of the TEC parties’ argument.
Having concluded that a trust—revocable or not—was
not imposed for TEC through the Dennis Canon, we do
not reach the TEC parties’ Shellberg argument. See
Tex. R. App. P. 47.1.

The Supreme Court of Tennessee recently reviewed the two
schools of thought that interpret what the Court meant by its
“legally cognizable form” phraseology, characterizing them as the
“Strict Neutral-Principles Approach” and the “Hybrid NeutralPrinciples Approach.” See Church of God in Christ, Inc. v. L.M.
Haley Ministries, Inc., 531 S.W.3d 146, 168 (Tenn. 2017)
(observing that most neutral-principles-related litigation has
arisen “where a hierarchical religious organization includes a
provision in its constitution and/or other governing documents
providing that local church property is held in trust for the
hierarchical organization and a local church fails or declines to
include the trust provision in deeds or other documents of
conveyance”). The Tennessee court described the strict approach
as only giving effect to provisions in church constitutions and
governing documents of hierarchical religious organizations “if
the provisions appear in civil legal documents or satisfy the civil
law requirements and formalities for imposition of a trust.” Id.
(citing McConnell & Goodrich, 58 Ariz. L. Rev. at 324-25, defining
strict approach’s construction of “legally cognizable form” as
complying with the formalities of property, trust, or contract
law). The court described the hybrid approach—which the
majority of states addressing the issue have followed—as
deferring to and enforcing trust language contained in the
constitutions and governing documents even if the language
would not satisfy the civil law formalities normally required to
create a trust but recognized that Texas has adopted the strict
approach. Id. (citing Masterson, 422 S.W.3d at 611-12).
86

App-183
(3) Other Trusts
The TEC parties complain about the
misallocation of 55 properties that contain what they
describe as express trusts in favor of TEC, EDFW, and
the congregations, “with similar language” to the
following set out in their brief:
This Conveyance, however, is in trust for the
use and benefit of the Protestant Episcopal
Church, within the territorial limits of what
is now known as the said Diocese of Dallas, in
the State of Texas . . . .
But in their brief, they point to only one deed of
dubious legibility appearing in the record to support
this assertion. 87 Additionally, the TEC parties fail to
In their brief, the TEC parties do refer us to “Table E—‘In
Trust for The Episcopal Church’” appearing on 23 pages in
volume 30 of the clerk’s record. The footnote to Table E states
that it covers “Episcopal Property held in trust for The Episcopal
Church, held in trust for The Episcopal Church and its
Constituent Diocese, held in trust for a Congregation, and/or held
outright by a Congregation or a related entity but is not limited
to the properties listed in Table E.” While Table E contains
references to the Bates numbers of the joint appendix created by
the parties during the summary judgment phase in which the
deeds themselves can be found, it does not recite the trust
language at issue for any of the deeds listed therein. Rather, it
contains the legal description of each property.
87

Appellees argue in this appeal that 35 deeds that “placed title
in the bishop of Dallas ‘for the use and benefit of the Protestant
Episcopal Church, within the territorial limits of what is now
known as the said Diocese of Dallas, in the State of Texas,’”
imposed a trust for the Diocese of Dallas, not TEC, and that
EDFW and its congregations “inherited all those rights upon
division” in the 1984 judgment. They refer us to a chart in one of
the supplemental volumes of the clerk’s record that identifies

App-184
inform us as to the degree of similarity they contend
this one deed bears to the 54 others. Therefore, in our
analysis and application of the law, we will consider
only the language of (1) this deed, as discussed by the
TEC parties in their brief, which is to one of the
properties claimed by All Saints; (2) the other All
Saints deed, also discussed by the TEC parties in their
brief; and (3) any other documents related to these two
deeds.
(a) Deeds, Judgment,
Trust Language

and

(i) 1947 Warranty Deed
The snippet of language that the TEC parties
claim is similar to 54 other properties is contained in
a 1947 warranty deed transferring “[a]ll of Block 14,
Chamberlain Arlington Heights” 88 from John P. King
and J. Roby Penn to Charles Avery Mason, as Bishop
of the Protestant Episcopal Church for the Diocese of
various deeds in the joint appendix. The chart contains property
descriptions, identifies the grantee of each deed, and contains
Appellees’ opinion of whether a trust is stated in each deed, along
with their statement of which church uses the property.
We decline the parties’ invitation to parse through this
voluminous record on their behalf to confirm that the conveyance
instruments for 35-55 properties contain “similar language” and
do or do not create trusts. See Rogers v. Ricane Enters., Inc., 772
S.W.2d 76, 81 (Tex. 1989) (“[A] general reference to a voluminous
record which does not direct the trial court and parties to the
evidence on which the movant relies is insufficient.”). In light of
our disposition below, the parties will have the opportunity to
sort out and present these arguments to the trial court on
remand.
88 This corresponds to the All Saints property at 5001 Crestline
(sanctuary).

App-185
Dallas, his successors, and assigns, “for and in
consideration of the sum of” $5,000. This deed states,
in pertinent part,
TO HAVE AND TO HOLD, all and singular
the above described premises until the said
CHARLES AVERY MASON, as aforesaid, his
successors in said office of Bishop aforesaid
and his and their assigns forever, upon
condition and in trust, however, for the
purposes declared and set forth.
....
It being expressly agreed between the
grantors aforesaid and the grantee aforesaid,
and binding upon his successors in office and
assigns, that the above described land shall
be used only for the building site of a church
and/or for the erection of buildings
appertaining to a church, subject however to
the following conditions . . . .
....
This Conveyance, however, is in trust for the
use and benefit of the Protestant Episcopal
Church, within the territorial limits of what[]
is now known as the Diocese of Dallas, in the
State of Texas, and for this purpose the said
CHARLES AVERY MASON, as aforesaid,
and his successors in office, shall hold, use,
improve, manage and control the above
described property in such manner as to him
or them, may seem best for the interest of said
Church within said Diocese. And

App-186
the said CHARLES AVERY MASON, as
aforesaid, and his successors in office, shall
have, and by these presents, do have, the
right, power, and authority, whenever it may
to him or them seem best for the interest of
said Church within said Diocese so to do,
lease, mortgage, sell and otherwise encumber
or dispose of the aforesaid premises, upon
such terms, for such prices and in such
manner as to him or them may seem best.
And for this purpose he or they may make,
execute and deliver all such leases,
mortgages, deeds of trust, deeds and other
written instruments, as the circumstances of
the case may render necessary and expedient.
But neither the said CHARLES AVERY
MASON nor anyone else shall ever have any
right, power or authority during the
continuance of this trust to in anywise
encumber or create a lien upon or any liability
against the above described premises except
by an instrument in writing expressly giving
a lien upon said premises, and duly signed
and acknowledged by the said CHARLES
AVERY MASON, as aforesaid, or by someone
of his successors in said office of Bishop.[89]
And in the event of death, resignation,
suspension, deposition or removal from office
for any cause of any Bishop in whom may at
the time of such death, resignation,
89 See, e.g., McConnell & Goodrich, 58 Ariz. L. Rev. at 342-43
(“Placing title in a denominational official ensures that the
property will always remain within the denomination.”).

App-187
suspension, deposition or other removal from
office, be vested the title to the above described
premises, as trustee under this instrument,
then, and in that event, the senior Bishop of
the Protestant Episcopal Church in the United
States of America shall be held and deemed to
be, for the purpose of sustaining and
p[e]rp[e]tuating this trust, the successor in
office of said Bishop, until vacancy shall have
been regularly filled; provided, however, that
said senior Bishop of the Protestant Episcopal
Church in the United States of America shall
have no power while thus temporarily holding
the title as trustee to the above described
property to sell, mortgage, lease or in any
manner encumber or dispose of said property.
[Emphasis added.]
(ii) 1950 Warranty Deed
The record also contains the June 1950 deed for
5003 Dexter, the other All Saints property, which
Robert McCart Jr., his wife Alice W. McCart, Fannie
Belle Hackney, her husband T.E.D. Hackney, and
John Lee McCart conveyed to C. Avery Mason,
“Bishop of the Protestant Episcopal Church, Diocese
of Dallas, in the State of Texas, and his successors in
office” for $4,000. It contains no trust language.
(iii) 1984 Judgment
The 1984 judgment transferred legal title to both
properties to the Corporation. In the 1984 judgment,
the trial court stated,
[L]egal title to the following real and personal
property shall be as follows . . . [w]ith respect
to the Diocese of Fort Worth, title to the

App-188
following assets and property shall be vested
by
this
declaratory
judgment
in
Corporation . . . [a]ll real property which as of
December 31, 1982, stands in the name of
Episcopal Diocese of Dallas or in the name of
any of its Bishops as Bishop of Dallas,
including . . . Bishop
Charles
Avery
Mason . . . which is physically located within
the Count[y] of . . . Tarrant . . . described on
Exhibit B attached hereto and incorporated
herein by reference . . . .
The trial court further stated, “Nothing in this
judgment shall be deemed to deal with, or otherwise
affect, properties, real or personal, disposed of under
testamentary or inter vivos gift executed or effective
prior to December 31, 1982, which bequest is to the
Diocese of Dallas or the Bishop thereof.”
(iv) EDFW’s
Constitutional and
Canonical
Trust
Provisions
EDFW’s constitution states that title to all real
property acquired “for the use of the Church in this
Diocese,” including the real property of all parishes,
missions, and diocesan institutions, shall be held
“subject to control of the Church in the[90] Episcopal
Diocese of Fort Worth acting by and through a
corporation known as ‘Corporation of the Episcopal
Diocese of Fort Worth.’” The Corporation is to hold real
90 By 2006, the word “the” was capitalized, reciting that the
property would be held “subject to control of the Church in The
Episcopal Diocese of Fort Worth.”

App-189
property acquired for the use of a particular parish or
mission in trust for that parish or mission’s use and
benefit, but if that mission or parish were to dissolve,
the property would revert to the Corporation for
EDFW’s use and benefit.
EDFW’s canon 18.2 (previously canon 12.4),
revised in 1989, provides that real property acquired
by the Corporation for the use of a particular parish,
mission, or diocesan school would be held in trust for
the use and benefit of such entities and that it was
“immaterial whether said acquisition is by conveyance
to the Corporation by a Parish, Mission or Diocesan
School now holding title, by the Bishop now holding
title as a corporate sole, by a declaratory judgment
upon division from the Diocese of Dallas, or by
subsequent conveyance to the Corporation, so long as
such property was initially acquired by a Parish,
Mission or Diocesan School by purchase, gift or devise
to it, as a Parish, Mission or Diocesan School.” Canon
18.4, added by 1989, states that all other property of
the Corporation held for EDFW is held for exempt
religious purposes—as defined by the Internal
Revenue Code and determined by EDFW’s convention
“and the appropriate officers elected by it.” 91
Since EDFW’s inception, under EDFW’s canons, a
parish can organize a corporation “to use in connection
with the administration of its affairs,” but it is “merely
an adjunct or instrumentality,” because the parish
itself, “being the body in union with Convention, shall
not be incorporated. “The adjunct corporation “shall
91 Pursuant to the 1989 revisions, section 18.4 also expressly
disclaims any beneficial interest for TEC.

App-190
not hold title to real estate acquired for the use of the
Church in the Diocese, which title must be vested and
dealt with in accordance with the provisions” in
EDFW’s constitution.
(v) All Saints Episcopal
Church, Inc.
All Saints Episcopal Church incorporated an
entity, and in its 1991 bylaws, it added a clause as
follows with regard to property:
All real and personal property held by or for
the benefit of All Saints’ Episcopal Church is
held in trust for The Episcopal Church and
the Diocese thereof in which the Church is
located. The existence of this trust, however,
shall in no way limit the power and authority
of All Saints’ Episcopal Church otherwise
existing over such property so long as the
Church remains a part of, and subject to The
Episcopal Church General Convention
Constitution and Canons. Title I, Canon 7,
Section 4 [the Dennis Canon] of the General
Convention Canons is hereby ratified and
confirmed in its entirety. [Emphasis added.]
These amendments were signed by All Saints’s clerk
and rector. All Saints subsequently deleted the last
sentence, “Title I, Canon 7, Section 4 of the General
Convention Canons is hereby ratified and confirmed
in its entirety,” in 2001, but the remainder went
unchanged.

App-191
(b) Identification of
Beneficiaries
(i) Other
Summary
Judgment Evidence
We have previously set out the history of TEC’s
presence in Texas, beginning in 1849 with the
formation of the Diocese of Dallas, which gave birth to
EDFW, which in 1982 received approval from TEC
and acceded to TEC’s constitution and canons.
(A) TEC’s Constitution
and Canons
There was no substantive change in TEC’s
relevant constitutional and canonical provisions
between 1979 and 2006. The preamble to TEC’s
constitution states that the association’s name is the
Protestant Episcopal Church in the United States of
America, “otherwise known as The Episcopal Church
(which name is hereby recognized as also designating
the Church).” The constitution also sets out the
method that EDFW followed in becoming a TEC
diocese. Other provisions explain how two dioceses can
be reunited into one (essentially, the dissolution of one
of two dioceses into its originating diocese) and that
for missionary dioceses outside the territory of the
United States of America, TEC’s presiding bishop can
consult “with the appropriate authorities in the
Anglican Communion” and “take such action as
needed for such Diocese to become a constituent part
of another Province or Regional Council in communion
with” TEC. There is no corresponding provision in
TEC’s constitution and canons for a diocese—
missionary or not—within the United States to
separate from TEC.

App-192
Although the Dennis Canon did not set forth a
valid express trust under Texas law, its language
provides some indication of how TEC views Church
property: parish property is held for “this Church and
the Diocese thereof in which such Parish, Mission or
Congregation is located.” Likewise, TEC’s canons
provide that “[n]o Church or Chapel shall be
consecrated until the Bishop shall have been
sufficiently satisfied that the building and the ground
on which it is erected are secured for ownership and
use by a Parish, Mission, Congregation, or Institution
affiliated with this Church and subject to its
Constitution and Canons.”
(B) EDFW’s Constitution
and Canons
(I) EDFW’s
Geographic
Description
EDFW’s constitution and canons, as adopted by
conventions from 1982 to 2006, included the following
geographic description of EDFW:
The Diocese of Fort Worth shall consist of
those Clergy and Laity of the Episcopal
Church in the United States of America
resident in that portion of the State of Texas
including the twenty-three (23) Counties of
Archer, Bosque, Brown, Clay, Comanche,
Cooke, Dallas (only that portion of the County
that includes the City of Grand Prairie),
Eastland, Erath, Hamilton, Hill, Hood, Jack,
Johnson, Mills, Montague, Palo Pinto,
Parker, Somervell, Stephens, Tarrant,
Wichita, Wise, and Young.

App-193
This provision was
constitution and canons.

omitted

in

the

2008

Pursuant to the 1982 constitution, every
parish and mission in EDFW in existence at
the time of the organization of the Diocese and
every Parish and Mission which shall have
been created and admitted in accordance with
the Constitution and Canons of this Diocese,
shall be deemed to be in union with and
entitled to representation in the Convention
of the Diocese, unless deprived of such right
either through suspension or dissolution.
[Emphasis added.]
By 2006, the provision about existence at the time of
EDFW’s organization had been deleted and was
modified to read, “Every Parish and Mission which
shall have been created or admitted in accordance
with the Constitution and Canons of this Diocese . . . .”
[Emphasis added.] There was no substantive change
between 2006 and 2008 as to the definition of who
would be considered “in union with” EDFW.
(II) 1982
On November 13, 1982, “pursuant to the approval
of the 67th General Convention of The Episcopal
Church,” EDFW acceded to TEC’s constitution and
canons and adopted its own constitution and canons.
The preamble of that constitution states, “We, the
Clergy and Laity of the Episcopal Church, resident in
that portion of the State of Texas, constituting what is
known as the Episcopal Diocese of Fort Worth, do
hereby ordain and establish the following
constitution[.]” The original governing EDFW
documents consisted of 18 articles and 39 canons.

App-194
They set out recognition of the authority of TEC’s
General Convention by “The Church in this Diocese,”
and set out governing procedures for EDFW’s
conventions, its annual meeting, voting, 92 and
amending the constitution. 93 Canons that were “not
inconsistent” with the diocesan convention or with
TEC’s constitution and canons could be adopted,
altered, amended, or repealed at any annual
convention by a majority vote, subject to notice
requirements. We have already set out above the
constitutional and canonical provisions dealing with
real property.
(III) 2006
By 2006, over two decades later, EDFW’s
constitution increased from 18 to 19 articles, and its
number of canons increased to 42. There was no
change to the preamble, but the first article,
“Authority of General Convention,” was modified to
state,
The Church in this Diocese accedes to the
Constitution and Canons of The Episcopal
Church, and recognizes the authority of the
General Convention of said Church provided
that no action of General Convention which is
The constitution provided for majority rule “[u]nless a vote
by orders is determined or required or otherwise provided by the
Constitution or Canons” or where the constitution or canons
require a two-thirds vote.
92

93 The constitution provided for majority vote in the first year
of the constitutional amendment’s consideration by the annual
convention, and then a concurrent majority of the vote of both
orders in the second year of its consideration by the annual
convention.

App-195
contrary to Holy Scripture and the Apostolic
Teaching of the Church shall be of any force
or effect in this Diocese. [Emphasis added.]
Additionally, the article on canons saw a rephrasing
that allowed greater latitude in EDFW’s discretion,
from the earlier, “Canons not inconsistent with this
Constitution, or the Constitution and Canons of the
General Convention, may be adopted, altered,
amended, or repealed at any Annual Convention by a
majority vote of the Convention,” to “Canons
consistent with this Constitution, and the Constitution
and Canons of the Episcopal Church, may be adopted,
altered, amended, or repealed at any Annual
Convention by a majority vote of the Convention.”
[Emphasis added.]
(IV) 2008
In 2008, EDFW’s constitution retained 19 articles
but the number of canons increased from 42 to 44, and
the diocese’s geographic description was deleted. The
constitution and canons were significantly modified,
beginning with the preamble, from the original, “We,
the Clergy and Laity of The Episcopal Church,
resident in that portion of the State of Texas,
constituting what is known as The Episcopal Diocese
of Fort Worth,” from 1982-2006, to “We, the Clergy and
Laity of The Episcopal Diocese of Fort Worth.”
[Emphasis added.]
Article 1, previously “Authority of General
Convention,” was replaced with “Anglican Identity,”
stating,
The Episcopal Diocese of Fort Worth is a
constituent member of the Anglican
Communion, a Fellowship within the Only

App-196
Holy Catholic and Apostolic Church,
consisting of those duly constituted Dioceses,
Provinces and regional Churches in
communion with the See of Canterbury,
upholding and propagating the historic Faith
and Order as set forth in the Old and New
Testaments and expressed in the Book of
Common Prayer. [Emphasis added.]
Article 18, “Canons,” was amended to delete reference
to the Constitution and Canons of TEC’s General
Convention. 94 Most of EDFW’s canons that contained
references to “The Episcopal Church in the United
States of America” were amended to remove those
references, 95 although the express denial of a
The new provision stated, “Canons consistent with this
Constitution may be adopted, altered, amended, or repealed at
any Annual Convention of the Episcopal Diocese of Fort Worth
by a majority vote of the Convention.”
94

For example, whereas the 2006 canons on missions and new
parishes required in the application to join EDFW that aspirant
members of missions or parishes “promise to abide by and to
conform to the Constitution and Canons of the General
Convention, and of the Diocese of Fort Worth,” the 2008 canons
required that they “promise to abide by and to conform to the
Constitution and Canons of the Episcopal Diocese of Fort Worth.”
The annual parochial report that every parish and mission was
required to prepare “upon the form provided by The Executive
Council of The Episcopal Church in the United States of America”
was changed in the 2008 amendments to “upon the form provided
by The Episcopal Diocese of Fort Worth.” The 2006 canons
provided that books and accounts in every congregation in EDFW
“shall conform to THE MANUAL OF BUSINESS METHODS IN
CHURCH AFFAIRS of The Episcopal Church in the United
States of America.” This requirement was changed in 2008 to
require conformance “to generally accepted accounting
principles.”
95

App-197
beneficial interest in TEC in property held by the
Corporation in canon 18 was retained. 96 A new
constitutional article was added to provide for
deputies or delegates to “extra-diocesan conventions
or synods.” Canon 32, previously entitled “Controversy
between Rector and Vestry,” was amended to cover
controversies “between a Parish and the Diocese.”
The record reflects that on three occasions during
2008—January 9, February 12, and September 8—
Bishop Iker and the standing committee presented
reports to EDFW on the constitutional and canonical
implications and means of becoming a member diocese
of the Anglican Province of the Southern Cone. The
third report recommended that EDFW affiliate with
the Anglican Province of the Southern Cone as a
member diocese “until such time as an orthodox
Province of the Anglican Communion can be
established in North America.” Bishop Iker likewise
issued a statement entitled, “10 Reasons Why Now Is
the Time to Realign,” which included observing that
Article 17, “Election of Bishops and Calling of an Assistant
Bishop,” in an apparent oversight, continued to provide that the
bishop “may call an Assistant Bishop in accordance with the
Constitution and Canons of the Episcopal Church.” [Emphasis
added.] The standing rules of procedure of the annual convention
with regard to appointments, in another apparent oversight,
continued to provide that
96

The Bishop shall have the authority to appoint all
Board members, Trustees, Committee members, and
fill other positions which are not required to be elected
or otherwise selected by the Constitution or Canons of
the Episcopal Church in the United States of America,
the Constitution or Canons of the Diocese of Fort
Worth or any other lawful authority. [Emphasis
added.]

App-198
“[a]t this time there is nothing in the Constitution or
Canons of TEC that prevents a Diocese from
leaving . . . [s]o we have this window of opportunity to
do what we need to do” before TEC’s General
Convention could adopt amendments making it more
difficult to separate.
(ii) Associations
Law
versus Identity
(A) The
Arguments

Parties’

The TEC parties apply a macro-level approach to
the associative relationship between TEC and EDFW
by arguing that the First Amendment forbids us from
overriding TEC on the question of who can represent
an Episcopal diocese or congregation and that under
associations law, only the TEC parties are entitled to
control EDFW. That is, the TEC parties view
Appellees’ claimed disaffiliation as void under the
larger association’s rules and the General
Convention’s determination that the alleged
disaffiliation was a nullity. They also argue that the
All Saints properties are held in trust for TEC and for
the All Saints Church affiliated with TEC.
Appellees respond that this is not an ecclesiastical
dispute and claim that “[s]ince a dispute about the
officers of a Texas corporation is not ecclesiastical,
then a dispute about the officers of a Texas
unincorporated association isn’t either.” They also
argue that the highest authority on property issues—
within or outside of TEC—is the local bishop, not
TEC’s administrative officers, reciting terminology
from TEC’s Canons, Title IV, “Ecclesiastical
Discipline,” which defines “ecclesiastical authority” as

App-199
the diocese’s bishop or standing committee “or such
other ecclesiastical authority established by the
Constitution and Canons of the Diocese.”
Appellees further argue that “[t]he founders of
TEC had made similar solemn engagements to the
Church of England—but they certainly didn’t forfeit
church property in America when those churches
separated.” 97 And they argue, “[N]one of the property
documents incorporate religious tests, and neither
side has asked the courts to decide who can lead
worship or attend church conventions,” nor have the
courts been asked “to decide who can lead any
religious body, or whether dioceses can withdraw from
TEC.” 98
Appellees point out that Texas law dictates how
the association’s and corporation’s officers can be
elected or replaced, and Texas law governs the
Corporation’s and EDFW’s amendments to drop any
reference to TEC. Appellees rely on the Corporation’s
holding legal title and their defendant-congregations
holding beneficial title based on their union with the
diocesan convention. They argue: (1) EDFW’s
constitution and canons define missions and parishes
Appellees conveniently ignore the revolutionary reason for
the separation and the geopolitical and logistical complexity in
the 1700s that recuperating such property would have entailed.
97

As noted by the court in Diocese of San Joaquin, we do not
have to decide whether a diocese can leave TEC to resolve this
property-based dispute. See 202 Cal. Rptr. 3d at 63-64. And per
Westbrook, we cannot decide whether a diocese can leave TEC.
See 231 S.W.3d at 403 (referring to the spirit of freedom for
religious organizations “even if that freedom comes at the
expense of other interests of high social importance”).
98

App-200
as unincorporated associations in union with the
diocesan convention; those not “in union” are not
entities for which the Corporation holds property and
those “in union” are those who send delegates to the
convention’s annual meeting; (2) Texas law makes
EDFW’s constitution and bylaws controlling, and the
annual convention elected Bishop Iker and opted to
disaffiliate; and (3) TEC’s “newly formed” diocese did
not inherit the property of the existing diocese simply
by adopting the same name. 99
The TEC parties reply that Appellees’ own theory
concedes that the neutral principles analysis
establishes legally-enforceable trusts for EDFW and
its congregations, which leads to the ecclesiastical
question of who may control these religious entities
and puts the case squarely within the exception
Masterson and Episcopal Diocese detailed (i.e.,
ecclesiastical structure determines property dispute).
They further argue that the All Saints properties are
in trust for the TEC-affiliated All Saints based on All
Saints’s governing documents, particularly the All
Saints 2001 bylaws.

Perhaps learning from other dioceses’ experience, one of
Appellees’ theories appears to be “Keep the name, keep the stuff.”
See Diocese of San Joaquin, 202 Cal. Rptr. 3d at 66-67 (holding
attempts to transfer property from The Protestant Episcopal
Bishop of San Joaquin to The Anglican Bishop of San Joaquin
invalid). They also argued in the trial court that turning churches
over to congregations that do not use them would violate the
express trust in EDFW’s charters for the benefit of those who
actually use them and that to hold against them would unjustly
enrich a minority group “too small to impose its will” during the
schism.
99

App-201
(B) Analysis
We must initially determine whether this is an
associations-law question or an identity question. 100
To do so, we must look at the substance and effect of
the TEC parties’ live pleading. In their live pleading,
the TEC parties intermingled a number of claims
seeking legal and equitable relief with others seeking
relief based on doctrine and internal procedures. Some
of their claims, particularly as beneficiaries of trusts—
as set out above—are claims that we may legitimately
consider in our neutral-principles review. Based on
the above, we have determined that there is a question
about who is the “Protestant Episcopal Church, within
the territorial limits of what is now known as the said
Diocese of Dallas, in the State of Texas,” referred to in
the 1947 deed.
With that in mind, we note that our supreme court
has already identified TEC as a hierarchical
organization and has stated that whether TEC’s
appointed bishop can take such actions as forming a
parish, recognizing membership, and authorizing the
If it is an identity question—i.e., whether Appellees are
“Episcopal” (capital-E) or merely “episcopal” (lowercase-e) as
pertains to “of, being, or suited to a bishop,” see episcopal,
Webster’s 3rd New Int’l Dictionary 764 (3rd ed. 2002)—then the
First Amendment bars our consideration of this religious issue
within the limits set out by U.S. Supreme Court jurisprudence.
Webster’s second definition of “episcopal” has two parts: (a) “of,
advocating, or governed by an episcopacy,” and (b) “of or relating
to the Protestant Episcopal Church or the Episcopal Church in
Scotland.” Id. at 764-65. Webster’s defines “episcopalian” as
(1) an adherent to the episcopal form of church government and
(2) “a member of an episcopal church (as the Protestant Episcopal
Church).” See id. at 765.
100

App-202
establishment of a vestry “are ecclesiastical matters of
church governance” over which the court lacks
jurisdiction. Masterson, 422 S.W.3d at 608. Our
supreme court has also acknowledged that TEC’s
appointed bishop could, “as an ecclesiastical matter,
determine which faction of believers was recognized
by and was the ‘true’ church loyal to the Diocese and
TEC.” Id. at 610. TEC has recognized the TEC parties
as the Episcopal Diocese of Fort Worth.
And
notwithstanding
any
ecclesiastical
implications, where the internal actions of TEC and
EDFW are not illegal in the nonecclesiastical sense,
fraudulent, against public policy, or a threat to public
health and safety, judicial review of these actions
would be improper. See Westbrook, 231 S.W.3d at 392,
402, 404; Whitmire, 2009 WL 2196126, at *4-5;
Harden, 634 S.W.2d at 59-60. One of the questions
before us, then—to the extent we can consider it—is
whether this record reflects that their actions were
illegal, against public policy, fraudulent, or a threat to
public health and safety, or whether, instead, they
were proper actions that were permissible and binding
on their members under their internal rules. To the
limited extent that we can consider these
organizations’ internal actions, we do not think that
the record affirmatively reflects any activities that
were per se illegal in a nonecclesiastical sense or
against public policy, fraudulent, or against public
health and safety.
Although Appellees argue that under state
associations law they were within their rights to
remove the diocese and diocesan property from TEC,
such law applies to the rules used by associations to

App-203
regulate, within legal limits, their own internal
affairs, not to the question of an association’s identity.
Compare Juarez, 172 S.W.3d at 279 (private
association’s right to govern its affairs), with Jones,
443 U.S. at 604, 99 S. Ct. at 3026 (stating that if the
interpretation of an ownership instrument requires
resolution of a religious controversy, the court must
defer to resolution of the doctrinal issue by the
authoritative ecclesiastical body), and Westbrook, 231
S.W.3d at 398, 400 (quoting Minton, 297 S.W. at 62122, to explain why courts must decline jurisdiction
over disputes concerning church membership and
holding that while neutral principles may define a
dispute, their application may impinge on a church’s
ability to manage its internal affairs). Further, their
assertion ignores the fact that EDFW was part of the
larger, hierarchical association and subject to the
larger association’s constitution and canons until
disaffiliation. 101
Under associations law, while the members of
EDFW were within their rights to modify their
governing documents however they saw fit as long as
they did so by following their own internal rules,
EDFW was also a member entity of a larger
association, and its actions in modifying its governing
documents directly conflicted with the larger
association’s governing documents. When it defied the
governing strictures of the association of which it was
101 Representatives from each parish and mission voted in
EDFW’s conventions; EDFW representatives, until 2008, voted
in TEC conventions. TEC set up rules over EDFW, and EDFW
set up rules over parishes, missions, and other congregations,
which were also governed by TEC’s rules until 2008.

App-204
a member, and particularly when it declared itself
apart from that organization, it lost its identity as a
part of that larger association. 102 See Green, 808
S.W.2d at 550-51 (listing factors courts consider to
identify whether a church is hierarchical); Templo
Ebenezer, Inc., 752 S.W.2d at 198 (distinguishing
hierarchical churches from congregational churches
based
on
the
congregational-type
church’s
independence and ability to “totally control[] its own
destiny”).
TEC’s dioceses are members of TEC, identified by
the dioceses’ accession to TEC’s governing rules, just
as parishes simultaneously accede both to TEC’s
governing rules and to their governing diocese’s rules.
Individual members of a parish may decide to worship
elsewhere; a majority of individual members of a
parish or diocese may decide to do so. But when they
leave, they are no longer “Episcopalians” as identified
by TEC; 103 they become something else. And that
something else is not entitled to retain property if that
property, under the terms of the deed, is held in trust
for a TEC-affiliated diocese or congregation. By
rejecting TEC, Appellees also rejected any claim to
items and property affiliated with TEC or with being
a TEC-affiliated diocese to the extent that the
instruments of ownership spell out an express
interest. While a decision to disaffiliate is an
The obedience or disobedience of TEC to an even larger
body—the Anglican Communion—is not a question before us and
not one that we could address even if it were.
102

103 Under article V of TEC’s constitution, there are only three
ways to create a new diocese, voiding Appellees’ argument that
the TEC-affiliated diocese is a “new” diocese.

App-205
ecclesiastical matter, what happens to the property is
not, unless the affairs have been ordered so that the
ecclesiastical decisions effectively determine the
property issue, see Masterson, 422 S.W.3d at 607, and
the macro-level view of the associations’ relationship
is consistent with the deference we are required to give
to the ecclesiastical determination by a hierarchical
church. See id. (“Civil courts are constitutionally
required to accept as binding the decision of the
highest authority of a hierarchical religious
organization to which a dispute regarding internal
government has been submitted.”).
The plain language of the 1947 deed sets forth a
trust with the identified beneficiary as “the Protestant
Episcopal Church” as it was located within the
territorial limits of what was formerly the Diocese of
Dallas. As set out above, it was within those territorial
limits that the Diocese of Dallas gave birth to EDFW.
From the various documents in the record of this case,
the “Protestant Episcopal Church” identified in the
deed at the time of the deed’s making is TEC, thus
making TEC’s local Fort Worth affiliate the
beneficiary of the trust. That is, the trust did not make
TEC itself the beneficiary; rather, by its language, the
trust identified the diocese affiliated with TEC as
located within that territory as the beneficiary. This is
most clear when considering that the 1984 judgment
did not actually touch the property’s equitable title,
which was vested in the Church in a diocese whose
name and geographic configuration might change as,
anticipated since 1910, the giant Diocese of Dallas
would—and subsequently did—pursuant to its
division into two TEC dioceses. TEC continues to exist
and has identified its affiliate within the territory. See

App-206
Episcopal
Diocese,
422
S.W.3d
at
652
(“[D]etermination of who is or can be a member in good
standing of TEC or a diocese is an ecclesiastical
decision.”).
Plugging these answers into our flow chart leads
us to the conclusion that the TEC-affiliated EDFW
holds the equitable interest under the 1947 deed. 104
That is, because there is a question about who is “the
Protestant Episcopal Church, within the territorial
limits of what is now known as the Diocese of Dallas,”
we must ask whether TEC is a hierarchical church.
Because our supreme court has already determined
that TEC is a hierarchical church, see Masterson, 422
S.W.3d at 608, we must defer to TEC’s identification
of its affiliated diocese when no claim of fraud or
collusion for secular purposes, or a threat to public
health and safety, has been raised.

Although EDFW’s canon on real property purported to
create a trust on real property acquired by the Corporation “for
the use of a particular parish or mission,” neither the 1947 deed
nor the canon itself identifies All Saints as the beneficiary of the
trust, and there is no indication that the property “was initially
acquired by” All Saints Parish “by purchase, gift or devise to it”
as a parish. Accordingly, no trust was expressly created for All
Saints by EDFW in its governing documents.
104

App-207

App-208
As to the 1947 deed presented to us for review, we
cannot say—because we may not delve into questions
of theology—whether the group that left TEC shares
the same beliefs as the original EDFW’s membership
at the time of the deed. We may not consider the
religious beliefs of anyone when making a legal
determination under neutral principles. See Jones,
443 U.S. at 604, 99 S. Ct. at 3026 (stating that when
the deed incorporates religious concepts in the
provisions relating to the ownership of property, if the
interpretation of the ownership instrument requires
the court to resolve a religious controversy, “then the
court must defer to the resolution of the doctrinal issue
by the authoritative ecclesiastical body”); Presbyterian
Church, 393 U.S. at 450, 89 S. Ct. at 606-07 (stating
that the First Amendment forbids civil courts from
considering whether general church’s actions
constitute a substantial departure from the tenets of
faith and practice existing at the time of the local
churches’ affiliation); Brown, 116 S.W. at 364-65
(“[T]he church to which the deed was made still owns
the property, and . . . whatever body is identified as
being the church to which the deed was made must
still hold the title.”); cf. Diocese of Quincy, 2014 IL App
(4th) 130901, ¶ 47, 14 N.E.3d at 1256 (concluding
deference does not apply when hierarchical structure
is not discernible). All we have done here is apply the
binding precedent of the United States and Texas
Supreme Courts to the plain language of the
instruments of title.
As to the 1950 deed, although EDFW attempted
to impose a trust for All Saints in its governing
documents, per Masterson, based on the plain
language of the deed and the 1984 judgment, the

App-209
Corporation holds both legal and equitable title to this
property. See 422 S.W.3d at 610 (“Under neutral
principles of law, the deeds conveying the property to
Good Shepherd corporation ‘expressed no trust nor
limitation upon the title,’ and therefore the
corporation owns the property.”). As such, EDFW
could not declare itself or anyone else as the
beneficiary of property to which it held neither a legal
nor equitable interest. 105 See Lipsey, 983 S.W.2d at
351 n.7; Best Inv. Co., 479 S.W.2d at 763.
We sustain the TEC parties’ subissues 1(a) and
1(b) and part of subissue 1(c), and we sustain TEC’s
sole stand-alone issue with regard to whether the trial
court erred as a matter of law in its application of
neutral principles by failing to defer to TEC’s
ecclesiastical determination of which entity
constitutes EDFW.
(c) Adverse Possession
Appellees argue that 1989’s canon 18 expressly
disclaimed any beneficial interest for TEC and that
because EDFW was a separate legal entity controlled
by its own convention, TEC’s claim for a trust interest
was barred by limitations. But we have already held
that TEC has no trust interest in the two properties at
issue.
With regard to a trust interest by the remaining
TEC parties, until 2008, when Appellees formally
105 All Saints likewise attempted to impose a trust on this
property for EDFW and TEC, but it held no interest that would
have allowed it to do so. Further, it did so through its
incorporated entity, which also held neither a legal nor an
equitable interest. Therefore, its attempted trust also failed.

App-210
severed ties to TEC, Appellees’ possession of the
properties was not adverse—“hostile,” under a claim
of right inconsistent with another’s claim—to them.
See Tex. Civ. Prac. & Rem. Code Ann. § 16.021(1)
(West 2002). Accordingly, the trial court erred by
granting summary judgment for Appellees on the two
pieces of property at issue if it granted summary
judgment on this basis, and we sustain the TEC
parties’ subissue 1(i).
(d) Conclusion
To avoid delving into ecclesiastical matters—
considerations forbidden to us by the First
Amendment and U.S. Supreme Court and Texas
Supreme Court precedent—we conclude that the
Corporation holds the property identified in the 1947
deed in trust for the TEC-affiliated EDFW and holds
legal and equitable title to the property identified in
the 1950 deed. We sustain the TEC parties’ subissue
1(e) as it relates to the 1947 deed and their subissue
1(k) as to the 1947 deed and remand this portion of the
case for reconsideration of the other deeds containing
the language “similar” to that identified above.
3.

Control of the Corporation

We must now determine who controls the
Corporation. 106 As stated by the supreme court in
Masterson, the principles set out in our business
organizations code govern because the Corporation
“was incorporated pursuant to secular Texas
corporation law and Texas law dictates how the
corporation can be operated, including how and when
106 This issue will determine standing for the ownership issue
as to the 1950 deed.

App-211
corporate articles and bylaws can be amended and the
effect of the amendments.” 422 S.W.3d at 613; see Tex.
Bus. Orgs. Code Ann. §§ 1.002(59), 22.001(3); see also
id. § 2.002(1) (West 2012).
a.

The Corporation’s
and Governance

Formation

(1) Articles and Bylaws
As set out in our factual recitation, the
Corporation’s articles of incorporation were filed in the
Texas Secretary of State’s Office on February 28, 1983,
and established that the Corporation’s purpose was
“[t]o receive and maintain a fund or funds or real or
personal property, or both, from any source including
all real property acquired for the use of the Episcopal
Diocese of Fort Worth as well as the real property of all
parishes, missions and diocesan institutions.”
[Emphasis added.] Property held by the Corporation
was to be “administered in accordance with the
Constitution and Canons of the Episcopal Diocese of
Fort Worth as they now exist or as they may hereafter
be amended.” The Corporation’s articles also set out
that its bylaws would address the election of its board
of directors and their terms of office.
The 1983 bylaws specified that the Corporation’s
affairs would be “conducted in conformity with the
Constitution and Canons of the Episcopal Church in
the United States of America and the Constitution and
Canons of the Episcopal Diocese of Fort Worth, as they
may be amended or supplemented from time to time
by the General Convention of the Church or by the
Convention of the Diocese,” and that any conflict
between the bylaws and the constitution and canons

App-212
would be resolved in favor of the constitution and
canons.
With regard to the number, election, and term of
office of trustees for the “Diocesan Corporation,” the
bylaws provided for EDFW’s bishop to be the
chairman, plus five elected trustees serving five-year
terms, with one trustee to be elected every year at the
annual convention. Each of the elected trustees would
serve until his successor’s election and qualification or
“until his death, resignation, disqualification or
removal.” The bylaws specified that to be qualified, a
trustee “may be either lay persons in good standing of
a parish or mission in the Diocese of Fort Worth, or
members of the Clergy canonically resident within the
Diocese.” Any trustee at that time could be removed
by EDFW’s bishop. The bylaws also provided for
amendment “by the affirmative vote of a majority of
the total number of Trustees at any regular or special
meeting of the Board, if notice of the proposed change
is included in the notice of such meeting.”
The 2006 bylaw amendments provided that the
Corporation’s affairs
shall be conducted in conformity with the
body now known as the Episcopal Diocese of
Fort Worth’s acknowledgment of and
allegiance to the One, Holy, Catholic and
Apostolic Church of Christ; recognizing the
body known as the Anglican Communion to
be a true branch of said Church; with all
rights and authority to govern the business
and affairs of the Corporation being solely in
the board of trustees (as hereinafter defined,

App-213
the “Board”) of the Corporation. [Emphasis
added.]
This amendment deleted prior reference to “the
Constitution and Canons of the Episcopal Church in
the United States of America and the Constitution and
Canons of the Episcopal Diocese of Fort Worth.”
A new section was added to facilitate
identification of the EDFW bishop as chairman of the
board, stating, in pertinent part, “The bishop
recognized by the body now known as the Episcopal
Diocese of Fort Worth (the “Bishop”) shall be a trustee
and a member of the Board.” [Emphasis added.]
There was no change to the number, election, or
term of office for trustees other than to clarify that the
trustees, who were elected at a rate of one per annual
meeting, could be either lay persons in good standing
of a parish or mission “in the body now known as the
Episcopal Diocese of Fort Worth” or members of the
clergy “canonically resident within the geographical
region of the body now known as the Episcopal Diocese
of Fort Worth.” [Emphasis added.] The rest of the
sections remained substantively unchanged except for
the section pertaining to removal of trustees—while
the previous section provided that any trustee could
be removed by the bishop, the amended section stated
that any elected trustee could be removed by a
majority of the remaining members of the board.
The Corporation’s September 2006 amended and
restated articles of incorporation deleted the portion of
the earlier article with regard to real property
acquired for the use of the diocese, parishes, missions,
and diocesan institutions and stated that the
Corporation was organized “[t]o receive and maintain

App-214
a fund or funds or real or personal property, or both,
from any source.” The articles were also amended to
delete reference to EDFW’s constitution and canons
with regard to the administration of the property held
by the Corporation. The articles incorporated the
same provision as the amended bylaws to identify the
Corporation’s chairman.
(2) Corporate Records

Virden, who had been the Corporation’s secretary
since 1983, averred in his affidavit that he was the
custodian of the Corporation’s business records. He
sponsored excerpts from the Corporation’s official
minutes, which showed that on August 15, 2006, the
board of trustees voted to amend the Corporation’s
articles and bylaws. Between February 1, 2005 and
2014, the record reflects no change in the Board’s
composition of Bishop Iker, Salazar, Patton, Bates,
Barber, and Virden. None of the Corporation’s
minutes reflect the removal or resignation of any
trustee nor the election of any other trustees.
At the August 15, 2006 meeting, all of the
trustees—Bishop Iker, Salazar, Patton, Bates, Barber,
and Virden—were present. Bishop Iker requested that
the minutes “reflect that due notice was given to all
trustees that the meeting would include consideration
and voting on the adoption of Amended and Restated
Articles of Incorporation for the Corporation . . . and
proposed amendments to the bylaws of the
[C]orporation.” Bates moved to adopt the proposed
amendments to the bylaws, Patton seconded the
motion, and the motion passed unanimously. Patton
moved to approve the amended and restated articles

App-215
of incorporation, Bates seconded her motion, and the
motion passed unanimously.
(3) Other Documents
EDFW’s constitution and canons provided for the
establishment of the Corporation. Article 13 of the
1982 Constitution, “Title to Church Property,”
provides—in pertinent part to the corporations law
question before us—that title to the real property of
all parishes, missions, and diocesan institutions
“acquired for the use of the Church in this Diocese”
before or after the constitution’s adoption, would be
vested in the Corporation and “shall be held subject to
control of the Church in the Episcopal Diocese of Fort
Worth acting by and through” the Corporation. The
Corporation, in turn, would hold real property
acquired “for the use of a particular parish or mission
in trust for the use and benefit of such parish or
mission.” The Corporation could not convey, lease, or
encumber such property without the consent of the
rector, wardens, and vestry of such parish or mission.
If a parish or mission were dissolved, the property held
in trust by the Corporation “shall revert to said
Corporation for the use and benefit of the Diocese, as
such.” The same article in the 1989, 2006, and 2008
EDFW constitution and canons reflects no change
other than renumbering. The corresponding canon,
“Corporation of the Episcopal Diocese of Fort Worth,”
established the
Corporation’s
purposes and
management of its affairs.
b.

Application
(1) The Parties’ Arguments

The TEC parties argue that either the TEC
parties control the Corporation or Appellees are in

App-216
breach. Specifically, they complain that the trial court
failed to apply the portion of the 2006 corporate
bylaws requiring each director to be a member in good
standing of a parish in the diocese when, by December
5, 2008 (or February 2009 at the latest), Appellees
held no role in the diocese, making them
“disqualified.” They refer us to Byerly v. Camey, 161
S.W.2d 1105, 1111 (Tex. Civ. App.—Fort Worth 1942,
writ ref’d w.o.m.), 107 to support this proposition. They
further argue that the Corporation is bound by its
fiduciary duties as a trustee to EDFW and its
congregations so, if we find that Appellees legitimately
control the Corporation, then the Corporation should
be removed as trustee, citing Ditta v. Conte, 298
S.W.3d 187, 192 (Tex. 2009). 108
In Byerly, we observed that the absence of a corporation’s
directors was insufficient to dissolve the corporation or show that
it had ceased to exist. 161 S.W.2d at 1111 (“[N]o court would
declare the corporation out of existence simply because it found
itself without directors.”). Instead, under general principles of
corporation law, the stockholders either would have the inherent
power to elect new directors or a court could bring about the
selection of new directors “as may be done in certain cases where
a trust estate finds itself without a trustee.” Id. The appeal was
brought from a dismissal, though, and the observations about
corporate law had no bearing on the case’s ultimate affirmance.
Id. at 1106-11. A treatise has indicated that our 1942 observation
was a reflection of the common law for when a corporation’s
charter or bylaws made no provision for filling a board vacancy
in the event of death below the minimum number prescribed by
the charter. See 2 Fletcher Cyc. Corp. §286. By whom directors
and officers are to be nominated, elected or appointed—In case of
vacancies on the board of directors (Sept. 2017).
107

108 In Ditta, the supreme court held that no statutory
limitations period restricts a court’s discretion to remove a
trustee. 298 S.W.3d at 188, 191 (observing that a removal

App-217
Appellees respond that the articles and bylaws
provide for trustees to be elected one per year at
EDFW’s annual convention and identify their
qualifications. They further respond that courts
cannot just remove trustees for good-faith
disagreements about trust management. To support
these arguments, they refer us to Hill v. Boully, No.
11-08-00289-CV, 2010 WL 2477868, at *4 (Tex. App.—
Eastland June 17, 2010, no pet.) (mem. op.), 109 Kappus
decision turns on the special status of the trustee as a fiduciary
and the ongoing relationship between trustee and beneficiary,
not on any particular or discrete act of the trustee). Trustee
removal actions are sometimes premised on the trustee’s prior
behavior but exist to prevent the trustee from engaging in further
behavior that could potentially harm the trust. Id. at 192. As long
as potential harm to the trust remains, an action to remove the
trustee should be allowed to proceed. Id. A trustee may be
removed by a court under property code section 113.082 for
various reasons. Tex. Prop. Code Ann. § 113.082 (listing as
grounds material violation or attempted violation of the terms of
the trust resulting in a material financial loss, incapacitation or
insolvency of the trustee, failure of the trustee to make an
accounting required by law or the trust’s terms, and, broadly,
“other cause for removal”).
Hill involved the construction and application of the bylaws
of Sportsman’s World Ranch Owners’ Association, Inc., a Texas
nonprofit corporation created in connection with a real estate
development, and the declaration of covenants, conditions, and
restrictions associated with the development, which provided
that record property owners were members of the corporation,
with one vote per acre owned. 2010 WL 2477686, at *1-2. The
bylaws provided for a board of three trustees and that any trustee
could be removed, with or without cause, by a majority vote of the
corporation’s membership; if a trustee died, resigned, or was
removed, his successor would be selected by the two remaining
board members to serve out his predecessor’s unexpired term. Id.
at *2. The corporation’s members sought to remove two of the
109

App-218
v. Kappus, 284 S.W.3d 831, 837 (Tex. 2009), 110 section
22.212 of the business organizations code, 111 and
section 112.054 of the property code. 112
three trustees and asked the remaining trustee to appoint two
new ones; he did so. Id. at *3. The court held that this complied
with the bylaws, which logically must have envisioned “member”
as either singular or plural, in anticipation of two trustees
resigning or dying at the same time. Id. at *6.
In Kappus, the court addressed an alleged conflict of interest
between the independent executor of an estate and a good-faith
dispute over his percentage ownership of estate assets. 284
S.W.3d at 833. The court held that “conflict of interest” was not a
ground listed in the probate code for removing an executor and
that it would not engraft one onto the statute; there was no
evidence to support the executor’s removal under the statutory
grounds (such as dishonesty or misappropriation, gross
misconduct or gross mismanagement, or legal incapacity). Id. at
833, 836-38 (observing that a potential conflict does not equal
actual misconduct or make one mentally or physically impaired
to the extent that personal decision-making is impossible). The
court noted that the fiduciary duties owed by both an executor
and a trustee are similar but that removal of a trustee under
property code section 113.082 gives the trial court more leeway.
Id. at 838 (holding that the trial court did not abuse its discretion
by not removing executor as trustee of testamentary trust when,
viewing the same conduct, it was not error to keep him as
independent executor).
110

Business organizations code section 22.212, “Vacancy,” does
not address what happens if there are no qualified directors left
on the board to fill a vacancy. See Tex. Bus. Orgs. Code Ann.
§ 22.212(a). Apparently, neither the parties nor our legislature
has considered what might happen if a disaster were to wipe out
an entire corporate board.
111

112 Property code section 112.054, “Judicial Modification,
Reformation, or Termination of Trusts,” states in subsection (a)
that on the petition of a trustee or a beneficiary, the court may
order, among other things, that the trustee be changed. Tex.
Prop. Code Ann. § 112.054(a). Subsection (b) states that the court

App-219
(2) Corporation’s Owner
There is no question that the Corporation became
a nonprofit corporation under Texas law in 1983 and
that its board was allowed to amend its bylaws and
articles. As pointed out by the supreme court in
Masterson,
Absent specific, lawful provisions in a
corporation’s articles of incorporation or
bylaws otherwise, whether and how a
corporation’s directors or those entitled to
control its affairs can change its articles of
incorporation and bylaws are secular, not
ecclesiastical,
matters. . . . The
current
statutory scheme changes the default rule on
who is authorized to amend the bylaws, but
under neither the former nor the current
statute is an external entity empowered to
amend them absent specific, lawful provision
in the corporate documents.
422 S.W.3d at 609-10 (emphasis added) (referencing
revised civil statutes article 1396-2.09 and business
organizations code section 22.102).
According to the supreme court in Masterson, if
nothing in the corporate documents requires
amendments to be subject to approval of TEC, and no
Texas law precludes such a corporation from
amending its articles and bylaws to exclude references
to TEC, then there is no requirement under Texas
corporations law to otherwise subject the Corporation
has the discretion to order a modification, termination, or
reformation of the trust “in the manner that conforms as nearly
as possible” to the settlor’s probable intent. Id. § 112.054(b).

App-220
to TEC’s attempted interference. See id. at 613 (“To
the contrary, the articles of incorporation and bylaws
specified that qualified parish members were entitled
to elect the vestry and amend the bylaws”). As nothing
in the Corporation’s documents provides for TEC’s
approval and nothing in our law precludes the
amendments to exclude references to TEC, TEC lacks
standing for a claim as to the Corporation, and to the
extent the trial court granted summary judgment on
this basis, it did not err.
Further, according to the amended bylaws, the
board of directors identifies the “Bishop” for the
Corporation’s purposes. Although this might
otherwise
be
considered
an
“ecclesiastical”
determination, because the bylaws treat the
identification of the “Bishop” as merely the
identification of the Corporation’s chairman of the
board, we cannot say that a title alone, under the
circumstances presented in the bylaws here, requires
“consideration of doctrinal matters,” i.e., “the ritual
and liturgy of worship or the tenets of faith,” see Jones,
443 U.S. at 602, 99 S. Ct. at 3025, particularly as the
bylaws provide the methodology for the Corporation’s
board to identify the “Bishop” for the Corporation’s
purposes.
However, the bylaws were amended on August 15,
2006, when there was only one “body now known as
the Episcopal Diocese of Fort Worth,” from which lay
and clergy members of the board were drawn and the
bishop identified, and that body was affiliated with
TEC. [Emphasis added.] Over two years later, on
November 15, 2008, Appellees voted to leave TEC. The
schism gave rise to two distinct entities: one

App-221
recognized by TEC as the Episcopal Diocese of Fort
Worth and one self-identified by Appellees as such.
The bylaws and articles do not provide a description of
the characteristics of the diocese self-identified by
Appellees, but they do require that elected trustees be
either lay persons in good standing of a parish or
mission, or canonically resident, in the entity
identified by the Corporation’s board as “the body now
known as the Episcopal Diocese of Fort Worth.”
[Emphasis added.] As set out above, it is within TEC’s
province to identify its diocese in the geographic area
identified as Fort Worth and what it takes to be a
member in good standing or canonically resident
therein. Accordingly, on November 15, 2008, when
Appellees voted to disaffiliate, it was TEC’s
prerogative to determine whether the board members
of the diocese formerly associated with TEC had
become disqualified under the Corporation’s bylaws.
We conclude that the TEC-affiliated EDFW
controls appointment to the Corporation’s board and
therefore that the TEC parties identified within the
TEC-affiliated EDFW have standing for these related
complaints. We sustain the TEC parties’ subissue 1(h).
4.

Remaining Arguments: Constructive
Trust, Estoppel

Paralleling the complaints in their live pleading,
the TEC parties refer us to TEC canon I.17.8,
“Fiduciary responsibility,” which refers to a TEC
officer’s duty to “well and faithfully” perform the
duties of that office in the Church and to a lay person’s
responsibility to be a communicant in good standing.
They further refer us to the “Declaration of
Conformity” that Bishop Iker and “every dissident

App-222
cleric” signed, refer us to prior statements by Bishop
Iker and others in previous cases involving dissidents
that could be read to contradict Bishop Iker’s nouveaudissident position here, and complain that the trial
court allowed Bishop Iker et al. “to renege on their
promises, break their commitments, and breach
relationships of trust and confidence as Church
officers.”
The TEC parties base their constructive trust
argument on the basis of a fiduciary duty owed to
them as the diocese and congregations that remained
loyal to TEC, asserting that Appellees “broke a
century’s worth of oaths and commitments” when they
left and took the TEC-affiliated property, resources,
and name. They rely on IRS disclosures and assertions
in other lawsuits as a basis for estoppel. Based on our
resolution above, however, we need not address these
arguments with regard to any of the TEC parties
except for TEC itself.
As to TEC, these arguments misplace the
measuring stick and would require us to delve into the
mysteries of faith, when—on the face of the documents
before us—procedure, not position, at least with
regard to the causes of action that have not been
severed out, determines the outcome of this portion of
the case. Specifically, this case does not turn on a
breach of contract in the usual transactional sense.
Indeed, the TEC parties did not bring a claim for any
such breach of an actual contract. Instead, their
causes of action were for

App-223
•

•
•

•
•
•

•

“Breach of Express Trust,” based on, among other
things,
• the November 13, 1982 subscription to TEC’s
constitution and canons;
• the June 29, 1984 petition in the friendly
lawsuit between the Diocese of Dallas and
EDFW; and
• “the associational benefits of affiliation,”
described as consideration and the basis of a
contractual trust;
“Constructive Trust—Conveyance,” based on the
exchange
of
property
for
accession
as
consideration;
“Constructive Trust—Fiduciary Commitments,”
based on a “confidential relationship with [TEC]
and its subordinate entities” and commitments on
how they would hold the property;
“Estoppel,” which the TEC parties further clarify is
actually “quasi-estoppel,” based on some of the
same actions above;
“Diocesan Trust” and “Congregation-level Trust,”
based on the same express and constructive trust
arguments;
“Promissory Estoppel,” based on “promises to
[TEC] as a condition of” EDFW’s formation,
“receipt of disputed property,” and the same
actions as relied upon in their other claims;
“Conversion,” by unlawfully retaining and
claiming property—sacramental and liturgical
instruments and materials, bank and brokerage
accounts, monies, valuable chattels, personnel
records, financial records, real property records
and deeds, and historical records—”in a way that

App-224

•

•

•
•

departed from the conditions under which it was
received”;
“Texas Business & [Commerce] Code § 16.29,” for
using EDFW’s trade names and trademarks
without permission “and in a manner likely to
dilute the distinctive quality of the foregoing trade
names and marks”;
“Breach of Fiduciary Duty,” with regard to
Appellees’
“constitutional
and
canonical
obligations to the Diocese, the Church, and the
Episcopal Parishes and Missions,” among other
misfeasance;
“Action to Quiet Title” with regard to the disputed
property on a table attached to their petition; and
“Trespass to Try Title,” with regard to the same
property in their quiet title claim. 113

Of these, conversion, damages for breach of
fiduciary duty, the action to quiet title and for an
accounting, and the claims under business and
commerce code section 16.29 were severed out of the
instant case and remain pending in the original
action, cause number 141-237105-09.
As to the claims not severed out, and as to the
relief sought in the form of a constructive trust, TEC
relies on the idea of a confidential relationship that is
more intimate than any kind generally considered
under our law outside of the divorce context. Just as
the dissolution of a long-term marriage involving
allegations of infidelity and abuse can result in a
messy, unpleasant divorce for all involved, likewise,
113 They also sought declaratory and injunctive relief and an
accounting.

App-225
the disassociation of a faction within a religious entity
can be (and, as here, has been) equally messy and
unpleasant for everyone involved. Whether, in a
religious or personal sense, Bishop Iker and the rest
are the perfidious oath-breakers characterized by the
TEC parties is not for us to determine because such
questions are inextricably intertwined with First
Amendment implications. To the extent TEC has
rights outside of the ones brought by the other TEC
parties, 114 we have not found a legal or equitable basis
under our neutral principles analysis and the
documents in the record before us for imposing a
constructive or resulting trust. See McConnell &
Goodrich, 58 Ariz. L. Rev. at 354 (“Courts that have
applied ordinary principles of trust law have generally
found that internal church rules and relationships fail
Many of the assertions set out above pertain to ecclesiastical
matters. And much like the end of a fiduciary duty between
marital partners at divorce, when Bishop Iker et al. excised their
faction from TEC, any fiduciary duty obligations to TEC ended.
See, e.g., In re Marriage of Notash, 118 S.W.3d 868, 872 (Tex.
App.—Texarkana 2003, no pet.) (“The fiduciary duty between
husband and wife terminates on divorce.”); Parker v. Parker, 897
S.W.2d 918, 924 (Tex. App.—Fort Worth 1995, writ denied)
(“While marriage may bring about a fiduciary relationship, such
a relationship terminates in a contested divorce when a husband
and wife each have independent attorneys and financial
advisers.”), disapproved of on other grounds by Formosa Plastics
Corp. USA v. Presidio Eng’rs & Contractors, Inc., 960 S.W.2d 41
(Tex. 1998) (op. on reh’g). Jane R. Parrott, a financial records
custodian, stated in an affidavit that all loans from TEC prior to
the 2008 disaffiliation “were fully repaid before that date.”
Parrott also attached a summary of the financial contributions
and receipts between EDFW and TEC showing that EDFW had
contributed more than $2 million to TEC during the years of
affiliation.
114

App-226
to create either a resulting trust or a constructive
trust.”).
Accordingly, we overrule subissues 1(f) and (g) as
they pertain to TEC; as to the remaining TEC parties,
based on our disposition of the associations,
corporations, and trust questions above, we need not
reach them. See Tex. R. App. P. 47.1.
IV. Conclusion
Based on all of the above, to the extent that TEC
has standing, we sustain its sole stand-alone issue
with regard to its ecclesiastical determination of
which entity constitutes EDFW but overrule its
portion of the TEC parties’ subissues (f), (g), and (j) as
they pertain to the issues in this appeal.
We sustain all of the TEC parties’ subissues (a),
(b), (h), and (i). As to all of the TEC parties except for
TEC itself, we sustain in part subissues (c), (e), (j), and
(k) and do not reach subissue (d) or the remaining TEC
parties’ subissues (f) and (g). We thereby hold as
follows in response to the questions directed on
remand by the Supreme Court of Texas:
(1) Appellees’ actions, as corporate trustees,
were invalid under Texas law after
disaffiliation in 2008.
(2) Under Texas Corporations Law, the articles
of incorporation and bylaws at issue were
amenable to amendment but the plain
language used in 2006—“now known as”—
prior to disaffiliation in 2008 means that the
TEC-affiliated EDFW controls appointment
to the Corporation’s board.

App-227
(3) To the extent that the Dennis Canon could be
construed as attempting to create a trust, it
did not impose one on EDFW’s property in
favor of TEC.
(4) Equitable title to the property in the 1947
deed is held for the TEC-affiliated EDFW; the
Corporation holds legal and equitable title to
the property in the 1950 deed.
(5) Based on the above, all of the TEC parties
except for TEC have standing to bring the
above claims that are not barred by
ecclesiastical abstention, and on remand,
TEC may have standing with regard to some
of the severed claims.
Accordingly, we affirm in part and reverse in part
the trial court’s judgment and remand the case to the
trial court for further proceedings not inconsistent
with this opinion.
/s/ Bonnie Sudderth
BONNIE SUDDERTH
CHIEF JUSTICE
PANEL: SUDDERTH, C.J.; GABRIEL, J.
GABRIEL, J., concurs without opinion.
DELIVERED: April 5, 2018

App-228
Appendix C
TEXAS DISTRICT COURT, TARRANT COUNTY
141ST JUDICIAL DISTRICT
________________
No. 141-252083-11
________________
THE EPISCOPAL CHURCH, et al.,
v.

Plaintiffs,

FRANKLIN SALAZAR, et al.,
Defendants.
________________
Filed: July 24, 2015
________________
FINAL JUDGMENT
________________
This Final Judgment merges and supersedes the
Court’s orders of March 2, 2015, and June 10, 2015. In
accordance with those orders, and having considered
all the parties’ pleadings, motions, responses, replies,
evidence on file, governing law, and arguments of
counsel, the Court issues this Final Judgment.
The Court hereby ORDERS that Defendants’
Second Motion for Partial Summary Judgment filed
December 1, 2014, is GRANTED except with respect
to claims relating to All Saints Episcopal Church (Fort
Worth), and Plaintiffs’ Motion for Partial Summary
Judgment filed December 1, 2014, is DENIED.

App-229
The Court further ORDERS that Defendants’
Third Motion for Partial Summary Judgment Relating
to All Saints Episcopal Church filed May 6, 2015, is
GRANTED, and Plaintiffs’ Supplemental Motion for
Partial Summary Judgment on Claims Relating to All
Saints’ Episcopal Church filed May 6, 2015, is
DENIED.
The Court further issues a DECLARATORY
JUDGMENT pursuant to Texas Civil Practice and
Remedies Code §§ 37.001, et seq., declaring that:
1. Neutral principles of Texas law govern this
case, and applying such law is not unconstitutionally
retroactive;
2. The Corporation of the Episcopal Diocese of
Fort Worth and Defendant Congregations hold legal
title to all the properties listed on Exhibit 1 attached
to this Order, subject to control by the Corporation
pursuant to the Diocese’s charters.
3. The Episcopal Diocese of Fort Worth and the
Defendant Congregations in union with that Diocese
hold beneficial title to all the properties listed on
Exhibit I attached to this Order.
4. Defendants Dr. Franklin Salazar, Jo Ann
Patton, Walter Virden, III, Rod Barber, and Chad
Bates are, and have been since 2005, the properly
elected Trustees of the Corporation for the Episcopal
Diocese of Fort Worth.
5. Defendant Jack Iker is, and has been since
2005, the proper Chairman of the board and one of the
Trustees of the Corporation for the Episcopal Diocese
of Fort Worth.

App-230
6. Defendants are the proper representatives of
the Episcopal Diocese of Fort Worth, the Texas
unincorporated association formed in 1982.
7. The Defendants hold legal title and control of
the funds and endowments listed on Exhibit 2
attached to this Order, subject to the terms of each.
8. Plaintiffs have no express, implied, or
constructive trust in the properties or funds listed in
the Exhibits attached to this Order.
9. Defendants have not breached any fiduciary
duty to or special relationship with any Plaintiffs.
The Court further ORDERS that the following
listed claims and defenses remain pending in Cause
No. 141-237105-09, and to the extent they are also
pending in this cause are hereby DISMISSED
WITHOUT PREJUDICE and preserved for
litigation in Cause No. 141-237105-09: claims for
attorneys’ fees in both causes, Conversion, Texas
Business & Commercial Code § 16.29, damages for
Breach of Fiduciary Duty (as opposed to as a predicate
of constructive trust), Action to Quiet Title, and for an
Accounting.
The Court further ORDERS that Plaintiffs take
nothing, and that Defendants recover costs of court in
this cause.
The Court further ORDERS that Plaintiffs are to
cancel all lis pendens filed as to properties listed on
Exhibits 1 and 2, and surrender possession thereof, to
the Defendants 30 days after this Judgment becomes
final.
The Court further ORDERS the Plaintiffs to
desist from holding themselves out as leaders of the

App-231
Diocese or the Corporation when this Order becomes
final and appealable.
All relief not expressly granted herein is denied.
This judgment disposes of all parties and claims in the
above-referenced case, and is a final and appealable
judgment.
signed this [handwritten: 24] day of July, 2015.
[handwritten: signature]
Judge Presiding

App-232
Appendix D
SUPREME COURT OF TEXAS
________________
No. 11-0265
________________
THE EPISCOPAL DIOCESE OF FORT WORTH, et al.,
v.

Petitioners,

THE EPISCOPAL CHURCH, et al.,
Respondents.
________________
Argued: Oct. 16, 2012
Decided: Aug. 30, 2013
________________
Before: Jefferson, Chief Justice, Boyd, Devine, Green,
Guzman, Johnson, Hecht, Willett, Lehrmann,
Justices.
________________
OPINION
________________
JUSTICE JOHNSON delivered the opinion of the
Court, in which JUSTICE HECHT, JUSTICE GREEN, and
JUSTICE GUZMAN joined, and in Parts I, II, III, and IVA of which CHIEF JUSTICE JEFFERSON joined.
JUSTICE WILLETT filed a dissenting opinion, in
which JUSTICE LEHRMANN, JUSTICE BOYD, and JUSTICE
DEVINE joined.
This direct appeal involves the same principal
issue we addressed in Masterson v. Diocese of

App-233
Northwest Texas, ___ S.W.3d ___ (Tex. 2013): what
methodology is to be used when Texas courts decide
which faction is entitled to a religious organization’s
property following a split or schism? In Masterson we
held that the methodology referred to as “neutral
principles of law” must be used. But, in this case the
trial court granted summary judgment on the basis of
the “deference” or “identity” methodology, and the
record does not warrant rendition of judgment to
either party based on neutral principles of law.
We reverse and remand to the trial court for
further proceedings.
I.

Background

The Episcopal Church (TEC) is a religious
organization founded in 1789. It has three structural
tiers. The first and highest is the General Convention.
The General Convention consists of representatives
from each diocese and most of TEC’s bishops. It adopts
and amends TEC’s constitution and canons. The
second tier is comprised of regional, geographically
defined dioceses. Dioceses are governed by their own
conventions. Each diocese’s convention adopts and
amends its own constitution and canons, but must
accede to TEC’s constitution and canons. The third
tier is comprised of local congregations. Local
congregations are classified as parishes, missions, or
congregations. In order to be accepted into union with
TEC, missions and congregations must subscribe to
and accede to the constitutions and canons of both
TEC and the Diocese in which they are located.
In 1982 the Episcopal Diocese of Fort Worth (the
Diocese or Fort Worth Diocese) was formed after the
Episcopal Diocese of Dallas voted to divide into two

App-234
parts. The Fort Worth Diocese was organized
“pursuant to the Constitution and Canons of the
Episcopal Church” and its convention adopted a
constitution and canons. The Diocese’s constitution
provided that all property acquired for the Church and
the Diocese “shall be vested in [the] Corporation of the
Episcopal Diocese of Fort Worth.” The canons of the
Diocese provided that management of the affairs of the
corporation “shall be conducted and administered by a
Board of Trustees of five (5) elected members, all of
whom are either Lay persons in good standing of a
parish or mission in the Diocese, or members of the
Clergy canonically resident in the Diocese.” The
Bishop of the Diocese was designated to serve as chair
of the board of the corporation. After adopting its
constitution and canons the Diocese was admitted into
union with TEC at TEC’s December 1982 General
Convention.
In February 1983, the Fort Worth Diocese filed
articles of incorporation for the Fort Worth
Corporation. That same year the Dallas and Fort
Worth Dioceses filed suit in Dallas County and
obtained a judgment transferring part of the Dallas
Diocese’s real and personal property to the Fort Worth
Diocese. The 1984 judgment vested legal title of the
transferred property in the Fort Worth Corporation,
except for certain assets for which the presiding
Bishop of the Dallas Diocese and his successors in
office had been designated as trustee. The judgment
transferred the latter assets to the Bishop of the Fort
Worth Diocese and his successor in office as trustee.
Doctrinal controversy arose within TEC, leading
the Fort Worth Corporation to file amendments to its

App-235
articles of incorporation in 2006 to, in part, remove all
references to TEC. The corporate bylaws were
similarly amended. The 2007 and 2008 conventions of
the Fort Worth Diocese voted to withdraw from TEC,
enter into membership with the Anglican Province of
the Southern Cone, and adopt amendments to the
Diocese’s constitution removing references to TEC. 1
TEC responded. It accepted the renunciation of
Jack Iker, Bishop of the Fort Worth Diocese, and
TEC’s Presiding Bishop removed Iker from all
positions of authority within TEC. In February 2009,
TEC’s Presiding Bishop convened a “special meeting
of Convention” for members of the Fort Worth Diocese
who remained loyal to TEC. Those present at the
meeting elected Edwin Gulick as Provisional Bishop of
the Diocese and Chair of the Board of Trustees for the
Fort Worth Corporation. The 2009 Convention also
voted to reverse the constitutional amendments
adopted at the 2007 and 2008 Conventions and
declared all relevant offices of the Diocese to be
vacant. Bishop Gulick then appointed replacements to
the offices declared vacant, including the offices of the
Trustees of the Corporation. TEC recognized the
persons elected at the 2009 Convention as the duly
constituted leadership of the Diocese.
TEC, Rev. C. Wallis Ohls, who succeeded Bishop
Gulick as Provisional Bishop of the Episcopal Diocese
of Fort Worth, and clergy and lay individuals loyal to
TEC (collectively, TEC) filed suit against The
Episcopal Diocese of Fort Worth, the Fort Worth
1 Three parishes in the Diocese did not agree with the actions
and withdrew from the Diocese. The Fort Worth Corporation
transferred property used by the withdrawing parishes to them.

App-236
Corporation, Bishop Iker, the 2006 trustees of the
corporation, and former TEC members (collectively,
the Diocese), seeking title to and possession of the
property held in the name of the Diocese and the Fort
Worth Corporation. 2 Both TEC and the Diocese moved
for summary judgment. A significant disagreement
between the parties was whether the “deference” (also
sometimes referred to as the “identity”) or “neutral
principles of law” methodology should be applied to
resolve the property issue. TEC contended that
pursuant to this Court’s decision in Brown v. Clark,
116 S.W. 360 (Tex. 1909), the deference methodology
has been applied in Texas for over a century and
should continue to be applied. Under that
methodology, it argued, TEC was entitled to summary
judgment because it recognized Bishops Gulick and
Ohls, the leaders elected at the 2009 convention, and
the appointees of the Bishops as the true and
continuing Episcopal Diocese. TEC also contended
that even if the neutral principles methodology were
applied, it would be entitled to summary judgment.
The Diocese, on the other hand, contended that in
Brown this Court effectively applied the neutral
principles methodology without specifically calling it
by that name, and Texas courts have continued to
substantively apply that methodology to resolve
property issues arising when churches split. Under
the neutral principles methodology, the Diocese
The defendants sought mandamus in the court of appeals
regarding whether the attorneys for TEC had authority to file
suit on behalf of the Corporation and the Diocese. See In re
Salazar, 315 S.W.3d 279 (Tex. App.—Fort Worth 2010, orig.
proceeding). The court of appeals conditionally granted
mandamus relief, holding they did not. Id. at 285-86.
2

App-237
argued, it was entitled to summary judgment
affirming its right to the property. The Diocese also
maintained that even if the deference methodology
were applied, it would still be entitled to summary
judgment. 3
The trial court agreed with TEC that deference
principles should apply, applied them, and granted
summary judgment for TEC. The Diocese sought
direct appeal to this Court and we noted probable
jurisdiction. We had previously granted the petition
for review in Masterson, and we heard oral arguments
for both cases on the same day.
II. Jurisdiction
The Government Code provides that “[a]n appeal
may be taken directly to the supreme court from an
order of a trial court granting or denying an
interlocutory or permanent injunction on the ground
of the constitutionality of a statute of this state.” Tex.
Gov’t Code § 22.001(c). The trial court granted
summary judgment and issued injunctions ordering
the defendants to surrender all Diocesan property and
control of the Diocesan Corporation to the Episcopal
Diocese of Fort Worth, and ordering the defendants to
desist from holding themselves out as leaders of the
Diocese. While the trial court order did not explicitly
The Diocese also asserts that we should dismiss certain tort
claims TEC brought against individual defendants. The Diocese
moved for summary judgment to dismiss these claims and argues
that if we conclude the trial court erred in determining who was
entitled to the property at issue, we should render the judgment
the trial court should have rendered and dismiss the tort claims.
Because of our disposition of the issue regarding who is entitled
to the property, we do not address those claims.
3

App-238
address the constitutionality of a statute, “[t]he effect
of the trial court’s order . . . is what determines this
Court’s direct appeal jurisdiction.” Tex. Workers’
Compensation Comm’n v. Garcia, 817 S.W.2d 60, 61
(Tex. 1991).
In its motion for summary judgment TEC argued,
in part, that the actions of the Board of Trustees in
amending the Fort Worth Corporation’s articles of
incorporation were void because the actions went
beyond the authority of the corporation, which was
created and existed as an entity subordinate to a
Diocese of TEC. TEC argued that “[t]he secular act of
incorporation does not alter the relationship between
a hierarchical church and one of its subordinate units”
and that finding otherwise “would risk First
Amendment implications.” The Diocese, on the other
hand, argued that the case was governed by the Texas
Non-Profit Corporation Act 4 and the Texas Uniform
Unincorporated Nonprofit Association Act 5; under
those statutes a corporation may amend its articles of
incorporation and bylaws; and TEC had no power to
limit or disregard amendments to the Corporation’s
articles and bylaws.
In its summary judgment order the trial court
cited cases it said recognized “that a local faction of a
hierarchical church may not avoid the local church’s
obligations to the larger church by amending
corporate documents or otherwise invoking nonprofit
corporations law.” The trial court substantively ruled
that because the First Amendment to the United
4

Tex. Rev. Civ. Stat. arts. 1396-1.01 to 1396-11.02

5

Tex. Rev. Civ. Stat. art. 1396-70.01

App-239
States Constitution deprived it of jurisdiction to apply
Texas nonprofit corporation statutes, applying them
to determine the parties’ rights would violate
Constitutional provisions. The court’s injunction
requiring defendants to surrender control of the Fort
Worth Corporation to the Episcopal Diocese of Fort
Worth was based on that determination. The effect of
the trial court’s order and injunction was a ruling that
the Non-Profit Corporation Act would violate the First
Amendment if it were applied in this case.
Accordingly, we have jurisdiction to address the
merits of the appeal.
III. “Deference” and “Neutral Principles”
In Masterson we addressed the deference and
neutral principles methodologies for deciding property
issues when religious organizations split. ___ S.W.3d
at ___. Without repeating that discussion in full,
suffice it to say that generally courts applying the
deference approach to church property disputes utilize
neutral principles of law to determine where the
religious organization has placed authority to make
decisions about church property. See Jones v. Wolf,
443 U.S. 595, 603-04 (1979). Once a court has made
this determination, it defers to and enforces the
decision of the religious authority if the dispute has
been decided within that authority structure. Id. But
courts applying the neutral principles methodology
defer to religious entities’ decisions on ecclesiastical
and church polity issues such as who may be members
of the entities and whether to remove a bishop or
pastor, while they decide non-ecclesiastical issues
such as property ownership and whether trusts exist
based on the same neutral principles of secular law

App-240
that apply to other entities. See Serbian E. Orthodox
Diocese v. Milivojevich, 426 U.S. 696, 708-09 (1976).
We concluded in Masterson that the neutral principles
methodology was the substantive basis of our decision
in Brown v. Clark, 116 S.W. 360 (Tex. 1909), and that
Texas courts should utilize that methodology in
determining which faction of a religious organization
is entitled to the property when the organization
splits. ___ S.W.3d at ___. We also concluded that even
though both the deference and neutral principles
methodologies are constitutionally permissible, Texas
courts should use only the neutral principles
methodology in order to avoid confusion in deciding
this type of controversy. Id.
IV. Application
A. Summary Judgment—Deference
Based on our decision in Masterson, we hold that
the trial court erred by granting summary judgment
to TEC on the basis of deference principles. ___ S.W.3d
at ___.
B. Summary Judgment—Neutral Principles
TEC asserts that application of neutral principles
may violate free-exercise protections if, for example,
the Diocese is permitted to void its commitments to
church laws because the specific formalities of Texas
law governing trusts were not followed or if they are
applied retroactively. See Jones, 443 U.S. at 606
(noting that the case did not “involve a claim that
retroactive application of a neutral-principles
approach infringes free exercise rights”). But TEC
recognizes that whether application of the neutral
principles approach is unconstitutional depends on
how it is applied. See id. at 606 (“It remains to be

App-241
determined whether the Georgia neutral-principles
analysis was constitutionally applied on the facts of
this case.”). Because neutral principles have yet to be
applied in this case, we cannot determine the
constitutionality of their application. Further, TEC
does not argue that application of procedural matters
such as summary judgment procedures and burdens
of proof are unconstitutional. Thus, we address the
arguments of the parties regarding who is entitled to
summary judgment pursuant to neutral principles
and conclude that neither TEC nor the Diocese is. See
Gilbert Tex. Constr., L.P. v. Underwriters at Lloyd’s
London, 327 S.W.3d 118, 124 (Tex. 2010) (noting that
when both parties move for summary judgment and
the trial court grants one motion and denies the other,
appellate courts consider the summary-judgment
evidence, determine all questions presented, and
render the judgment the trial court should have
rendered).
Under the neutral principles methodology,
ownership of disputed property is to be determined by
considering evidence such as deeds to the properties,
terms of the local church charter (including articles of
incorporation and bylaws, if any), and relevant
provisions of governing documents of the general
church. E.g., Jones, 443 U.S. at 602-03; see
Presbyterian Church v. E. Heights, 167 S.E.2d 658,
659-60 (Ga. 1969). TEC points out that deeds to the
properties involved were not part of the summary
judgment record when the trial court ruled. Thus,
TEC argues, if we do not sustain the summary
judgment in its favor, we should remand the case so
the trial court may consider the record on the basis of
neutral principles and the four factors referenced in

App-242
Jones: (1) governing documents of the general church,
(2) governing documents of the local church entities,
(3) deeds, and (4) state statutes governing church
property. See Jones, 443 U.S. at 602-03. We agree that
the case must be remanded for further proceedings
under neutral principles.
Although deeds to the numerous properties
involved were not before the trial court when it
granted summary judgment, the Diocese asserts that
there is no dispute about its holding title to and having
control of the properties. But TEC disagrees with that
position. And absent agreement or conclusive proof of
title to the individual properties and the capacities in
which the titles were taken, fact questions exist under
neutral principles of law, at a minimum, about who
holds title to each property and in what capacity. 6
Accordingly, we cannot render judgment on the basis
of neutral principles.
C. Remand
Because the trial court must apply neutral
principles on remand, for its guidance we address
certain arguments made by the parties relating to that
methodology. See Edinburg Hosp. Auth. v. Trevino,
941 S.W.2d 76, 81 (Tex. 1997) (“Although resolution of
this issue is not essential to our disposition of this

Deeds filed after the trial court granted summary judgment
were dated both before and after the 1984 judgment transferring
properties from the Dallas Diocese. The deeds dated after the
judgment reflect various grantees. Some properties were deeded
to the Fort Worth Corporation or local entities, while others were
deeded in trust to the Corporation, local entities, or various other
persons and entities.
6

App-243
case, we address it to provide the trial court with
guidance in the retrial . . . .”).
We first note that on remand the trial court is not
limited to considering only the four factors listed in
Jones. As we said in Masterson, Jones did not purport
to establish a federal common law of neutral principles
to be applied in this type of case. ___ S.W.3d at ___.
Rather, the elements listed in Jones are illustrative. If
it were otherwise and courts were limited to applying
some, but not all, of a state’s neutral principles of law
in resolving non-ecclesiastical questions, religious
entities would not receive equal treatment with
secular entities. We do not believe the Supreme Court
intended to say or imply that should be the case.
Next we address the Diocese’s argument that
under neutral principles courts do not defer to TEC’s
decisions about non-ecclesiastical matters such as the
identity of the trustees of the Fort Worth Corporation.
The Diocese argues that under the Non-Profit
Corporation Act the trustees are the 2006 trustees
who are named as defendants in this suit. TEC
responds that the trustees are required by the
corporate bylaws to be lay persons in “good standing,”
the Diocese rules require them to be loyal
Episcopalians, and the bylaws provide that trustees do
not serve once they become disqualified. Those
determinations, TEC argues, were made by Bishops
Gulick and Ohls and the 2009 convention, and courts
must defer to those determinations because they are
ecclesiastical decisions.
While we agree that determination of who is or
can be a member in good standing of TEC or a diocese
is an ecclesiastical decision, the decisions by Bishops

App-244
Gulick and Ohls and the 2009 convention do not
necessarily determine whether the earlier actions of
the corporate trustees were invalid under Texas law.
The corporation was incorporated pursuant to Texas
corporation law and that law dictates how the
corporation can be operated, including determining
the terms of office of corporate directors, the
circumstances under which articles and bylaws can be
amended, and the effect of the amendments. See Tex.
Bus. Org. Code §§ 22.001-.409. We conclude that this
record fails to show that, as a matter of law, the
trustees had been disqualified from serving as
corporate trustees at the relevant times. Nor does the
record conclusively show whether the 2009
appointments to the corporation board by Bishop Ohl
were valid or invalid under Texas law, or whether,
under Texas law, the actions taken by the trustees
appointed by Bishop Ohl in 2009 were valid or invalid.
Third, the Diocese argues that TEC has no trust
interest in the property. TEC Canon I.7.4, also known
as the Dennis Canon, provides:
All real and personal property held by or for
the benefit of any Parish, Mission or
Congregation is held in trust for this Church
and the Diocese thereof in which such Parish,
Mission or Congregation is located. The
existence of this trust, however, shall in no
way limit the power and authority of the
Parish, Mission or Congregation otherwise
existing over such property so long as the
particular Parish, Mission or Congregation
remains a part of, and subject this Church
and its Constitution and Canons.

App-245
The Diocese asserts that this canon does not create a
trust under Texas law, but that even if it does, it was
revocable and the Diocese revoked it when the
Diocesan canons were amended to state:
Property held by the Corporation for the use
of a Parish, Mission or Diocesan School
belongs beneficially to such Parish, Mission
or Diocesan School only. No adverse claim to
such beneficial interest by the Corporation,
by the Diocese, or by The Episcopal Church of
the
United
States
of
America
is
acknowledged, but rather is expressly denied.
TEC counters that the Dennis Canon creates a
trust because the corporation acceded to it and the
Diocese could not have adopted a canon revoking the
trust. TEC also asserts that the statutes applicable to
charitable trusts apply, but if they do not, a resulting
trust or other trust may be applied here because the
history, organization, and governing documents of the
Church, the Diocese, and the parish support
implication of a trust. The Diocese responds to TEC’s
arguments by referencing Texas statutory law
requiring a trust to be in writing and providing that
trusts are revocable unless they are expressly made
irrevocable. See Tex. Prop. Code § 112.004, .051. These
issues were not addressed by the trial court because it
granted summary judgment based on deference
principles. Upon remand the parties will have the
opportunity to develop the record as necessary and
present these arguments for the trial court to consider
in determining the rights of the parties according to
neutral principles of law. But regarding the trial
court’s consideration of the issue, we note that in

App-246
Masterson we addressed the Dennis Canon and Texas
law. There we said that even assuming a trust was
created as to parish property by the Dennis Canon and
the bylaws and actions of a parish nonprofit
corporation holding title to the property, the Dennis
Canon “simply does not contain language making the
trust expressly irrevocable . . . Even if the Canon could
be read to imply the trust was irrevocable, that is not
good enough under Texas law. [Texas Property Code
§ 112.051] requires express terms making it
irrevocable.” Masterson, ___ S.W.3d at ___.
Finally, as to the argument that application of
neutral principles may pose constitutional questions if
they are retroactively applied, we note that over a
century ago in Brown v. Clark, 116 S.W. 360 (Tex. 1909),
our analysis and holding substantively reflected the
neutral principles methodology.
V. Conclusion
We reverse the judgment of the trial court and
remand the case to that court for further proceedings
consistent with this opinion.
_________________________
Phil Johnson
Justice
OPINION DELIVERED: August 30, 2013

App-247
JUSTICE WILLETT, joined by JUSTICE LEHRMANN,
JUSTICE BOYD and JUSTICE DEVINE, dissenting.
Until 1940, when Texans amended their
constitution, the Supreme Court of Texas lacked any
authority to decide direct appeals (i.e., appeals that
leapfrog the court of appeals and pass directly to this
Court). Four years later, the Legislature first
exercised its new power to permit direct appeals, and
in the sixty-nine years since, this Court has exercised
that jurisdiction sparingly, only forty-three times. The
reason is simply stated: Our direct-appeal jurisdiction
is exceedingly narrow and only proper if the trial court
granted or denied an injunction “on the ground of the
constitutionality of a statute of this state.” 1
Today’s direct appeal is directly unappealable.
The trial court’s order nowhere mentions any
constitution or statute, much less the constitutionality
of a statute. Indeed, the trial court stated verbally that
it was not pivoting on the constitutionality of state
law. This dispute undoubtedly has a First Amendment
overlay, but for a direct appeal, constitutionality must
exist not just in the ether, but in the order.
As the trial court did not determine “the
constitutionality of a statute of this state,” its
injunction could hardly be issued “on the ground of the
constitutionality of a statute of this state.”
Accordingly, we lack jurisdiction. As I have
underscored before (albeit, like today, in a dissent):
Ultimately, it falls to us, the courts, to police
our own jurisdiction. It is a responsibility
rooted in renunciation, a refusal to exert
1

Tex. Gov’t Code § 22.001(c).

App-248
power over disputes not properly before us.
Rare is a government official who disclaims
power, but liberties are often secured best by
studied inaction rather than hurried action. 2
The merits in this case are unquestionably
important—and thankfully they are resolved today in
a companion case3—but here the Court can only reach
them by overreaching. We have no jurisdiction to
decide this case as a direct appeal. I would dismiss for
want of jurisdiction, and because the Court does
otherwise, I respectfully dissent.
I.

Background

The trial court in this case issued two injunctions,
requiring the defendants (now styling themselves as
the Episcopal Diocese of Fort Worth):
1.

“to surrender all Diocesan property, as
well as control of the Diocesan
Corporation” to the Episcopal Church
and other plaintiffs; and

2.

“to desist from holding themselves out as
leaders of the Diocese.”

The court’s reasons for granting the injunctions are
laid out in paragraphs one through three of its order:
1.

The Episcopal Church (the “Church”) is a
hierarchical church as a matter of law,
and since its formation in 1983 the
Episcopal Diocese of Fort Worth (the
“Diocese”) has been a constituent part of

2 In re Allcat Claims Serv., L.P., 356 S.W.3d 455, 474 (Tex.
2011) (Willett, J., concurring in part and dissenting in part).
3

Masterson v. Diocese of N.W. Tex., __ S.W.3d __ (Tex. 2013).

App-249
the Church. Because the Church is
hierarchical, the Court follows Texas
precedent governing hierarchical church
property disputes, which holds that in
the event of a dispute among its
members, a constituent part of a
hierarchical church consists of those
individuals remaining loyal to the
hierarchical church body. Under the law
articulated by Texas courts, those are the
individuals who remain entitled to the
use and control of the church property.
2.

As a further result of the principles set
out by the Supreme Court in Brown and
applied in Texas to hierarchical church
property disputes since 1909, the Court
also declares that, because The Episcopal
Church is hierarchical, all property held
by or for the Diocese may be used only for
the mission of the Church, subject to the
Church’s Constitution and canons.

3.

Applying those same cases and their
recognition that a local faction of a
hierarchical church may not avoid the
local church’s obligations to the larger
church
by
amending
corporate
documents or otherwise invoking
nonprofit corporations law, the Court
further declares that the changes made
by the Defendants to the articles and
bylaws of the Diocesan Corporation are
ultra vires and void.

(citations omitted).

App-250
There are no findings of fact or conclusions of law
attached. The order does not mention the United
States Constitution, the Texas Constitution, or any
particular state statute. The only possible allusion to
a statute is to “nonprofit corporations law,” which the
trial court found the defendants could not “invok[e]” to
“avoid [their] obligations to the larger church.” The
trial court’s legal support for this conclusion was a
string citation to a number of cases, not a citation to
any constitutional provision.
What is more, the defendants asked the trial court
to amend the order to specify that the court had held
a statute unconstitutional. The court declined to do so,
orally stating that its ruling was based not on
constitutionality, but rather on its application of
Brown v. Clark 4:
I still can’t just craft something to make it go
to the Supreme Court. I mean, it—my
understanding was that the—the trust laws
that you were talking about don’t apply in
this situation because of Brown, not because
they’re not constitutional.
Our decision in Brown relied heavily on Watson v. Jones. 5
Watson, in turn, “appl[ied] not the Constitution but a
‘broad and sound view of the relations of church and
state under our system of laws.’” 6

4

116 S.W. 360 (Tex. 1909).

5

80 U.S. 679 (1871).

6 Hosana-Tabor Evangelical Lutheran Church & Sch. v.
E.E.O.C., __U.S.__, 132 S. Ct. 694, 704 (2012) (quoting Watson,
80 U.S. at 727).

App-251
Nonetheless, the defendants filed a direct appeal.
We noted probable jurisdiction and heard oral
argument. But jurisdictional defects do not heal with
age, no matter how novel, pressing, or consequential
the issues at stake or how many judicial and party
resources have been expended. The most fundamental
restraint on judicial power is jurisdiction—our very
authority to decide cases in the first place—and if we
lack it, we lack it.
II. Discussion
A. History of Direct Appellate Jurisdiction
A 1940 constitutional amendment gave the
Legislature power to grant direct appeals to this
Court. 7 Not until 1944, though, did the Legislature do
so. 8 The original conferral allowed direct appeals from
injunctions based on two grounds, either (1) the
constitutionality or unconstitutionality of a state
statute, or (2) the validity or invalidity of certain state
administrative orders. 9 Today, the statutory grant of
direct-appeal jurisdiction covers just one situation:
“[A]n order of a trial court granting or denying an
interlocutory or permanent injunction on the ground
of the constitutionality of a statute of this state.” 10
See R.R. Comm’n of Tex. v. Shell Oil Co., 206 S.W.2d 235, 238
(Tex. 1947).
7

8

Id.

9

Id.

10 Tex. Gov’t Code § 22.001(c). The Constitution still allows the
Legislature to provide for direct appeal from injunctions based on
the validity of administrative orders, however. Tex. Const. art. V,
§ 3-b. But the express constitutional grant of direct-appeal
jurisdiction in Article 5, Section 3-b of the Constitution is
arguably now unnecessary given the broadened wording of the

App-252
I have found only forty-three cases where we have
exercised direct-appeal jurisdiction. That is, while
such jurisdiction has existed for nearly seventy years,
we have exercised it stintingly. In twenty-four of the
forty-three cases, our opinion made clear that the trial
court either made a direct holding about a statute’s
constitutionality or issued declaratory relief that a
statute was or was not constitutional. 11 In eleven
general jurisdictional provision in Article 5, Section 3. See Perry
v. Del Rio, 67 S.W.3d 85, 98 n.4 (Tex. 2001) (Phillips, C.J.,
dissenting) (“Since 1981, the Court’s appellate jurisdiction has
extended to all civil cases ‘as . . . provided . . . by law,’ Tex. Const.
art. V, § 3, so that the Legislature could now provide for direct
appeals without a specific constitutional grant of authority.”).
Accordingly, the Legislature has now provided for direct appeal
from certain trial court rulings that involve Public Utility
Commission financing orders. Tex. Util. Code § 39.303(f).
See Neeley v. West Orange-Cove Consol. Indep. Sch. Dist., 176
S.W.3d 746, 753-54 (Tex. 2005); State v. Hodges, 92 S.W.3d 489,
493 (Tex. 2002); FM Props. Operating Co. v. City of Austin, 22
S.W.3d 868, 872 (Tex. 2000); Owens Corning v. Carter, 997
S.W.2d 560, 567-68 (Tex. 1999); Maple Run at Austin Mun. Util.
Dist. v. Monaghan, 931 S.W.2d 941, 945 (Tex. 1996); Barshop v.
Medina Cnty. Underground Water Conservation Dist., 925
S.W.2d 618, 623, 625 (Tex. 1996); Edgewood Indep. Sch. Dist. v.
Meno, 917 S.W.2d 717, 727 (Tex. 1995); Richards v. League of
United Latin Am. Citizens, 868 S.W.2d 306, 308 (Tex. 1993); Tex.
Ass’n of Bus. v. Tex. Air Control Bd., 852 S.W.2d 440, 442 (Tex.
1993); Orange Cnty. v. Ware, 819 S.W.2d 472, 473 (Tex. 1991);
O’Quinn v. State Bar of Tex., 763 S.W.2d 397, 398 (Tex. 1988);
LeCroy v. Hanlon, 713 S.W.2d 335, 336 (Tex. 1986); Wilson v.
Galveston Cnty. Cent. Appraisal Dist., 713 S.W.2d 98, 99 (Tex.
1986); Spring Branch Indep. Sch. Dist. v. Stamos, 695 S.W.2d
556, 558 (Tex. 1985); Shaw v. Phillips Crane & Rigging of San
Antonio, Inc., 636 S.W.2d 186, 187 (Tex. 1982); Gibson Distrib.
Co. v. Downtown Dev. Ass’n of El Paso, Inc., 572 S.W.2d 334, 334
(Tex. 1978); Tex. Antiquities Comm. v. Dallas Cnty. Cmty. Coll.
Dist., 554 S.W.2d 924, 925-27 (Tex. 1977) (plurality opinion);
11

App-253
other cases, the trial court’s order clearly must have
been based on constitutional grounds, either because
the opinion implies that only constitutional issues
were raised to the trial court 12 or because the trial
court granted an injunction enforcing a statute over
constitutional objection, thus implicitly upholding the
statute against constitutional attack. 13 In two other
cases, we summarily stated that the trial court
granted or denied the injunction on the ground of a
statute’s constitutionality. 14 But in at least six directappeal cases, we did not make it clear why we thought
the trial court’s injunction was based on constitutional
Smith v. Craddick, 471 S.W.2d 375, 375-76 (Tex. 1971); State v.
Scott, 460 S.W.2d 103, 105 (Tex. 1970); State v. Spartan’s Indus.,
Inc., 447 S.W.2d 407, 409 (Tex. 1969); Jordan v. State Bd. of Ins.,
334 S.W.2d 278, 278-80 (Tex. 1960); Smith v. Decker, 312 S.W.2d
632, 633 (Tex. 1958); Rodriguez v. Gonzales, 227 S.W.2d 791, 79293 (Tex. 1950); Dodgen v. Depuglio, 209 S.W.2d 588, 591-92 (Tex.
1948).
See Conlen Grain & Mercantile, Inc. v. Tex. Grain Sorghum
Producers Bd., 519 S.W.2d 620, 621-22 (Tex. 1975); Robinson v.
Hill, 507 S.W.2d 521, 523 (Tex. 1974); Itz v. Penick, 493 S.W.2d
506, 508 (Tex. 1973); Smith v. Davis, 426 S.W.2d 827, 829 (Tex.
1968); Shepherd v. San Jacinto Junior Coll. Dist., 363 S.W.2d
742, 742-43 (Tex. 1962); King v. Carlton Indep. School Dist., 295
S.W.2d 408, 409 (Tex. 1956); Dallas Cnty. Water Control &
Improvement Dist. No. 3 v. City of Dallas, 233 S.W.2d 291, 292
(Tex. 1950).
12

See Gibson Prods. Co. v. State, 545 S.W.2d 128, 129 (Tex.
1976); Dancetown, U.S.A., Inc. v. State, 439 S.W.2d 333, 334 (Tex.
1969); Schlichting v. Tex. State Bd. of Med. Exam’rs, 310 S.W.2d
557, 558-59 (Tex. 1958); H. Rouw Co. v. Tex. Citrus Comm’n, 247
S.W.2d 231, 231-32 (Tex. 1952).
13

14 See State v. Project Principle, Inc., 724 S.W.2d 387, 389 (Tex.
1987); Duncan v. Gabler, 215 S.W.2d 155, 156-57 (Tex. 1948).

App-254
grounds. 15 These cases address jurisdiction rather
cursorily, and only one of the opinions garnered a
dissent on the jurisdictional issue, 16 to which the
majority opinion declined to respond. 17
But in the vast majority of cases where we have
exercised direct-appeal jurisdiction, it has been
abundantly clear that the trial court issued or denied
an injunction on the ground of a statute’s
constitutionality.
We have also issued at least eleven opinions in
which we dismissed attempted direct appeals for want
of jurisdiction because the statutory test was not
met. 18 We have variously explained that our direct-

See Del Rio, 67 S.W.3d 85 (majority opinion); Tex. Boll Weevil
Eradication Found., Inc. v. Lewellen, 952 S.W.2d 454 (Tex. 1997);
Carrollton-Farmers Branch Indep. Sch. Dist. v. Edgewood Indep.
Sch. Dist., 826 S.W.2d 489 (Tex. 1992); Ass’n of Tex. Prof’l
Educators v. Kirby, 788 S.W.2d 827 (Tex. 1990); Parker v. Nobles,
496 S.W.2d 921 (Tex. 1973); Dobard v. State, 233 S.W.2d 435
(Tex. 1950).
15

16

Del Rio, 67 S.W.3d at 98-100 (Phillips, C.J., dissenting).

17

Id. at 89, 95 (majority opinion).

See Tex. Workers’ Comp. Comm’n v. Garcia, 817 S.W.2d 60
(Tex. 1991); Querner Truck Lines, Inc. v. State, 652 S.W.2d 367,
368 (Tex. 1983); Mitchell v. Purolator Sec., Inc., 515 S.W.2d 101
(Tex. 1974); Holmes v. Steger, 339 S.W.2d 663 (Tex. 1960);
Standard Sec. Serv. Corp. v. King, 341 S.W.2d 423 (Tex. 1960);
Gardner v. R.R. Comm’n of Tex., 333 S.W.2d 585 (Tex. 1960);
Bryson v. High Plains Underground Water Conservation Dist. No.
1, 297 S.W.2d 117 (Tex. 1956); Corona v. Garrison, 274 S.W.2d
541 (Tex. 1955); Lipscomb v. Flaherty, 264 S.W.2d 691 (Tex.
1954); Boston v. Garrison, 256 S.W.2d 67 (Tex. 1953); McGraw v.
Teichman, 214 S.W.2d 282 (Tex. 1948).
18

App-255
appeal jurisdiction “is a limited one,” 19 that we have
been “strict in applying” or have “strictly applied”
direct-appeal jurisdictional requirements, 20 and that
“[w]e have strictly construed our direct appeal
jurisdiction.” 21 Therefore, we have held that to meet
the jurisdictional prerequisites, a trial court must
actually “pass upon the constitutionality of [a]
“determin[e]”
a
statute’s
statute,” 22
constitutionality, 23 or “base its decision” on
constitutional grounds. 24 Indeed, “[i]t is not enough
that a question of the constitutionality of a statute
may have been raised in order for our direct appeal
jurisdiction to attach in injunction cases; in addition
the trial court must have made a holding on the
question based on the grounds of the constitutionality or
unconstitutionality of the statute.” 25
A close examination of the eleven cases where we
dismissed for want of jurisdiction reveals strict
adherence to the Legislature’s restricted framework.
For example, we held “no jurisdiction” where the trial
court made the injunction decision based on res
judicata 26 or where the trial court was directed to do
so by a writ of prohibition by the court of civil
19

Gardner, 333 S.W.2d at 588.

20

Querner Truck, 652 S.W.2d at 368; Mitchell, 515 S.W.2d at

103.
21

Garcia, 817 S.W.2d at 61.

22

Corona, 274 S.W.2d at 541-42.

23

King, 341 S.W.2d at 425; Bryson, 297 S.W.2d at 406.

24

Holmes, 339 S.W.2d at 663-64.

25

Mitchell, 515 S.W.2d at 103 (emphasis in original).

26

Lipscomb, 264 S.W.2d at 691-92.

App-256
appeals. 27 That is, because the trial court did not
decide the merits of the constitutional issue, we lacked
direct-appeal jurisdiction. 28 Similarly, we held that we
did not have such jurisdiction where the trial court
denied an injunction because the plaintiffs lacked “the
necessary justiciable interest” to sue. 29 We even held
that we lacked jurisdiction over a direct appeal of a
temporary injunction involving a “serious question” of
the constitutionality of a statute, because the real
purpose of the temporary injunction was merely to
preserve the status quo, and the trial court did not
make any holdings finally determining the
constitutional issue. 30
B. Application
Given our long, consistent history of cautiously
and
narrowly
construing
our
direct-appeal
jurisdiction, the outcome of this case seems essentially
predetermined: We lack jurisdiction. The Legislature
allows parties to skip the court of appeals in one
extraordinarily limited circumstance: where the trial
court’s injunction turned “on the ground of the
constitutionality of a [state] statute.” 31 The crux and
rationale of the trial court’s order is dispositive. Here,
the trial court did not “pass upon the constitutionality
of
a
statute,” 32 “determin[e]”
a
statute’s

27

Gardner, 333 S.W.2d at 589.

28

Corona, 274 S.W.2d at 541-42.

29

Holmes, 339 S.W.2d at 664.

30

Mitchell, 515 S.W.2d at 103-04.

31

Tex. Gov’t Code § 22.001(c).

32

Corona, 274 S.W.2d at 541-42.

App-257
constitutionality, 33 or “base its decision” on
constitutional grounds. 34 While the constitutional
issues may have been raised in the trial court, that
alone is “not enough.” 35
At most, the trial court’s order only vaguely
alludes to nonprofit-related statutes, and there is
certainly no indication in the order that the trial court
was making a constitutional determination. The trial
court order refers generally to nonprofit law and says
the defendants cannot rely on this law to escape the
deference principle, providing a string citation as
support. But only one of the cases in the string citation
even refers to constitutional principles, and that case
does not hold that only the deference approach is
constitutional. 36 Moreover, that case was decided two
years before the United States Supreme Court
clarified in Jones v. Wolf that the “deference” rule is
not mandated by the First Amendment. 37
A diaphanous hint that a statute was viewed
through a constitutional prism is not enough to justify
exercising our “limited” 38 and “strictly construed” 39
direct-appeal jurisdiction. And here, the trial judge
orally eschewed such a ruling, making it doubly clear
33

King, 341 S.W.2d at 425; Bryson, 297 S.W.2d at 119.

34

Holmes, 339 S.W.2d at 663-64.

35

Mitchell, 515 S.W.2d at 103.

See Presbytery of the Covenant v. First Presbyterian Church
of Paris, Inc., 552 S.W.2d 865, 870-71 (Tex. Civ. App.—
Texarkana 1977, no writ).
36

37

443 U.S. 595, 605 (1979).

38

Gardner, 333 S.W.2d at 588.

39

Garcia, 817 S.W.2d at 61.

App-258
that its order was not based on constitutional grounds.
In light of Jones (that the deference approach is not
constitutionally required) and the trial court’s
comments (that it was holding the statutes
inapplicable but not unconstitutional), it seems an
impressive stretch to transform the trial court’s
citation to an ambiguous pre-Jones case into a
constitutional holding striking down state law.
Perhaps the order’s silence and the judge’s
disavowal are beside the point if unconstitutionality
was the inescapable basis for the trial court’s ruling,
as the majority concludes. Indeed, the defendants
contend the order makes no sense unless it turned on
a constitutional holding. As the defendants interpret
the order, the trial court effectively held certain
statutes unconstitutional if applied to local churches
of hierarchical religions. In their Statement of
Jurisdiction, the defendants argue that a court can
only reject statutes like this on “constitutional
grounds.” This assertion rests on the faulty premise
that any time a court deems a statute inapplicable, it’s
because the statute would be unconstitutional if
applied. Not true.
A court can refuse to apply a statute for various
non-constitutional reasons. For example, if a statute
purports to change long-standing common law, a court
closely examines whether the Legislature truly
intended to supplant the settled rule. 40 The trial court
40 See Energy Serv. Co. of Bowie v. Superior Snubbing Servs.,
Inc., 236 S.W.3d 190, 194 (Tex. 2007) (“Of course, statutes can
modify common law rules, but before we construe one to do so, we
must look carefully to be sure that was what the Legislature
intended.”).

App-259
in this case may have applied (or misapplied) this kind
of analysis, finding that pertinent statutes did not
indicate legislative intent to abandon the common-law
deference principle that we declared in Brown.
Perhaps the trial court looked at a century of
legislative inaction after Brown and took it as
legislative acquiescence. There are other nonconstitutional reasons to deem a statute ineffective,
like the absurdity doctrine. 41 So even if a trial court
implicitly invalidates a statute or finds it inapplicable,
its reason for doing so is not necessarily because the
Constitution demands it.
Thus, it cannot be true that by following Brown v.
Clark, the trial court implicitly held that any statute
that might apply under neutral principles is
necessarily unconstitutional if applied to a churchproperty dispute in a hierarchical setting. This
argument is foreclosed by Jones v. Wolf. If states are
free, consistent with the First Amendment, to choose
either approach, then choosing the deference test
cannot equate to an implicit holding that applying
statutes relevant under neutral principles would be
unconstitutional. Nobody can argue that Texas courts
are required to adopt neutral principles—Jones
precludes that argument.
Tellingly, the defendants do not attempt to
analogize this case to any other in which the Court has
exercised direct-appeal jurisdiction. None is
comparable. No constitutional question was presented

41 See, e.g., TGS-NOPEC Geophysical Co. v. Combs, 340 S.W.3d
432, 439 (Tex. 2011).

App-260
(or decided) in the trial court, and none is presented
(or decided) here. 42
Undoubtedly, we have already noted probable
jurisdiction, heard argument on the merits, and
committed substantial judicial resources to resolving
the issues—to say nothing of the effort and cost
expended by the parties. But to assert jurisdiction
simply because it would be inconvenient to do
otherwise betrays the deeply rooted constitutional
principle that our jurisdiction is conferred ultimately
The Rules of Civil Procedure previously specified that we
could not accept such jurisdiction unless the case presented a
constitutional question to this Court. Lipscomb, 264 S.W.2d at
691-92, quotes the former rule (Tex. R. Civ. P. 499a(b)) as
providing (emphasis added):
42

An appeal to the Supreme Court directly from such a
trial court may present only the constitutionality or
unconstitutionality of a statute of this State, or the
validity or invalidity of an administrative order issued
by a state board or commission under a statute of this
State, when the same shall have arisen by reason of the
order of a trial court granting or denying an
interlocutory or permanent injunction.
Accordingly, we said that one of the prerequisites for directappeal jurisdiction was that a constitutional “question is
presented to this Court for decision.” Bryson, 297 S.W.2d at 119.
Admittedly, our Rules (which have since migrated to the Rules of
Appellate Procedure) no longer specify that a direct appeal must
present an actual constitutional question to this Court. Tex. R.
App. P. 57; see also Del Rio, 67 S.W.3d at 98-99 (Phillips, C.J.,
dissenting). But the Legislature’s limited grant of such
jurisdiction has not wavered, and we simply cannot accept a
direct appeal unless a statute has been declared constitutional or
unconstitutional. That did not happen here.

App-261
from the People, directly through our Constitution and
indirectly through our elected representatives.
Dismissing this case for want of jurisdiction would
be sure to furrow brows, but there is no more
principled reason to dismiss a case than to decide,
even belatedly, that you lack the power to decide.
Besides, and this is some consolation, the core merits
issue presented—deciding which legal test should
govern
church-property
disputes—is
squarely
43
resolved in today’s companion case, so a dismissal
here would not unduly delay authoritative resolution
or work any irreparable harm.
III. Conclusion
Our
characterizations
of
direct-appeal
jurisdiction, something we have “strictly construed,”
are not ambiguous:
• “rare”
• “restricted”
• “very limited”
In light of this consistent clarity, the Court’s
exercise of jurisdiction has an unfortunate ipse dixit
quality to it. The statutory test for direct-appeal
jurisdiction is whether the trial court made its
decision “on the ground of the constitutionality of a
[state] statute.” A statute, for example, must be
invalidated, not just implicated. Direct-appeal
jurisdiction is a rare (as it should be) short-circuiting
of the usual rules, and I respectfully take exception to
broadening the exception.

43

Masterson, __ S.W.3d __.

App-262
The power of judicial review—the authority to
declare laws unconstitutional—is a genuinely
stunning one, and one that judges exercise with
surpassing trepidation. Given the stakes, it is difficult
to imagine a judge striking down a legislative
enactment stealthily, using gauzy language that
requires reading between the lines. This judge
certainly didn’t believe he had declared anything
unconstitutional, and he said as much—on the record
and unequivocally.
Today marks the second time this Court has
stretched our direct-appeal jurisdiction beyond its
statutory bounds. 44 The objective in both cases has
apparently been to let the Court fast-forward to the
merits of an important case. But an issue’s importance
and our commendable desire to resolve it swiftly does
not give us license to enlarge our jurisdictional powers
by fiat. In language that could have been written with
today’s case in mind, Chief Justice Phillips wrote in
dissent over a decade ago:
Dismissing a case on jurisdictional grounds
may be frustrating to judges and litigants
alike, particularly when issues of statewide
import are involved . . . . However, the
Legislature has chosen to make direct appeal
an uncommon remedy, available only in rare
and specific situations. Regardless of the
day’s exigencies, our highest and only duty is
to respect the appropriate limits of our

44

See Del Rio, 67 S.W.3d at 89 (majority opinion).

App-263
power . . . . I fear that our Court has allowed
a hard case to make bad law today. 45
The Court may come to rue its decision to assert
direct-appeal jurisdiction in this case. Our rules seem
to mandate our exercise of such jurisdiction in cases
where a permanent injunction is based on the
constitutionality of a statute (because our rules make
direct-appeal jurisdiction discretionary only in
temporary injunction cases). 46 Therefore, in addition to
encroaching on the Legislature’s constitutional
prerogative to define our direct-appeal jurisdiction,
the Court’s decision may perversely require this Court
to immediately hear all direct appeals of permanent
injunctions that even vaguely implicate a statute’s
constitutionality.
I would dismiss this case for want of jurisdiction,
and because the Court does otherwise, I respectfully
dissent.
Don R. Willett
Justice
OPINION DELIVERED: August 30, 2013

45

Id. at 100 (Phillips, C.J., dissenting).

46

See Tex. R. App. P. 57.2.

App-264
Appendix E
DISTRICT COURT, TARRANT COUNTY TEXAS
141ST JUDICIAL DISTRICT
________________
No. 141-237105-09
________________
THE EPISCOPAL CHURCH, et al.,
v.

Plaintiffs,

FRANKLIN SALAZAR, et al.,
Defendants.
________________
Filed: Feb. 8, 2011
________________
AMENDED ORDER ON SUMMARY JUDGMENT
________________
This Amended Order on Summary Judgment
supersedes the Orders on Summary Judgment signed
by the Court on January 21, 2011.
On January 14, 2011, came on for consideration
(1) The Episcopal Church’s Motion for Summary
Judgment, (2) The Local Episcopal Parties’ Amended
Motion for Partial Summary Judgment; and
(3) Defendants’ Motion for Partial Summary
Judgment. Having considered the pleadings, motions,
any responses and replies, evidence on file subject to
the Court’s rulings on the objections to that evidence,
the governing law, and arguments of counsel, the
Court orders as follows:

App-265
The Episcopal Church’s Motion for Summary
Judgment is GRANTED in part.
The Local Episcopal Parties’ Amended Motion for
Partial Summary Judgment is GRANTED in part.
Defendants’ Motion
Judgment is DENIED.

for

Partial

Summary

The Court hereby issues a DECLARATORY
JUDGMENT pursuant to Texas Civil Practice and
Remedies Code §§ 37.001, et seq., declaring that:
1. The Episcopal Church (the “Church”) is a
hierarchical church as a matter of law, and since its
formation in 1983 the Episcopal Diocese of Fort Worth
(the “Diocese”) has been a constituent part of the
Church. Because the Church is hierarchical, the Court
follows Texas precedent governing hierarchical church
property disputes, which holds that in the event of a
dispute among its members, a constituent part of a
hierarchical church consists of those individuals
remaining loyal to the hierarchical church body. See,
e.g. Brown v. Clark, 102 Tex. 323, 116 S.W. 360 (1909);
Presbytery of the Covenant v. First Presbyterian
Church, 552 S.W.2d 865 (Tex.Civ.App.—Texarkana
1977, no writ). Under the law articulated by Texas
courts, those are the individuals who remain entitled
to the use and control of the church property. Id.
2. As a further result of the principles set out by
the Supreme Court in Brown and applied in Texas to
hierarchical church property disputes since 1909, the
Court also declares that, because The Episcopal
Church is hierarchical, all property held by or for the
Diocese may be used only for the mission of the
Church, subject to the Church’s Constitution and
canons.

App-266
3. Applying those same cases and their
recognition that a local faction of a hierarchical church
may not avoid the local church’s obligations to the
larger church by amending corporate documents or
otherwise invoking nonprofit corporations law, see
Green v. Westgate Apostolic Church, 808 S.W.2d 547,
552 (Tex. App.—Austin 1991, writ denied); Presbytery
of the Covenant, 552 S.W.2d at 870, 872; Church of
God in Christ, Inc. v. Cawthon, 507 F.2d 599, 600-02
(5th Cir. 1975); Norton v. Green, 304 S.W.2d 420, 42324 (Tex. Civ. App.—Waco 1957, writ ref’d n.r.e.), the
Court further declares that the changes made by
Defendants to the articles and bylaws of the Diocesan
Corporation are ultra vires and void.
The Court hereby ORDERS the Defendants to
surrender all Diocesan property, as well as control of
the Diocesan Corporation, to the Diocesan plaintiffs 30
days after Judgment becomes final.
The Court hereby ORDERS the Defendants to
desist from holding themselves out as leaders of the
Diocese when this Order becomes final and
appealable.
Signed this [handwritten: 8] day of [handwritten:
February], 2011.
[handwritten: signature]
JUDGE PRESIDING

